*

No.

IN THE
SUPREME COURT OF THE UNITED STATES

KATHLEEN C. HAMPTON,
Petitioner;
v.
PROF-2013-S3 LEGAL TITLE TRUST, BY U.S. BANK NATIONAL
ASSOCIATION, AS LEGAL TITLE TRUSTEE
Respondent
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
ON APPEAL FROM THE SUPREME COURT OF VIRGINIA
DECISION IN RECORD NO. 201103
By- Kathleen C. Hampton, Petitioner pro se
P.O. Box 154
Bluemont, Virginia 20135
Phone: 540-554-2042
khampton47@yahoo.com

ft

APPENDIX
Supreme Court of Virginia Record No. 201103
Loudoun County Circuit Court Civil No. 118604*00
Loudoun County General District Court Case No. GV17000311*00
(Prior Related Case No. GV16004218-00 dismissed 9/26/2016)
App. Page
Appendix A Circuit Court of Loudoun County Final Order
granting Summary Judgment and. possession to the
Property to PROF*2013*S3 Legal Title Trust, by US Bank
National Association, as Legal Title Trustee, in the unlawful
detainer action, Civil No. 118604*00, dated February 7, 2020

1

Appendix B Supreme Court of Virginia Opinion “there is no reversible
error in the judgment complained of’ and Refused the
Petition for Appeal, Record No. 201103, dated March 23, 2021

10

Appendix C Supreme Court of Virginia Denialoi the Petition for Rehearing,
Record No. 201103, dated May 14, 2021

11

Appendix D Supreme Court of Virginia Denial of Appellee’s Motion to
Dismiss, Record No. 201103, dated December 11, 2020

12

From the Companion PetitionAppendix E Circuit Court of Loudoun County Final Order granting
Demurrer to PROF*2013*S3 Legal Title Trust, by
US Bank National Association, as Legal Title Trustee,
and dismissed with prejudice to Hampton’s Counterclaims and
Sanctions, Civil No. 118605*00, dated February 7, 2020

13

Appendix F Supreme Court of Virginia Opinion “there is no reversible
error in the judgment complained of’ and Refused the
Petition for Appeal, Record No. 201105, dated March 23, 2021

22

Appendix G Supreme Court of Virginia Denial of the Petition for Rehearing,
Record No. 201105, dated May 14, 2021

23

Appendix H Supreme Court of Virginia Denial of Appellee’s Motion to
Dismiss, Record No. 201105, dated December 11, 2020

24

1

App. Page
Other Orders from Proceedings in the Circuit CourtAppendix I Circuit Court of Loudoun County Order dated February 7,
2020, denying Hampton’s Motion for Rehearing or in the
Alternative Motion for a Mistrial Supporting Memorandum
ofLaw, filed December 20, 2019

25

Appendix J Circuit Court of Loudoun County Order dated December 19,
2019, denying Hampton’s Motion for Rehearing or in the
Alternative Motion for a Mistrial, filed November 18, 2019

27

Appendix K Circuit Court of Loudoun County Order dated November 11,
2019, denying Hampton’s Motion for Reconsideration and
Supporting Memorandum ofLaw, filed October 25, 2019, and
Hampton’s Motion for Reconsideration ofFurther Support to
Memorandum ofLaw, filed November 1, 2019

29

Appendix L Circuit Court of Loudoun County Order dated October 4, 2019,
denying Hampton’s Motion to Dismiss, filed September 18, 2019

31

Appendix M Constitutional and Statutory Provisions Involved

33

Petitioner’s filings to all Orders above-

37

In the Supreme Court of Virginia-

38

Appendix N Appellant’s Petition for Rehearing filed in the Supreme Court
of Virginia, Record No. 201103, electronically April 6, 2021

39

Appendix O Appellant’s Notes of Oral Argument before the Supreme Court
of Virginia, as presented to Justices Lemon, Powell & Chafin,
Record No. 201103, telephonically February 16, 2021

50

Appendix P Appellant’s Petition for Appeal filed in the Supreme Court
of Virginia, Record No. 201103, posted September 8, 2020

58

Appendix Q Appellant’s Response to Motion to Dismiss Petition for Appeal
filed in the Supreme Court of Virginia, Record No. 201103,
electronically October 10, 2020

2

101

*

App. Page
In the Circuit Court of Loudoun County Virginia-

106

Appendix R Hampton’s Objections to the Final Order on Summary
Judgment in the Unlawful Detainer Action, Civil No. 118604-00,
filed February 21, 2020 (without Exhibits 43-E & 43-G re
Corrective Affidavit)

107

Appendix S Hampton’s Motion for Rehearing or in the Alternative
Motion for a Mistrial Supporting Memorandum ofLaw
(Civil No. 118604-00 & Companion Civil No. 118605-00)
filed December 20, 2019 (without Exhibits 24[+24a-24d] re
Cease & Desist and Exhibit 38 re Bloomberg Audit)

122

Appendix T Hampton’s Motion for Rehearing or in the Alternative
Motion for a Mistrial (Civil No. 118604-00 & Companion
Civil No. 118605-00) filed November 18, 2019 (without
excerpt transcript on rulings from October 18, 2019 hearing)

138

Appendix U Hampton’s Motion for Reconsideration ofFurther Support
to Memorandum ofLaw (Civil No. 118604-00 & Companion
Civil No. 118605-00) filed November 1, 2019 (without the
referenced 209 pages of evidence/exhibits identified therein
from related Civil Case No. 98163-00)

146

Appendix V Hampton’s Motion for Reconsideration and Supporting
Memorandum ofLaw (Civil No. 118604-00 & Companion
Civil No. 118605-00) filed October 25, 2019 (without the
hearing transcript of January 3, 2017, and Hampton’s
Motion for Reconsideration and Memorandum in Support
ofMotion for Reconsideration, filed January 10, 2017, in
related Civil Case No. 98163-00)

151

Appendix W Hampton’s Motion to Dismiss (Civil No. 118604-00 &
Companion Civil No. 118605-00) filed September 18, 2019
(with #6 Transcript of Hearing of October 4, 2019, together
with List of Exhibits/Documents given to Court and the 1st
& 2nd noted documents thereon- Notes read at GDC 11-14-18
hearing & Hampton’s related Reply Brief to SCOTUS 9-25-19
[No. 18-9127])
3

175
180
192
193
195

-r

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Plaintiff,
v.
KATHLEEN C. HAMPTON
Defendant.

)

)
)
)
)
)
)
)
)
)
)

Civil No. 118604-00

FINAL ORDER
On October 18, 2019 this matter came before the Court on the Plaintiffs Motion for
Summary Judgment. Counsel for the Plaintiff was present. Ms. Hampton, the Defendant, was
present pro se.
For reasons stated of record, as memorialized in the attached Transcript of Hearing
Excerpt from October 18. 2019. which is hereby incorporated into this Order, it is hereby
ORDERED that the Motion for Summary Judgment of Plaintiff PROF-2013-S3 Legal
Title Trust, by U.S. Bank, National Association, as Legal Title Trustee is granted, and that
judgment is granted in favor of the Plaintiff in this unlawful detainer action. Accordingly, it is
also
ORDERED that the Plaintiff PROF-2013-S3 Legal Title Trust, by U.S. Bank, National
Association, as Legal Title Trustee is granted possession of the Property known as and located
at 34985 Snickersvifle Turnpike, in Round Hill, Virginia 20141.

ft

II

App. 1

.V

This Order was prepared by the Court. Endorsements are dispensed with pursuant to
Rule 1:13 and the parties are granted leave to file with the Clerk in writing any exception to the
Court’s ruling on or before February 21.2020.
This Order is final.
Let the Clerk forward a copy hereof without charge to counsel for the Plaintiff and to
Ms. Hampton.

ENTERED this

7

day of February, 2020.

Stephei^E.^Sinfcava

App. 2

. V1

UaOw2*^

Co//^&°Ll
^

,

Fl^n

mum m
Planet Depps
;'We;>iake;!t,Hoppen;'

Transcript of Hearing Excerpt
Date: October 18, 2019
Case: Prof-2013-S3 Legal Title Trust -v- Hampton

Planet Depos

Phone: 888.433.3767
Email:: transcripts@pianetdepQs.com
www.planetdepos.com

.WORLDWIDE
*«
- COURT
.
, REPORTING &- LITIGATION TECHNOLOGY

App. 3

V

Transcript of Hearing Excerpt
Conducted on October 18, 2019

a ci to 4)
3

1

VIRGINIA:

2

IN THE CIRCUIT COURT OP LOUDOUN COUNTY

2

]

4

PROF-2913-S3 LEGAL
TITLE TRUST.

5

APPEARANCES

5

ON BEHALF OF PLAINTIFF:

3

LISA HUDSON KIH, ESQUIRE

4

SAHUcl 1. WHITE, PC

Plaintiff,

c

vs

7

KATHLEEN C. HAMPTON.

I

Defendant.

CASE NO.
cLoemseA'CO

9

£

5640 Corporate Woods Drive, Suite 120

6

Virginia Beach, Virginia 23462

7

(757) 490-9284

8

19

Recorded Hearing

11

(lodge's Ruling Only Transcribed)

12

Friday, October 18, 2819

9

ON BEHALF OF DEFENDANT:

Kathleen c. hahpton, pro se

19
11

P.O. Boy 154

12

Bleunont, Virginia

13

(540) 554-2042

1:11 o.o.

13

26135

14
15
14

IE

IS

17
II

16

19

17

29

lob No.:

21

Pages:

2S9223
1-21

22 Transcribed by:

18

.*

19

Bonnie Panck

29
21
22

2
1

Recorded Hearing held pursuant to

4
1

CONTENTS

2

agreenent, before Donald E. Lane, II, Notary

2

3

Public of the Stole of Virginia, at the Circuit

3

4

Court of Loudoun County, 18 E. Market Street.

4

EXHIBITS

S

Leesburg, Virginia, 29176.

5

(None.)

6

6

7

7

8

8

9

9

ie

19

>1

II

12

12

13

13

14

14

15

15

16

16

17

17

16

18

19

19

29

29

21

21

22

22

RULING BY:

PAGE

Judge Sincavage

S

PLANET DEPOS
888.433.3767 | WW.PLANETDEPOS.COM

App. 4

V*

Transcript of Hearing Excerpt
Conducted on October 18} 2019
5

PROCEEDINGS
2
JUDGE SINCAVAGE: All right. Thank you
3 for your patience. There's in this, case a lot to
4 think about, a lot to look at I know these are
5 important matters to both parties and they're
6 important to the court as well, and I want to — I
7 want to say 1 do appreciate that clearly each of
8 ya'll have very different positions on this
9 litigation
10
And ya'll have been at it for a while
11 as the record shows, and I do appreciate that
12ya’ll have been able to present professional
13presentations here and you're not-14notwithstanding your differences, and I say this
15 because sometimes it isn't this way where lawyers
16 and litigants are sniping at each other and doing
17 all that, and that di dn't happen here and the
18 court does appreciate that
19
Now, let me just say to Ms. Hampton
20 that a lot of the arguments that you put forward
21 today and in your papers really sounded and came
22 across like a closing argument in a case where
1

7

And what I mean by that is we need to
keep in mind that where we are at in this
litigation given previous rulings and given the
state of the law is that issues and facts feat
bear on fee validity or invalidity of title aren't
material to the inquiry feat is being made here
today because of fee Paris case.
The court's jurisdiction on this —
8
9 these matters is derivative of the general court's
10 jurisdiction which per Paris clearly doesn't
11 include fee ability, the jurisdiction, the power,
12 fee authority to try issues of tide.
Now, interestingly at another stage in
13
14 this case ifs been Ms. Hampton, and even today
15ifs been Ms. Hampton who has advocated this
16 position and today even continuing in her quest to
17 have the general district court initially and now
18 this court dismiss Profs case because of Paris,
19 because ifs her position feat the case actually
20 shouldn't be here because it involves matters of
21 tide.
Now, fee court has ruled on feat and
22
1
2
3
4
5
6
7

6

1 you're challenging the foreclosure and fee title,
2 and I understand that because I understand your
3 position as to why it is feat you think things
4 should go in a direction in this litigation and
5 why you should be granted certain relief
And conversely there wasn't really a
6
7 whole lot of your presentation here today that was
8 really responsive to the issues that were before
9 fee court, and that's the motion for summary
10 judgment and fee demurrer, and I need to decide
11 the motion for summary judgment and I need to
12 decide fee demurrer.
Pm not here today to hear and decide a
13
14closing argument in a case that isn't really
15 before fee court, so the issue on summary judgment
16 as we have heard said a couple of times here today
17 and have seen the papers, are there any genuine
18disputes ofmaterial facts. Andlthinkan
19 important word there is — there's a lot of
20 important words there, but one of the most
21 important words for this analysis is material
22 facts.

2 C5 to 8)

8

fee court did decline to dismiss fee claim because
fee court found for reasons stated at feat hearing
that Ms. Hampton's claim of — feat title was
invalid was not a bona fide claim under the law.
Obviously Ms. Hampton disagrees with fee courfs
decision to deny fee motion to dismiss.
It doesn't then allow her or any
7
8 litigant to backup now and ignore Paris, ignore
9 law that you've cited and relied on in the
10 litigation of this case and continue to want to
11 assert, attacks the validity of the title where
12 this case arose in general district court and now
13 is in circuit court after appeal when fee law
14 clearly indicates otherwise.
Ms. Hampton can’t on fee one hand
15
16 trumpet fee law and say you can't have this type
17 of case here where a title is tried, I want it
18 dismissed, and then continue to have tide
19 interjected into the issues that she wants tried,
20 so fee issue in fee plaintiffs claim is an
21 unlawful detainer claim and nothing more.
So fee materiality of fee dispute must
22

1
2
3
4
5
6

PLANET DEPOS
888.433.3767 | WWV.PIJlNETDEPOS.COM

App. 5

V

Transcript of Hearing Excerpt
Conducted on October 18, 2019
9

1 be seen in the light of unlawful detainer action
2 and unlawful detainer action only, so start with
3 looking at the summons. There was a summons Sled
4 for unlawful detainer in January o f 2017 and you
5 look at the code 801126.
6
Let's see, I always — D4, if on the
7 day of a foreclosure sale of a single family
8 residential dwelling unit the former owner remains
9 in possession of the dwelling — said dwelling
10 unit such former owner becomes a tenant at
11 suffering. Such tenancy may be terminated by
12 written termination notice from the successor
13 owner given to such tenant at least three days
14 prior to the effective date of termination.
15
So when we examine the record properly
16 in this case of matters that can be considered on
17 summary judgment, including admissions, we have
18 listed as Exhibit 1 to the motion for summary
19 judgment the deed of foreclosure which is
20 instrument number 20160513 which was referenced in
21 the request for admissions.
22
And among the responses to that is Ms.

11

1 litigation, and as well because there's been an
2 attempt to attack in a previous case the validity
3 of the foreclosure. That case was dismissed at
4 demurrer, and that is under the law a decision on
5 the merits.
6
Now, Ms. Hampton has strenuously and
7 continuously contended that the prior case was not
8 heard on the merits, and I can understand a — an
9 argument that says that because there wasn't a
10 trial, but you don't have to have a trial to under
11 the law have the decision be a merits decision,
12 and I think part of that — from hearing the
13 argument part of that position is taken from Ms.
14 Hampton.
And one of the things she said is that
15
16-- well, she said multiple times she wasn't
17 afforded due process, but I think part of what Ms.
18 Hampton's contention with this process has been is
19 that as she said today she never got to establish
20 the truth of her allegations, and I understand
21 that in the sense that in that case there was no
22 trial, there was no evidence.

20

1
2
3
4
5
6

Hampton's admission that it's a true copy of what
Samuel L White filed in the county records, said
deed of foreclosure to Green T. Prof as filed
electronically and recorded on May 13,2016 nearly
6 months after the trustee of sale — after
trustee's sale of 12-7-15.
7
As well in the request for admissions
8 there's a reference to notices to vacate, one on
9 June 2,2016 wherein Ms. Hampton admits that on
lOJune 7th, 2016 she received notice to vacate from
11 the Marinosci Law Group. Obviously all these
12 regard the pertinent subject property.
13
Those matters being admitted in toe
14couifs view leave no material issue in genuine
15 dispute because they conclusively demonstrate as a
16matter of law thatProfis entitled to possession •
17 of toe subject property under toe unlawful
18 detainer statute.
19
The demonstration of the deed of
20 foreclosure which has not been found to be
21 invalid, for the reasons that have been stated
22previously such an attack isn't cognizable in this

12

You said there was no discovery and you
never got to call a witness to say hey, what I'm
alleging is true. In fact, though, that case
which was decided in a demurrer setting, toe court
assumes that all the facts that you alleged are
true, okay, as well as any implied facts and any
reasonable inferences.
• They're looked at in the light most
8
9 favorable to the pleader, which in that case was
lOMs. Hanpton, so even though there wasn’t a trial
11 toe pleader in that case, Ms. Hampton, actually
12 had the benefit of what Til just call a fast
13 track to toe development of your allegations and
14 the facts because at a demurrer standard they're
15 taken as true by the circuit court and then
16 reviewed by an appellate court
The only exception to that is if
17
18 there's any contrary demonstration and exhibit
19 that may be attached to a complaint they get
20 deference and there's a fast track because even
21 though in deciding the demurrer where the court
22 says okay, Pm looking at this complaint,

1
2
3
4
5
6
7

PLANET DEPOS
88S.433.3767 \ WWW.PLANETDEPOS.COM

App. 6

3 (9 to 12)

v‘

Transcript of Hearing Excerpt
Conducted on October 18, 2019
13

1 everything that Ms. Hampton is alleging I'm taking
2 as true, but even so there is not a cognizable
3 claim here under the law of the commonwealth.
And you got to that point where
4
5 everything is accepted as true' without having to
6 put on witnesses or put on evidence or argue the
7 weight and credibility because all those issues
8 were decided in your favor in consideration of the
9 demurrer.
So thats in the court's view a counter
10
11 to a position that the court didn't consider your
12allegations after they've been allowed to develop
13 because you're the maker of the allegations and
14 the court said okay, those are true, so I think
15 that's in part why these decisions on demurrers
16 can be seen as decisions on file merits.
So this is all part of saying that the
17
18 deed of foreclosure and its provisions stands as
19 valid as does the notice to vacate, and as a
20 matter of law I find that plaintiff is entitled to
21 possession, so the court grants the plaintiffs
22 motion for summary judgment and grants possession
14

4 03 to 16)
15

1 look at Under the doctrine of res judicata a
2 party whose claim for relief arising from
3 identified conduct a transaction or an occurrence
4 is decided on die merits by final judgment shall
5 forever be barred from prosecuting any second or
6 subsequent civil action against the same opposing
7 party or parties on any claim or cause of action
8 that arises from the same conduct, transaction or
9 occurrence whether or not the legal theory or
10 rights asserted in the second or subsequent action
11 were raised in the prior lawsuit
So when I look at the claim, the
12
13 counterclaim and sanctions document in the light
14 most favorable it is a pleading that again seeks
15 to challenge the validity of file foreclosure and
16 the plaintiffs subsequent purchase of the
17property. Those are the very issues that were
18 subject to the litigation in the circuit court
19 case number 98163.
There's 98 — yeah, 98163, and that
,20
21 case has been much referenced and written about
22 and talked about That case was decided. It was
16

1 dismissed, and as I said a moment ago it was a
1 of the subject property to the plaintiff On the
2 demurrer there were several bases of demuner that 2 merits decision. It was the same transaction and
3 occurrence and all the issues relating to fiie
3 were put forward. The one I'm going to address
4 foreclosure sale either were or should have been
4 first is the one of res judicata.
5 litigated in that case, so on that ground I find
In looking at the document called
5
6 that the demurrer to the counterclaim should be —
6 counterclaim and sanctions, which the court again
7 to the document called counterclaim and sanctions
7 as I just said a moment ago reviews in the light
8 should be sustained in all respects.
8 most favorable to the pleader which in this case
Any claim for sanctions, ifs hard to
9 is Ms. Hampton, giving all impLied facts and
9
10 inferences seen in the light most favorable which
10 tell from the paper what was actually intended.
11 there because Ms. Hampton's language was such that
111 think was important, especially in this
12 the law was I sanctioned the plaintiff or so on
12 circumstance because the document titled
13 counterclaims and sanctions really reads much like 13 and so forth, didn't really read as many sanctions
14 claims would, but in any event it didn't state a
14 a history of the case and is really in file court's
15 proper claim for a court to award sanctions so
15 view lacking in clarity in identifying claims
16 which in the court's view I think alone would be a
16 that link of the document counterclaims and
17basis to sustain a demurrer because of lack of a
17 sanctions is -- file demurrer is also sustained.
18 cognizable claim.
18
Having sustained the demurrer to that
19 pleading the court does order that the
But that wasn't cited as a ground by
19
20 counterclaims and sanctions be dismissed with
20the defendant, so the court can't really sustain a
21 prejudice. I am not going to take any action.
21 demurrer on that ground. The ground of res
22 Ms. Kim, you talked about a potential other
22 judicata, though, is one that the court took a
PLANET DEPOS
888,433.3767 [ WWW.PIANETDEPOS.COM

App. 7

V

•V

Transcript of Hearing Excerpt

.5 C17 to 20)

Conducted on October 18, 2019
17

1 hearing in the future but I think someone's got to
2 file something, something's got to happen before
3 we do that.
4
I think thafs a little premature. I'm
5 going to direct Ms. Kim to draft an order
6 consistent with the court's ruling and submit
7 that
8 •
MS. KIM: Would Your Honor want an
9 order that has findings and conclusions of law or
10 just a summary?
11
JUDGE SINCAVAGE: Maybe what you ought
12 to do is get a transcript of my ruling and attach
13 that
14
MS. KIM: I don't have that Whatl
15 have today is just a summary order, so I’d prefer
16 to wait
17
JUDGE SINCAVAGE: Okay. All right.
18 Ms. Hampton, certainty your objections to the
19 court's ruling are noted. You've opposed them in
20 writing. You've opposed them in argument here
21 today, and the next step is we're going to get an
22 order circulated. I don't - do we need to set

19

1
JUDGE SINCAVAGE: This is in 118604 and
2 118605.
3
MS. HAMPTON: Correct.
JUDGE SINCAVAGE: And based on the
4
5 court's ruling here today there's nothing to be
6 tried, so there's no trial next week All right
7
MS. HAMPTON: So there’s no trial
8 Monday?
JUDGE SINCAVAGE: There's no trial
9
10 The next step in this case is to get this order
11 entered that reflects the court's ruling. All
12 right?
MS. KIM: Yes, Your Honor. Thank you.
13
14
JUDGE SINCAVAGE: All right. Thank you
15 all
16
(The portion of toe recorded hearing
17 requested to be transcribed was concluded at 420
18 p.m.)
19
20
21
22

18

1 that for entry, Ms. Kim, or do you —
MS. KIM: We — I don't know how long
2
3 it will take to order, but we are fine for toe
4 next — the first Friday in November or first
5 Friday in —
JUDGE SINCAVAGE: All right. HI tell
6
7 you what. I'll see what ya‘11 can accomplish
8 without -MS. KIM: Sure.
9
10
JUDGE SINCAVAGE: If you need to put i t
11 on toe docket you know how to put it on toe
12 docket
13
MS, KIM: Correct.
14
JUDGE SINCAVAGE: All right. And Ms.
15 Hampton, just so there's no misunderstandings this
16is a final order in toe matters that are before
17 toe court in 981 — hold on. That’s toe wrong
18 numbers.
MS. HAMPTON: 98163.
19
JUDGE SINCAVAGE: That's the old case
20
21 number.
MS. HAMPTON: Yes.
22

20

1
2
3
4
5
6
7
8
9
10
11

CERTIFICATE OF COURT REPORTER
I, Donald E. Lane, n, toe officer
before whom toe foregoing proceedings were taken,
do hereby certify that said proceedings were
electronically recorded by me; and that I am
neither counsel for, related to, nor employed by
any of the parties to this case and have no
interest, financial or otherwise, in its outcome.

13 Donald E, Lane, II, Court Reporter
14
15
16
17
18
19
20
21
22

PLANET DEPOS
888.433.3767 i 3WW.PLANETDEPOS.COM

App. 8

v‘

Transcript of Hearing Excerpt
Conducted on October 18, 2019

6 C21 to 24)

2!

1

CERTIFICATE OF TRANSCRIBER
2
I, Bonnie K. Panek, do hereby certify
3 that die foregoing transcript is a true and
4 correct record of the recorded proceedings; that
5 said proceedings were transcribed to the best of
6 my ability from the audio recording and supporting
7 information; and that I am neither counsel for,
8 related to, nor employed by any of the parti es to
9 this case and have no interest, financial or
10 otherwise, in its outcome.
11
12
j3

14 BONNIE KL PANEK
15 OCTOBER 23, 2019
16
17
18

19
20

21
22

PLANET DEPOS
8SS.433.3767 j WWW.PT-ANETDEPOS.COM

ACOPYTESTE
afy
|.?#Cle-'
By
DepuTy Cleric

' App.- 9

V

VIRGINIA:
Jn the Supreme Count of. Virginia held at the Supreme Count {Building in the
City. of. {Richmond on {Jueoday the 23nd day of Manch, 2021.
Kathleen C. Hampton,
against

Appellant,

Record No. 201103
Circuit Court No. 118604-00

PROF-2013-S3 Legal Title Trust,
By U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

From the Circuit Court of Loudoun County
Upon review of the record in this case and consideration of the argument submitted in
support of and in opposition to the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses the petition for
appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

rfpPet/P/X 3
App. 10

VIRGINIA:
3tt the Supreme Qxsunt of Virginia held at the Supreme Cowtt ffiuiiding in the
(Utg of, [Richmond on 3%idag the 14th dag of Mag, 2021.
Kathleen C. Hampton,
against

Appellant,

Record No. 201103
Circuit Court No. 118604-00

PROF-2013-S3 Legal Title Trust,
By U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

Upon a Petition for Rehearing
On consideration of the petition of the appellant to set aside the judgment rendered herein
on March 23,2021 and grant a rehearing thereof, the prayer of the said petition is denied.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

(L
App. 11

VIRGINIA:
Jn the Supreme Count of. Vingmia held at the Supreme Count Skidding in the
City of SUchmond on Sniday the 11th day of S>ecem6eny 2020,
Appellant,

Kathleen C. Hampton,
against

Record No. 201103
Circuit Court No. CL 118604-00

PROF-2013-S3 Legal Title Trust,
by U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

From the Circuit Court of Loudoun County
On October 1,2020 came the appellee, by counsel, and filed a motion to dismiss in this
case.
On October 13,2020 came the appellant, who is self-represented, and filed her opposition
thereto.
Upon consideration whereof, the Court denies the motion.

A Copy,
Teste:
Douglas B. Robe/en, Clerk

Deputy Clerk

0?P£YZ>/X D
App. 12

V/

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

KATHLEEN C. HAMPTON
Plaintiff,

v.
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Defendant.

)
)
)
)
)
)
)

Civil No. 118605-00

)
)
)
)

FINAL ORDER
On October 18,2019 this matter came before the Court on the Defendant’s Demurrer to
the Plaintiffs Counterclaim and Sanctions. Ms. Hampton, the Plaintiff, was present pro se.
Counsel for the Defendant was present.
For reasons stated of record, as memorialized in the attached Transcript of Hearing
Excerpt from October 18. 2019, which is hereby incorporated into this Order, it is hereby
ORDERED that the Demurrer of Defendant PROF-2013-S3 Legal Title Trust, by U.S.
Bank, National Association, as Legal Title Trustee is sustained, and that the Plaintiffs
Counterclaims and Sanctions is dismissed with prejudice.
This Order was prepared by the Court. Endorsements are dispensed with pursuant to
Rule 1:13 and the parlies are granted leave to file with the Clerk in writing any exception to the
Court's ruling on or before February 21,2020.
This Order is final.

App. 13
11

V

Let the Clerk forward a copy hereof without charge to Ms. Hampton and to counsel for
the Plaintiff.

ENTERED this ■

7

day of February, 2020.

w
Stephan E\sincavage>jud^

App. 14 11
1 ;

b

a

*

/><
ju*«« -

XL llQflb

i'll

r\

#

lo AH i/.
36

Planet Depos;-e-.
t'VeJviakejt.h'oppen'"

Transcript of Hearing Excerpt
• Date: October 18, 2019
Case: Prof-2013-S3 Legal Title Trust -v- Hampton

Planet Depos
Phone: 888.433.3767
Email:: transcripts@pianetdeDos.com
www.planetdepos.com

^W^CO^REPOBilNG.&LITIGATIONTECHNOLOGY
■

.

■______-v______________________________________ __________________________ __________________ ______________________________________________________________________

App. 15

'a*

Transcript of Hearing Excerpt
Conducted on October 18,2019

1 (1 to 4)

1
1

VIRGIN!*:

2

IN THE CIRCUIT COURT OF LOUOOUK COUS7Y

2

3
4

PROF-JOtJ-S3 LEGAL
TITLE TRUST,

S

Plaintiff.

6

vs

7

CASE NO.
CL0011*604-00

KATHLEEN C. HAMPTON,

1

3

1

Defendant.

APPEARANCES
ON BEHALF OF PLAINTIFF:

3

LISA HUDSON KIH, ESQUIRE

4

SAMUEL I. WHITE, PC

5

S046 Corporate Woods Drive, Suite 126

6

Virginia Beach, Virginia

7

(757) 486*9284

23462

t

9
16

Recorded Hearing

■9

11

(Judge's Ruling Only Transcribed)

12

Friday, October 18, 2015

13

1:11

p.b.

ON BEHALF OF QEFEHOAHT:

16

Kathleen c. Hampton, pro se

11

P.O. Bat 154

12

Blcunont, Virginia

13

(540) 554*2042

20135

14
15
14

16

IS

17

16

16

17

19

26

Job Ne.l

269223

21

Pages:

22

Transcribed by:

18

1*21

19
Bonnie Pflnek

26
21
22

•

2
1
2

Recorded Hearing held pursuant to

4
1

CONTENTS

agreecent, before Donald E. Lane, II, Notary

2

3

Public of the State of Virginia, at the Circuit

3

4

Court of Loudoun County, 18 E. Haricel Street.

4

EXHIBITS

5

Leesburg, Virginia, 26176.

5

(None.)

RULING BY:

PAGE
i

6

6

7

7

8

8

9

S

16

16

II

11

12

12

13

13

14

14

15

15

16

16

17

17

18

16

26

70

21

21

22

22

Judge Slncavage

S

19

PLANET DEPOS
888.433.3767 I WVW.PLANETDEPOS.COM

App. 16

Transcript of Hearing Excerpt
Conducted on October 18, 2019
5

PROCEEDINGS
2
JUDGE SINCAVAGE: All right. Thank you
3 for your patience. There's in this case a lot to
4 think about, a lot to look at I know these are
5 important matters to both parties and they're
6 important to the court as well, and I want to — I
7 want to say I do appreciate that clearly each of
8 ya'll have very different positions on this
9 litigation.
And ya'll have been at it for a while
10
11 as the record shows, and I do appreciate that
12ya'U have been able to present professional
13 presentations here and you're not -^notwithstanding your differences, aDd I say this
15 because sometimes it isn't this way where lawyers
16 and litigants are sniping at each other and doing
17all that, and that didn't happen here and the
18 court does appreciate that
Now, let me just say to Ms. Hampton
19
20 that a lot of the arguments that you put forward
21 today and in your papers really sounded and came
22 across like a closing argument in a case where
1

6

2 cs to 8)
7

And what I mean by that is we need to
keep in mind that where we are at in this
litigation given previous rulings and given the
state of the law is that issues and facts that
bear on the validity or invalidity of title aren't
material to the inquiry that is being made here
today because of the Paris case.
The court's jurisdiction on this -8
9 these matters is derivative of the general courts
lOjurisdiction which per Paris clearly doesn't
11 include the ability, the jurisdiction, the power,
12 die authority to try issues of title.
Now, interestingly at another stage in
13
14 this case ifs been Ms. Hampton, and even today
15 it's been Ms. Hampton who has advocated this
16 position and today even continuing in her quest to
17 have the general district court initially and now
18 this court dismiss Profs case because of Paris,
19 because it's her position that the case actually
20 shouldn't be here because it involves matters of
21 title.
Now, the court has ruled on that and
22
1
2
3
4
5
6
7

8

1 you're challenging the foreclosure and the title,
1 the court did decline to dismiss the claim because
2 and I understand that because I understand your
2 the court found for reasons stated at that hearing
3 position as to why it is that you think things
3 that Ms. Hampton’s claim of — that title was
4 should go in a direction in this litigation and
4 invalid was not a bona fide claim under fee law.
5 why you should be granted certain relief.
5 Obviously Ms. Hampton disagrees wife tile court?s
And
conversely
there
wasn't
really
a
6 decision to deny the motion to dismiss.
6
It doesn't then allow her or any
7 whole lot of your presentation here today that was 7
8 really responsive to the issues that were before
8 litigant to back up now and ignore Paris, ignore
9 the court, and that's the motion for summary
9 law that you've cited and relied on in fee
lOjudgmentand the demurrer, and 1 need to decide
lOlitigationof this case and continue to want to
11 the motion for summary judgment and I need to
11 assert, attacks fee validity of fee title where
12 decide the demurrer.
12 this case arose in general district court and now
I'm not here today to bear and decide a
13 is in circuit court after appeal when the law
13
14 closing argument in a case that isn't really
14 clearly indicates otherwise.
15before the court, so the issue on summary judgment 15
Ms. Hampton can’t on the one hand
16 as we have heard said a couple of times here today 16 trumpet the law and say you can't have this type
17 and have seen die papers, are there any genuine
17 of case here where a title is tried, I want it
18 disputes of material facts. And I think an
18 dismissed, and then continue to have title
19 important word there is -- mere's a lot of
19 interjected into the issues that she wants tried,
20 important words there, but one of the most
20 so the issue in fee plaintiffs claim is an
21 important words for tills analysis is material
21 unlawful detainer claim and nothing more.
22 facts.
So fee materiality of fee dispute must
22
PLANET DEPOS
8P8.433.3767 | WW.PIANETDEPOS.COM

App. 17

Transcript of Hearing Excerpt
Conducted on October 18, 2019

li

9

1 be seen in the light of unlawful detainer action
2 and unlawful detainer action only, so start with
3 looking at the summons. There was a summons Sled
4 for unlawful detainer in January* of 2017 and you
5 bok at the code 801126.
Let's see, I always - D4, if on the
6
7 day of a foreclosure sale of a single family
8 residential dwelling unit the former owner remains
9 in possession of the dwelling - said dwelling
10 unit such former owner becomes a tenant at
11 suffering. Such tenancy may be terminated by
12 written termination notice from the successor
13 owner given to such tenant at least three days
14 prior to the effective date of termination.
So when we examine the record properly
15
16 in this case of matters that can be considered on
17 summary judgment, including admissions, we have
18 listed as Exhibit 1 to the motion for summary
19 judgment the deed of foreclosure which is
20 instrument number 20160513 which was referenced in
21 the request for admissions.
And among the responses to that is Ms.
22

1 litigation, and as well because there's been an
2 attempt to attack in a previous case the validity
3 of the foreclosure. That case was dismissed at
4 demurrer, and that is under the law a decision on
5 the merits.
Now, Ms. Hampton has strenuously and
6
7 continuously contended that the prior case was not
8 heard on the merits, and I can understand a — an
9 argument that says that because there wasn't a
10 trial, but you don't have to have a trial to under
11 the law have the decision be a merits decision,
12 and I think part of that — from hearing the
13 argument part of that position is taken from Ms.
14 Hampton.
And one of the things she said is that
15
16 — well, she said multiple times she wasn't
17 afforded due process, but I think part of what Ms.
18 Hampton's contention with this process has been is
19 that as she said today she never got to establish
20 the truth of her allegations, and I understand
21 that in the sense that in that case there was no
22 trial, there was no evidence.
12

10

1
2
3
4
5
6

Hampton's admission that it's a true copy of what
Samuel I. White filed in the county records, said
deed of foreclosure to Green T. Prof as filed
electronically and recorded on May 13,2016 nearly
6 months after the trustee of sale — after
trustee's sale of 12-7-15.
As well in the request for admissions
7
8 there's a reference to notices to vacate, one on
9 June 2,2016 wherein Ms. Hampton admits that on
10 June 7th, 2016 she received notice to vacate from
11 the Marinosci Law Group. Obviously all these
12 regard the pertinent subject property.
13
Those matters being admitted in the
14 court's view leave no material issue in genuine
15 dispute because they conclusively demonstrate as a
16matter oflaw that Prof is entitled to possession
17 of the subject property under the unlawful
18 detainer statute.
19
The demonstration of the deed of
20 foreclosure which has not been found to be
21 invalid, for the reasons that have been stated
22 previously such au attack isn't cognizable in this

You said there was no discovery and you
never got to call a witness to say hey, what I'm
alleging is true. In fact, though, that case
which was decided in a demurrer setting, the court
assumes that all the facts that you alleged are
true, okay, as well as any implied facts and any
reasonable inferences.
They're looked at in the light most
8
9 favorabl e to the pleader, which in that case was
10 Ms. Hampton, so even though there wasn’t a trial
11 the pleader in that case, Ms. Hampton, actually
12 had the benefit of what Til just call a fast
13 track to the development of your allegations and
14 the facts because at a demurrer standard they're
15 taken as true by the circuit court and then
16 reviewed by an appellate court
The only exception to that is if
17
18 there's any contrary demonstration and exhibits
19 that may be attached to a complaint they get
20 deference and there's a fast track because even
21 though in deciding the demurrer where the court
22 says okay, Pm looking at this complaint,

1
2
3
4
5
6
7

PLANET DEPOS
888.4^0767 I WVW.PTANETDEPOS.COM

App. 18

3 (9 to 12)

Transcript of Hearing Excerpt

4 (13 to 16)

Conducted on October 18, 2019
13

1 everything that Ms. Hampton is alleging I'm taking
2 as true, but even so there is not a cognizable
3 claim here under the law of the commonwealth.
And you got to that point where
4
5 everything is accepted as true without having to
6 put on witnesses or put on evidence or argue the
7 weight and credibility because all those issues
8 were decided in your favor in consideration of the
9 demurrer.
10
So (hats in the court’s view a counter
11 to a position that the court didn't consider your
12allegations after they've been allowed to develop
13 because you're the maker of the allegations and
14 the court said okay, those are true, so I think
15 that's in part why these decisions on demurrers
16 can be seen as decisions on the merits.
17
So this i s al 1 part of sayi ng that the
18 deed of foreclosure and its provisions stands as
19 valid as does the notice to vacate, and as a
20 matter oflaw I find that plaintiff is entitled to
21 possession, so die court grants the plaintiffs
22 motion for summary judgment and grants possession

15

1 look at Under the doctrine of res judicata a
2 party whose claim for relief arising from
3 identified conduct a transaction or an occurrence
4 is decided on the merits by final judgment shall
5 forever be barred from prosecuting any second or
6 subsequent civil action against the same opposing
7 party or parties on any claim or cause of action
8 that arises from the same conduct, transaction or
9 occurrence whether or not the legal theory or
10 rights asserted in the second or subsequent action
11 were raised in the prior lawsuit
So when I look at the claim, die
12
13 counterclaim and sanctions document indie light
14 most favorable it is a pleading that again seeks
15 to challenge the validity of the foreclosure and
16 the plaintiffs subsequent purchase of the
17 property. Those are the very issues that were
18 subject to the litigation in the circuit court
19 case number 98163.
There's 98 — yeah, 98163, and that
20
21 case has been much referenced and written about
22 and talked about That case was decided. It was

14

1 of die subject property to the plaintiff On the
2 demurrer there were several bases of demurrer that
3 were put forward. The one I'm going to address
4 first is the one ofres judicata.
In looking at the document called
5
6 counterclaim and sanctions, which the court again
7 as I just said a moment ago reviews in the light
8 most favorable to the pleader which in this case
9 is Ms. Hampton, giving all implied facts and
10 inferences seen in the light most favorable which •
111 think was important, especially in this
12 circumstance because the document titled
13 counterclaims and sanctions really reads much like
14 a history of the case and is really in the court's
15 view lacking in clarity in identifying claims
16 which in the court's view I think alone would be a
17basis to sustain a demurrer because of lack of a
18 cognizable claim.
But that wasn't cited as a ground by
19
20the defendant, so the court can't really sustain a
21 demurrer on that ground. The ground ofres
22judicata, though, is one (hat ihe court look a .

16

1 dismissed, and as I said a moment ago it was a
2 merits decision It was the same transaction and
3 occurrence and all the issues relating to the
4 foreclosure sale either were or should have been
5 litigated in that case, so on that ground I find
6 that the demurrer to the counterclaim should be —
7 to the document called counterclaim and sanctions
8 should be sustained in all respects.
Any claim for sanctions, ifs hard to
9
10 tell from the paper what was actually intended.
11 there because Ms. Hampton’s language was such that
12 the law was I sanctioned the plaintiffor so on
13 and so forth, didn't really read as many sanctions
14 claims would, but in any event it didn't state a
15 proper claim for a court to award sanctions so
16 that link of the document counterclaims and
17 sanctions is — die demurrer is also sustained.
18
Having sustained the demurrer to that
19 pleading the court does order that the
20 counterclaims and sanctions be dismissed with
21 prejudice. I am not going to take any actioa
22 Ms. Kim, you talked about a potential other

PLANET DEPOS
*8* 433.-67! WW.PLANETDEPOS.COM
App. 19

'■J

Transcript of Hearing Excerpt

.5 C17 to 20)

Conducted on October 18, 2019
17

1 hearing in the future but I think someone's got to
2 file something, something's got to happen before
•
3 we do that.
4
I think that's a little premature. I'm
5 going to direct Ms. Kim to draft an order
6 consistent with the court's ruling and submit
7 that
8 •
MS.KJM: Would Your Honor want an
9 order that has findings and conclusions of law or
10 just a summary?
11
JUDGE SINCAVAGE: Maybe what you ought
12 to do is get a transcript of my ruling and attach
13 that
14
MS. KIM: I don't have that. Whatl
15 have today is just a summary order, so I’d prefer
16 to wait
17
JUDGE SINCAVAGE: Okay. All right.
18 Ms. Hampton, certainly your objections to the
19 court's ruling are noted. You've opposed them in
20 writing. You've opposed them in argument here
21 today, and the next step is we're going to get an
22 order circulated. I don't ~ do we need to set

i

19

1
JUDGE SINCAVAGE: This is in 118604 and
2 138605.
3
MS. HAMPTON: Correct
4
JUDGE SINCAVAGE: And based on the
5 court's ruling here today there’s nothing to be
6 tried, so there’s no trial next week. All right.
7
MS. HAMPTON: So there's no trial
■8 Monday?
9
JUDGE SINCAVAGE: There's no trial.
10 The next step in this case is to get this order
11 entered that reflects the court's ruling. All
12 right?
13
MS. KIM: Yes, Your Honor. Thankyou.
14
JUDGE SINCAVAGE: All right. Thankyou
15 all.
16
(The portion of the recorded hearing
17 requested to be transcribed was concluded at 420
18 p.m.)
19
20
21
22

18

20

1 that for entry, Ms. Kim, or do you 1
CERTIFICATE OF COURT REPORTER
2
MS. KIM: We — I don't know how long
2
I, Donald E. Lane, H, the officer
3 it will take to order, but we arc fine for the
3 before whom the foregoing proceedings were taken,
4 next — tire first Friday in November or first
4 do hereby certify that said proceedings were
5 Friday in —
5 electronically recorded by me; and that I am
6
JUDGE SINCAVAGE: All right. I'll tell
6 neither counsel for, related to, nor employed by
7 you what I'll sec what ya'll can accomplish
7 any of the parties to this case and have no
\ without ~
8 interest, financial or otherwise, in its outcome.
9
MS. KIM: Sure.
9
10
JUDGE SINCAVAGE: If you need to put it 10
11 on the docket you know how to put it on the
11
12 docket
12 ^ ._______________________
13
MS. KIM: Correct
13 Donald E. Lane, II, Court Reporter
14
JUDGE SINCAVAGE: All right And Ms.
34
15Hampton, just so there's no misunderstandings this
15
16 is a final order in the matters that are before
16
17the court in 981 — hold on. That's the wrong
17
18 numbers.
18
19
MS. HAMPTON: 98163.
19
JUDGE SINCAVACtF- That's the old case j20
20
21 number.
21
22
MS. HAMPTON: Yes.
22
PLANET DEPOS
S88.433.3767 i WW.PTANETDEPOS.COM

App. 20

1

Transcript of Hearing Excerpt
Conducted on October 18. 2019

6 C21 to 24)

2i

1

CERTIFICATE OF TRANSCRIBER
2
I, Bonnie K. Panek. do hereby certify
3 that the foregoing transcript is a true and
4 correct record of the recorded proceedings; that
5 said proceedings were transcribed to the best of
6 my ability from the audio recording and supporting
7 information: and that I am neither counsel for,
8 related to, nor employed by any of the parties to
9 this case and have no interest, financial or
10 otherwise, in its outcome.
11
23 &&&
14 BONNIE K. PANEK
15 OCTOBER 23,2019
16
17
18
19
20

21
22

PLANET DEPOS
88R .n- 8767 'WWW.PT.ANETDEPOS.COM

n.

A COPY-TEST':
" J

Rv >
>r»n rtv Clerk .. App. 21

L

VIRGINIA:
3n the Supreme Count of Vkginia held at the Supreme Count 3$ui£ding. in the
City, of iRichmond on Sue*dag the 23nd dag. of Munch, 2021.
Kathleen C. Hampton,
against

Appellant,

Record No. 201105
Circuit Court No. 118605-00

PROF-2013-S3 Legal Title Trust,
By U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

From the Circuit Court of Loudoun County
Upon review of the record in this case and consideration of the argument submitted in
support of and in opposition to the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses die petition for
appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

App. 22

VIRGINIA:
Jn the Supreme daunt of Virginia held at the Supreme daunt {Building in the.
Qitg of, {Richmond on $nidag the 14th dag, of. Mag, 2021.
Appellant,

Kathleen C. Hampton,
against

Record No. 201105
Circuit Court No. 118605-00

PROF-2013-S3 Legal Title Trust,
By U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

Upon a Petition for Rehearing
On consideration of the petition of the appellant to set aside the judgment rendered herein
on March 23,2021 and grant a rehearing thereof, the prayer of the said petition is denied.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

?? Z/V&/X G

App. 23

VIRGINIA:
3n the Stcpneme CowU of Vvtgima held at the Supreme Count {Budding. in the
City, of Richmond on Friday. the 11th day. of {Deeemfkn., 2020.
Kathleen C. Hampton,
against

Appellant,

Record No. 201105
Circuit Court No. CL 118605-00

PROF-2013-S3 Legal Title Trust,
by U.S. Bank National Association,
as Legal Title Trustee,

Appellee.

From the Circuit Court of Loudoun County
On October 1,2020 came the appellee, by counsel, and filed a motion to dismiss in this
case.
On October 13, 2020 came the appellant, who is self-represented, and filed her opposition
thereto.
Upon consideration whereof, the Court denies the motion.

A Copy,
Teste:
Douglas B. Robelen, Clerk

By:
Deputy Clerk

App. 24

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Plaintiff,
v.
KATHLEEN C. HAMPTON
Defendant.

)

)
)
)
)
)
)
)
)
)
)

Civil No. 118604-00

ORDER
On December 20, 2019, the Defendant, pro se, filed a Motion for Rehearing or in the
Alternative Motion for a Mistrial Supporting Memorandum of Law in this case and in Civil No.
118605. The Court considers the Motion to be a Motion for Reconsideration of the Court’s
rulings on October 18,2019. granting summary judgment to the Plaintiff in this matter and
sustaining the demurrer of PROF-2013-S3 Legal Title Trust as the Defendant in Civil No.
118605.
In the motion, the Plaintiff requests the Court to grant a rehearing “and/or to serve
justice by placing this case back on the docket for a ‘fair’ trial by jury and on its merits.”
Upon consideration of the Motion to Reconsider, the Court finds no basis to modify its
ruling.
Accordingly, it is ORDERED that the Plaintiffs Motion to Reconsider is denied
without the need for further argument or hearing.
Endorsements are dispensed with under Rule 1:13. This Order was prepared by the
Court.

J,
App. 25
i i

Let the Clerk forward a copy hereof without charge to counsel for the Plaintiff and to
Ms. Hampton.

ENTERED this.

7

day of February. 2020.

T

Stephen4

App. 26
t i

■

■■

\

3.............—

Siiteavags^Judge

n •

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Plaintiff,
v.
KATHLEEN C. HAMPTON
Defendant.

)
)
)
)
)
)
)
)
)
)
)

Civil No. 118604-00

ORDER
On November 18,2019, the Defendant, pro se, filed a Motion for Rehearing or in the
Alternative Motion for a Mistrial in this case and in Civil No. 118605. The Court considers the
Motion to be a Motion for Reconsideration of the Court’s rulings on October 18,2019, granting
summary judgment to the Plaintiff in this matter and sustaining the demurrer of PROF-2013 -S3
Legal Title Trust as the Defendant in Civil No. 118605.
In the motion, the Plaintiff requests the Court to grant a rehearing “and/or to serve
justice by placing this case back on the docket for a ‘fair’ trial by jury and on its merits.”
Upon consideration of the Motion to Reconsider, the Court finds no basis to modify its
ruling.
Accordingly, it is ORDERED that the Plaintiffs Motion to Reconsider is denied
without the need for further argument or hearing.
Endorsements are dispensed with under Rule 1:13. This Order was prepared by the
Court.

App. 27

Jt-

Let the Clerk forward a copy hereof without charge to counsel for the Plaintiff and to
Ms. Hampton.
ENTERED this

/<?

day of December, 2019.

Steph^^Tsificaya^g, Judge

fA COPY-TESTE
Cl^fpen^ Clerk
B'
Deputy Clerk

App. 28

&

a

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Plaintiff,
v.
KATHLEEN C. HAMPTON
Defendant.

)

)
)
)
)
)
)
)
)
)
)

Civil No. 118604-00

ORDER
On October 25,2019, the Defendant, pro se, filed a Motion for Reconsideration and
Supporting Memorandum of Law in this matter and in Civil No. 118605. On November 1,
2019, the Defendant, pro se, filed a Motion for Reconsideration of Further Support to
Memorandum of Law in this matter and in Civil No. 118605.
In both pleadings, the Defendant requests the Court to reconsider its ruling granting the
Plaintiffs Motion for Summary Judgment, and to “either place this case back on the docket for
a ‘fair’ trial by jury and on its merits, or dismiss this case without prejudice.”
Upon consideration of the Motion to Reconsider, the Court find no basis to modify its
ruling.
Accordingly, it is ORDERED that the Defendant’s Motion to Reconsider is denied
without the need for further argument or hearing.
Endorsements are dispensed with under Rule 1:13. This Order was prepared by the
Court.

at
App. 29

Let the Clerk forward a copy hereof without charge to counsel for the Plaintiff and to
Ms. Hampton.
ENTERED this

I

day of November, 2019.

Ga,

COPVJESTE
ns, Clerk
. Cl
Deputy Clerk

App. 30

■

f

VIRGINIA:
IN THE CIRCUIT COURT OF LOUDOUN COUNTY
PROF-2013-S3 LEGAL TITLE TRUST
BY U.S. BANK, NATIONAL
ASSOCIATION, AS LEGAL TITLE
TRUSTEE,

Plaintiff,

CASE No: CL118604,05

v.
KATHLEEN C. HAMPTON,
Defendant.
ORDER ON DEFENDANT’S MOTION TO DISMISS
THIS DAY CAME the Plaintiff, PROF 2013-S3 Legal Title Trust, by U.S. Bank,
National Association, as Legal Title Trustee (“PROF 2013-S3”), by counsel, and the Defendant,
Kathleen C. Hampton, (“Hampton”), pro se, in this appealed eviction or unlawful detainer
proceeding, upon the Defendant’s Motion to Dismiss and Plaintiffs Response and Opposition to
i

same. Upon argument of counsel for Plaintiff, and the Defendant, pro se, at hearing, the
pleadings, proffers, interests of equity, and for further good cause shown, it is hereby accordingly
ORDERED, ADJUDGED, and DECREED that:

Atof/o^

L

74?

/~<S

L

2. The Clerk is requested to send copies of this Order, upon entry, to all counsel of record
and unrepresented parties; and
3. This matter is hereby CONTINUED on the Court’s activ&and open docket.
ENTERED ON THE DOCKET:
/ 2019

Loudoun Gounjy Gu'cmtJ^irt Judge

)0 1 i

WE^SK FOR THISr
'anieJ^Pesachowitz, Esq. (VSB #74295)
Li; 'udsonKim, Esq. (Vf>lJ#~45484)
Lemuel I. White, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
(757) 457-4234 (Direct Dial)
(757) 337-2814 (Facsimile)
Email: ikim@siwpc.com: dDesachowitz@siwpc.com
Counsel for Plaintiff, PROF-2013-S3 Legal Title Trust, by
U.S\ Bank, National Association, as Legal Title Trustee
SEEN AND

Kathleen C. Hampton
^
34985 Snickersville Turnpike
Round Hill, Virginia 20141
And
Kathleen C. Hampton
P.O. Box 154
Bluemont, Virginia 20135
Email: khampton47@vahoo.com
Defendant, Pro Se

2

App. 32

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

The federal constitutional provisions involved in this petition are found in the
United States ConstitutionAmendment V:
“No person shall ... be deprived of life, liberty, or property, without the due
process of law; nor shall private property be taken for public use, without just
compensation.”
From Amendment 5 - Rights of Persons:
From page 1341:
“... the Court has been clear that it may and will independently review the facts
when the factfinding has such a substantial effect on constitutional rights. [Fn. 360]
‘In cases in which there is a claim of denial of rights under the Federal Constitution
this Court is not bound by the conclusions of lower courts, but will re*examine the
evidentiary basis on which those conclusions are founded.’ Niemotko v. Maryland,
340 U.S. 268, 271 (1951); Time, Inc. v. Pape, 402 U.S. 279, 284 (1971), and cases
cited therein.”
From page 1346:
“It may prevent confusion, and relieve from repetition, if we point out that some of
our cases arose under the provisions of the Fifth and others under those of the
Fourteenth Amendment to the Constitution of the United States. ... it may be that
questions may arise in which different constructions and applications of their
provisions may be proper. ... The most obvious difference between the two due
process clauses is that the Fifth Amendment clause as it binds the Federal
Government coexists with a number of other express provisions in the Bill of Rights
guaranteeing fair procedure and non-arbitrary action, such as jury trials, grand jury
indictments, and nonexcessive bail and fines, as well as just compensation, whereas
the Fourteenth Amendment clause as it binds the States has been held to contain
implicitly not only the standards of fairness and justness found within the Fifth
Amendment’s clause but also to contain many guarantees that are expressly set out
in the Bill of Rights. In that sense, the two clauses are not the same thing, but
insofar as they do impose such implicit requirements of fair trials, fair hearings,
and the like, which exist separately from, though they are informed with, express
constitutional guarantees, the interpretation of the two clauses is substantially if
1

App. 33

L

not wholly the same. ... Finally, it should be noted that some Fourteenth
Amendment interpretations have been carried back to broaden interpretations of
the Fifth Amendment’s due process clause, such as, e.g., the development of equal
protection standards as an aspect of Fifth Amendment due process.”
From page 1348:
“... in observing the due process guarantee, it was concluded the Court must look
‘not [to] particular forms of procedures, but [to] the very substance of individual
rights to life, liberty, and property.’ ... The phrase ‘due process of law’ does not
necessarily imply a proceeding in a court or a plenary suit and trial by jury in every
case where personal or property rights are involved. ... What is unfair in one
situation may be fair in another. ... The precise nature of the interest that has been
adversely affected, the manner in which this was done, the reasons for doing it, the
available alternatives to the procedure that was followed, the protection implicit in
the office of the functionary whose conduct is challenged, the balance of hurt
complained of and good accomplished - these are some of the considerations that
must enter into the judicial judgment .”
From page 1356:
“Substantive Due Process
Justice Harlan, dissenting in Poe v. Ullman, [Fn. 65: 367 U.S. 497, 540, 541 (1961).
The internal quotation is from Hurtado v. California, 110 U.S. 516, 532 (1884).
Development of substantive due process is noted, supra, pp. 1343*47 and is treated
infra, under the Fourteenth Amendment.] observed that one view of due process,
‘ably and insistently argued ..., sought to limit the provision to a guarantee of
procedural fairness.’ But, he continued, due process ‘in the consistent view of this
Court has ever been a broader concept .... Were due process merely a procedural
safeguard it would fail to reach those situations where the deprivation of life, liberty
or property was accomplished by legislation which by operating in the future could,
given even the fairest possible procedure in application to individuals, nevertheless
destroy the enjoyment of all three. ... Thus the guaranties of due process, though
having their roots in Magna Carta’s ‘per legem terrae' and considered as procedural
safeguards ‘against executive usurpation and tyranny,’ have in this country ‘become
bulwarks also against arbitrary legislation.’”
From page 1357*1359:
“The Fifth Amendment, which is applicable in the District of Columbia, does not
contain an equal protection clause as does the Fourteenth Amendment which
applies only to the states. But the concepts of equal protection and due process, both
stemming from our American ideal of fairness, are not mutually exclusive. The
2

App. 34

‘equal protection of the laws’ is a more explicit safeguard of prohibited unfairness
than ‘due process of law,’ and, therefore, we do not imply that the two are always
interchangeable phrases. But, as this Court has recognized, discrimination may be
so unjustifiable as to be violative of due process.
Although the Court has not assumed to define ‘liberty’ with any great precision,
that term is not confined to mere freedom from bodily restraint. Liberty under law
extends to the full range of conduct which the individual is free to pursue, and it
cannot be restricted except for a proper governmental objective. Segregation in
public education is not reasonably related to any proper governmental objective and
thus it imposes on Negro children of the District of Columbia a burden that
constitutes an arbitrary deprivation of their liberty in violation of the Due Process
Clause.
‘Equal protection analysis in the Fifth Amendment area,’ the Court has said, ‘is the
same as that under the Fourteenth Amendment.’ ... However, almost all legislation
involves some degree of classification among particular categories of persons,
things, or events, and, just as the equal protection clause itself does not outlaw
‘reasonable’ classifications, neither is the due process clause any more intolerant of
the great variety of social and economic legislation typically containing what must
be arbitrary line-drawing. ... for example, the Court has sustained a law imposing
greater punishment for an offense involving rights of property of the United States
than for a like offense involving the rights of property of a private person. ...
The federal sovereign, like the States, must govern impartially. ... [B]ut ... there
may be overriding national interests which justify selective federal legislation ...”
Amendment VIE
“In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of the United States, than
according to the rules of the common law.”
Amendment XIV, Section 1:
“All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States! nor shall any State
deprive any person of life, liberty, or property, without the due process of law!
nor deny to any person within its jurisdiction the equal protection of the
laws.”

3

App. 35

It is a fundamental principle that one has the right to protect his or her
property from its unlawful taking by another. Consistent with the United States
Constitution, the Virginia Constitution, Article I, §1 states:
“[A]ll men are by nature equally free and independent and have certain
inherent rights, of which, when they enter into a state of society, they cannot,
by any compact, deprive or divest their posterity; namely, the enjoyment of
life and liberty, with the means of acquiring and possessing property, and
pursuing and obtaining happiness and safety.”
And Article I, §11 further states:
no person shall be deprived of his life, liberty, or property without due
process of law. ... That in controversies respecting property, and in suits
between man and man, trial by jury is preferable to any other, and ought to
be held sacred.”
Under Virginia Rules of the Supreme Court, Rule 3-20
“If it appears from the pleadings, the orders, if any, made at pretrial
conference, the admissions, if any, in the proceedings, that the moving party
is entitled to judgment, the court shall grant the motion. ... Summary
judgment shall not be entered if any material fact is genuinely in dispute.”
Under the Code of Virginia §55*59(9):
“ The party secured by the deed of trust, or the holders of greater than fifty
percent of the monetary obligations secured thereby, shall have the right and
power to appoint a substitute trustee or trustees ... The instrument of
appointment shall be recorded in the office of the clerk wherein the original
deed of trust is recorded prior to or at the time of recordation of any
instrument in which a power, right, authority or duty conferred by the
original deed oftrust is exercised,’” (emphasis added)

4

App. 36

\

Petitioner’s filings to all Orders

App. 37

•i

In the Supreme Court of Virginia

App. 38

IN THE SUPREME COURT OF VIRGINIA
KATHLEEN C. HAMPTON

)
)

Appellant,pro se

)
)

v.

)
)
)
)

Record No. 201103
From the Circuit Court
of Loudoun County
Case No. CL00118604-00

)
)
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION, )
)
AS LEGAL TITLE TRUSTEE
)

Appellee.

)

PETITION FOR REHEARING
(Pursuant to Rule 5:20)
NOW COMES Appellant/Defendant below, Kathleen C. Hampton (herein­
after “Hampton” or “Appellant”), pro se, and, pursuant to the Rules of the
Supreme Court of Virginia, respectfully submits this Petition for Rehearing from
the decision dated March 23, 2021, of this Honorable Supreme Court to refuse the
Petition for Appeal finding that their opinion is that there is no reversible error in
the judgment complained of.
Appellant herein, as a truthseeker, albeit aging, and in an attempt to be a
“vehicle for change,” with deep appreciation for the opportunity to address the
“full court,” respectfully requests and values this court’s further consideration.
1

App. 39

Appellant believes that acceptance of this petition will avail this superior
court with an opportunity to correct what needs to be, since it is believed of
precedential value and can significantly impact the development of legal standards.
By acceptance, this court could establish authority concerning major policy or
procedural issues, or other issues of exceptional importance, including
Constitutional questions, important issues regarding statutes, rules and regulations,
and important issues regarding case law and where new case law could settle some
unsettled torts. And, “in the interest of justice,” by doing so, will help to protect
citizens' rights and afford citizens the protections of the law.
Hampton is hopeful with “new eyes” that one will recognize the problems
with this Court's initial Decision, and understand how she was both “shocked and
dismayed” by that Decision. For to render such, in her opinion, particularly in a de
novo review, is to deny her - a natural bom citizen of this Commonwealth and the
U.S. - due process and protections under the law as laid out in the Virginia and
U.S. Constitution and Virginia’s Bill of Rights.
Further, under the Bill of Rights, Section 11.
Due process of law; obligation of contracts; taking of private property;
prohibited discrimination; jury trial in civil cases: “That no person shall be
deprived of his life, liberty, or property without due process of law; that the
General Assembly shall not pass any law impairing the obligation of
contracts, nor any law whereby private property shall be taken ... That in
controversies respecting property, and in suits between man and man,
trial by jury is preferable to any other, and ought to be held sacred.”
2

App. 40

Hampton believes that had she not been denied her three-day trial by jury, she
would have prevailed on the merits, with a preponderance of evidence.
By this court’s initial decision, it denies any wrongdoing and, clearly from
the facts and merits, there was wrongdoing every step of the way beginning with
the sale of the property, which she had lived in for ten years prior to purchase, and
as evident by the greed of the TBTF banks (including Countrywide), who had
caused a “bubble” to exist, by overpricing or overestimating the values of property.
Now we are at a juncture where the TBTF banks are anxious to profit once
again from the oncoming flood of foreclosures, and despite any moratorium on
foreclosures, unlawful detainers or evictions, at the expense of innocent citizens.
This court’s decision herein should be based on what this court deems to be
in the best “interest of justice” and of the citizens of this Commonwealth, and their
Constitutional rights to defend their property from unlawful takings without due
process, which I have been “defending” for many years.
Hampton can’t help but feel that the only way she might be noticed would
require “media attention,” such as Ellen or Oprah, or “front page news.” Although
that approach has been considered, she has not been at liberty to pursue, as she is
too engaged in still defending her case herein as a pro se litigant. Hampton is also
certain that given a trial by jury, which “she was deprived of,” would have proven
that PROF was not entitled to Summary Judgment, nor to possession, and further
3

App. 41

the foreclosure should have been set aside, as this court’s jurisprudence calls for.
And the court should have found, where the circuit court previously failed to
address, that all the deeds on record should be held “void” or “voidable” and the
Deed of Trust (DOT) as “void ab initio;” and, as such, no one had a right to
possession or to the remedy to substitute a Trustee and foreclose.
Upon de novo review, this should be obvious from my Petition for Appeal
and the “facts” thereto, where the real “proof is in the pudding.” Further, the court
cannot grant summary judgment unless no evidence could affect the outcome of
the case and the parties do not dispute the material facts on a dispositive issue of
law. Clearly, the facts merit a review and this court should find there was a dispute
both facially and materially to the deeds that govern this unlawful detainer and an
error on judgment of the court exist; and where a jury “would have come to but
one conclusion when viewing the evidence” contrary to the court’s decision.
Without considering all the evidence submitted and what would have come before
the jury, wouldn’t this be considered an abuse of discretion?
Clearly, I am a remnant from the last economical collapse and the governing
Deeds of Trust were predatory and the loan was “set to fail;” and despite
remediations to correct the problems regarding the same, all parties beginning with
Countrywide exercised nothing more than bad practices and procedures and
negligence in not only the initial product sold but also the servicing of that account.
4

App. 42

My biggest fear now is that, with the ongoing problems of the Covidinduced foreclosure eviction crisis looming, this Commonwealth, and our country,
will fail to protect its citizens and will, once again, allow the banks, trusts or
trustees to profit from the oncoming massive foreclosures that are predicted. There
is considerable reason to believe another housing crisis is coming given the huge
loss of jobs during the Covid-19 Pandemic. The earlier foreclosure crisis was
devastating and I am obviously proof, still, as a remnant of the predatory lending
that caused that Great Recession.
Hampton has been continuously denied the mandated remedies (namely, the
HAMP modification, enacted on her birthday in 2009), when she was first
approved for the same in 2009, under Fannie Mae Guidelines, but never extended
the same. Under further Consent Orders of 2011, and the Independent Foreclosure
Review (IFR) of 2012, the banks were to follow the OCC’s Financial Remediation
Framework - IFR and were mandated to extend that HAMP modification approved
earlier, but failed to do so. Under those Consent Orders (not related to the National
Mortgage Settlement), I had a “right to sue institutions who have violated the law,”
but again the courts have denied me, via demurrers, to exercise that right. To be
continuously denied to be heard, on those prior mandated remedies by Consent
Orders, she believes violates her Constitutional rights to “due process.” Even the
DOT calls for these mandates under all conditions precedent prior to a foreclosure.
5

App. 43

As we all know, these corporations are artificial entities. They have no
sovereignty under the Constitution; they are not mentioned in the Constitution, the
word “company” or “corporation” or “trust.” The Preamble starts “We the people,”
not “We the Congress” or “We the corporations.”
It is not even clear how PROF, a derivative on Wall Street, who has failed to
register with the SEC, thus unsecured by the DOT, who might be “double dipping”
by failure to register, can bring suit against anyone. Suspicion should also be raised
where the DOJ/Fannie Mae settlement against BANA coincided with Fannie Mae
going into conservatorship at the end of 2012, and Hampton’s mortgage moved
from a REMIC to PROF in 2013, as noted in their name.
How can the courts allow such entities to get away with “this theft” and
what will the courts do to prevent this from continuing to occur? This superior
court can prevent this and create laws that change that projection and protect its
citizens. This has been my mission or my path, which I have been following, to no
avail in the courts. Why not “fairly” judge this matter based on the “merits,”
instead of letting the banks, trusts, or corporations get away with such thefts? They
will not stop until they are stopped by such judicial findings.
The only state that “really” fought for its citizens in. the past economic
collapse was our Vice President, Kamala Harris, as AG of the state of California,
who stated: “Too many families have been destroyed by the crisis and the illegal
6

App. 44

activity of these banks,” quoting further “This issue has never been about anything
other than allowing homeowners, hardworking people, to be able to stay in their
homes.” Our state needs to establish protections for its citizens, and can begin with
this appeal which could aid in avoiding another collapse by demonstrating that
punishment will result from wrongdoing, thus assuring citizens of their protections
of the law. Our Constitutional rights and protections of the law must survive.
Hampton has been fighting for justice not only for herself, but for all the
citizens of the U.S., as she has felt this “her path” for over a decade. And despite
all the disappointments, of denial to be heard and tried by a jury and afforded due
process, as Constitutional rights, she continues, but worries for the future.
Hampton thought for certain that the Honorable Justice Powell, whose
arguments and dissent in Parrish were incorporated in her arguments and so
closely matched her case, would have seen the same in light of the merits as noted
in the facts and truths therein. Or do the UD statutes violate citizens rights?
Hampton requested herein that the lower court’s judgment be determined as
erred in granting summary judgment, and to find (in this court’s “de novo” review
of the truths and merits) that Appellant was deprived of her Constitutional Rights
to a “fair” trial by jury, where “reasonable minds would have come to but one
conclusion when viewing the evidence,” and thus to grant this Appeal. And still
further to address the Constitutionality of non-judicial foreclosures and unlawful
7

App. 45

detainers and, more particularly, a citizen’s Constitutional rights to defend one’s
property from “unlawful takings” without due process.
As quoted in Hampton’s Petition to SCOTUS, and again herein, quoting
Hornsby v. Allen, 326 F.2d 605:
“The role of the courts is to ascertain the manner in which this determination
was or is made accords with constitutional standards of due process and
equal protection.” And “It follows that the trial court must entertain the suit
and determine the truth of the allegations.”
Hampton further provides herein clarity to the following, which, in her
opinion, the court may have overlooked or misapprehended.
PROF has never produced any evidence that they had a right to possession,
and never presented the Note, believed to be forged, and was not entitled to
summary judgment, where both the Assignment of the DOT to PROF (post
foreclosure) and the Deed of Foreclosure (DOF) had facial and material defects.
And, as a matter of law, PROF was not entitled to the remedy of foreclosure,
where its purported Note was not secured by the DOT, and the governing DOT
should have been found as void ab initio.
PROF’s Trustee knew they breached the DOT and noted violations (as
evident beginning para. 31, page 15 of Hampton’s Petition), which alone should be
found as a reversible error, and knew they had violated their oaths as fiduciary to
the DOT, and further, had to have known that the foreclosure should be set aside.
And where Hampton argued on page 32:
8

App. 46

“... When a trustee buys at his own sale, a constructive fraud exists; the
transaction is voidable; and when attacked, the sale must be set aside.,.
“As Whitlow requires that the foreclosure sale be set aside, the trial court had
no legal basis for granting the summary judgment.”
At the hearing granting Summary Judgment and sustaining Demurrer,
Hampton was only permitted 20 minutes to sum up what she would have in her
three-day trial by jury, and had presented evidence via Response and “submitted”
Admissions from both parties, and her exhibits thereto, which could prove PROF
had no right to summary judgment. The court seemingly ignored those exhibits and
based its decision solely on the DOF as being “prima facie” evidence simply by the
filing of it by Trustee. If the court had examined all the evidence, it should have
found that DOF as both “facially” and “materially” defective and found it voidable.
Because of this wrongful finding of Summary Judgment and Demurrer,
based on a prior case not truly “litigated,” Hampton was deprived of her
Constitutional rights to her granted three-day trial by jury. This would seem a
contradiction of the law, where a criminal has more rights than a non-criminal.
Prior to those “fatal” findings, Hampton presented the court with an
opportunity to first dismiss without prejudice, under Parrish, and PROF could
refile in the circuit court as a court of equity. Hampton’s evidence relied on the
violations to the DOT and being void ab initio, as well as SCOTUS’ findings in
Carpenter v. Longan, regarding separation of the Note from the DOTs, and
Assignments thereto, being found as a nullity. Hampton proffered further evidence,
9

App. 47

as laid out in Hampton’s Petition herein, should the court had needed it, but instead
was denied her Motion to Dismiss, primarily based on demurrer instead of merits.
Hampton gave the court an opportunity to Reconsider and provided further
evidence on how res judicata should not apply, providing the evidence in the prior
suit, and long prior to the Final Order. That motion was denied.
Hampton still further motioned for a Rehearing as a 20-minute hearing was
insufficient time to present evidence that would have been presented at the threeday trial by jury, which the court deemed a further Motion for Reconsideration.
Hampton filed both motions and, more particularly, in the Motion for Rehearing ...
Supporting Memorandum of Law, she spelled out the evidence and noted
violations, and as quoted in her Petition herein:
... to “complete and preserve” the record, before Final Orders issued, and to
give the court the opportunity to make an informed ruling on the issues to
prevent needless appeals and in hopes of “justice” resulting in a trial by
jury, not by the bench.
That motion was denied right before the Final Orders were rendered.
From the shear volume of this unlawful detainer, it should appear very
complex as it is riddled with a multitude of torts. But despite its scary volume,
Hampton has summed it up in her Petition and the merits should be examined, and
it is believed to be of great interest in setting significant legal precedence.
IN CONCLUSION: Hampton believes and is confident that, if this court accepts
her appeal, a “just” decision will result to her benefit and this state’s citizens.
10

App. 48

Respectfully submitted,
Kathleen C. Hampton, pro se
Kathleen C. Hampton, pro se
P.O.Box 154
Bluemont, Virginia 20135
540-554-2042
Email: khampton47@yahoo.com (limited access)
CERTIFICATE OF SERVICE
CERTIFICATE OF COMPLIANCE
Pursuant to Rule 5:20, I hereby certify that a true and correct copy of the
foregoing Petition for Rehearing was sent by electronic mail to The Supreme Court
of Virginia at scvpfr@vacourts.gov and by electronic mail, as well as USPS, to the
following counsel of record on this 6th day of April, 2021. The undersigned
Appellant, Kathleen C. Hampton, also hereby certifies that the Petition for
Rehearing is in full compliance with Rule 5:20.
E. Edward Farnsworth, Jr., Esq. (VSB No. 44043)
Ronald J. Guillot, Jr, Esq. (VSB No. 72153)
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
(757) 217-3718 (Telephone)
(757) 337-2814 (Facsimile)
Email: efamsworth@siwpc.com
rguillot@siwpc.com
Counselfor Appellee, PROF-2013-S3 Legal Title Trust,
by US. Bank National Association, as Legal Title Trustee

Kathleen C. Hampton, pro se
ii

App. 49

NOTES TO SUP CT RE SUMMARY JUDGMENT 2-16-21
GOOD AFTERNOON YOUR HONORS - IT IS AN HONOR TO STAND
BEFORE YOU ... & I AM STANDING!
MY 1st ORAL ARGUMENT IS IN RESPONSE TO PROF’S BRIEF IN
OPPOSITION TO MY PETITION ON THE DECISION GRANTING
SUMMARY JUDGMENT, AND IT APPEARS THAT THIS COURT
REVIEWING DE NOVO IS THE ONLY THING THAT PROF & I AGREE ON!
HOWEVER, PROF WANTS THIS CASE REVIEWED ON SUMMARY
JUDGMENT ONLY, WHERE THEY CLAIM THAT “THESE MATERIAL
UNCONTESTED FACTS DEMONSTRATE PROF HAS A SUPERIOR RIGHT OF
POSSESSION VS. HAMPTON, AND IS ENTITLED TO POSSESSION AS A
MATTER OFLAW.”
AGAIN, I HAVE CONTESTED THE MATERIAL & DEFECTIVE FACTS,
WHICH

SHOULD

HAVE

-BEEN

DEMONSTRATED THAT PROF

CONSIDERED,

HAD NO

&

BELIEVE

SUPERIOR RIGHT OF

POSSESSION & WHY THE FORECLOSURE ACTION SHOULD BE SET
ASIDE! & IT SHOULD BE NOTED THAT I HAVE DISAGREED WITH THE
COURT’S PRIOR DECISION ON MY MOTION TO DISMISS AS THE COURT
IS QUOTED ON P. 25 OF MY PETITION “THAT MS HAMPTON’S CLAIM
OF - THAT TITLE WAS INVALID WAS NOT A BONA FIDE CLAIM UNDER

ft/=>/=><?/V 0/X O
App. 50

l

THE LAW. OBVIOUSLY MS HAMPTON DISAGREES WITH THE COURT’S
DECISION TO DENY HER MOTION TO DISMISS

...

SO THE

MATERIALITY OF THE DISPUTE MUST BE ..SEEN IN LIGHT OF
UNLAWFUL DETAINER ACTION AND UNLAWFUL DETAINER ACTION
ONLY.”
SO YOUR HONORS, HOW COULD THIS BE CONSIDERED AS FAIR,
WHERE I WAS GRANTED A TRIAL BY JURY ON VERY COSTLY APPEAL,
AND THE ONLY THING TO CONSIDER ARE THE UD ACTION AS DONE
IN GDC?
MY ARGUMENTS & PRAYERS HEREIN SHOULD BE CONSIDERED IN
YOUR DE NOVO REVIEW “WHERE ‘REASONABLE’ MINDS WOULD
HAVE COME TO BUT ONE CONCLUSION WHEN REVIEWING THE
EVIDENCE” ... AS THE FACTS DEMONSTRATE THAT PROF NOT ONLY
WRONGFULLY FORECLOSED, BUT THAT FORECLOSURE SHOULD BE
SET ASIDE, AND IT IS MY HOPE THAT THE UD STATUTES BE
REVIEWED IN LIGHT OF MY PETITION.
REPEATING HORNSBY V. ALLEN:
“THE ROLE OF THE COURTS IS TO ASCERTAIN THE MANNER IN
WHICH THIS DETERMINATION WAS OR IS MADE ACCORDS WITH
2

App. 51

CONSTITUTIONAL STANDARDS OF DUE PROCESS AND EQUAL
PROTECTION” AND “IT FOLLOWS THAT THE TRIAL COURT MUST
ENTERTAIN THE SUIT AND DETERMINE THE TRUTH OF THE
ALLEGATIONS”
FIRST, I WISH TO APOLOGIZE FOR MY LENGTHY QUOTES, PRESERVED
IN THE RECORD, BUT AS I AM SURE YOU CAN SEE, THEY WERE
NECESSARY TO LAY GROUND FOR THIS PETITION! AS A PRO SE
LITIGANT, FORCED TO DO DISCOVERY ON MY OWN, SINCE I WAS
DENIED THE SAME VIA DEMURRERS TO MY INITIAL SUITS VS. PROF &
OTHERS, WITH A SLIGHT DETOUR TO SCOTUS ON MY CONST. RIGHTS
TO DUE PROCESS, AND THUS THE UDS HAVE LEAD ME BACK TO THIS
SUPERIOR COURT; HOPED A LITTLE WISER AND BETTER AT
PLEADING, AS DETAILED IN THE TRUE FACTS TO THIS CASE & THE
ARGUMENTS CITED THEREIN.
PROF CONTINUES TO DECEIVE THE COURT WHERE THEY STATE THAT
I HAVE NOT CONTESTED DEFAULT IN PAYMENT, WHERE AGAIN I
NEVER TESTIFIED TO ANY DEFAULT, SINCE I WAS NEVER SENT A
STATEMENT AFTER JULY 2009, WAS INSTRUCTED NOT TO MAKE ANY
PAYMENT ON THAT PREDATORY %-ONLY LOAN, NOR WAS I SENT A
LETTER OF DEFAULT PER DOT, & MY FORCED BK WAS DISMISSED,
3

App. 52

SINCE BANA NEVER REAFFIRMED BACK IN 2010, ALL LONG PRIOR TO
THIS FORECLOSURE. INSTEAD, I HAVE BEEN PATIENTLY WAITING
FOR MY HAMP MODIFICATION FOR NEARLY 12 YRS, WHERE ALL
PARTIES WERE MANDATED TO PROVIDE.
PROF WASN’T JUST THE HIGHEST BIDDER, THEY WERE THE ONLY
BIDDER (AT THEIR OWN AUCTION), W/TRUSTEE STARTING THE BID
AT $20K OVER COUNTY ASSESSMENT @ 100% FAIR MARKET VALUE!
IF NOT TO HIDE SOMETHING, WHO BIDS MORE THAN ACTUAL VALUE
AT AUCTION?
PROF DOES NOT ADDRESS MY STATEMENT OF FACTS, BUT CLAIMS
THEM AS PREVIOUSLY LITIGATED IN MY FORECLOSURE CHALLENGE
ADVERSELY DETERMINED VS. ME & CLAIMS THOSE FACTS AS
ALLEGATIONS NOT GERMANE TO AN ACTION FOR UD - WHERE THE
“ONLY MATERIAL FACTS WERE PROF’S FACIALLY VALID TITLE, THE
NOTICE TO VACATE & HAMPTON’S CONT’D UNLAWFUL POSSESSION
OF THE PROPERTY.” IF THIS IS ALL IT TAKES TO CLAIM UD & TAKE
POSSESSION, CLEARLY THE STATUTES GOVERNING THE SAME ARE
UNCONSTITUTIONAL AS THEY FAIL CITIZENS’ RIGHTS TO DEFEND
THEIR PROPERTY FROM UNLAWFUL TAKINGS W/O DUE PROCESS &
THE PROTECTIONS OF THE LAW.
4

App. 53

IT SHOULD BE NOTED FROM PROF’S OPPOSITION, THEY FAIL TO
RESPOND TO MY ARGUMENTS PER CORBETT, CARPENTER, PARRISH
OR WHITLOW ... OR MEADE, MATHEWS, JACOBSON OR WIGOD. IT
SHOULD ALSO BE CLEAR FROM MY FACTS, PROF HAD NO RIGHTS TO
POSSESSION PRIOR TO FORECLOSURE & TRUSTEE KNEW THEY
BREACHED THE DOT AND NOTED VIOLATIONS, AS LAID OUT IN MY
PETITION, & AS TRUSTEE, AN ATTORNEY AT LAW, HAD TO HAVE
KNOWN THAT THEY COULD NOT ACT AS BUYER & SELLER AT THEIR
OWN AUCTION, FURTHER ACTING IN DEFENSE IN ALL SUITS, EVEN
WHERE NAMED AS A DEFENDANT! THEY KNEW THE FORECLOSURE
ACTION COULD HAVE BEEN SET ASIDE IN THOSE PRIOR SUITS
DISMISSED ON DEMURRERS, WHERE THEY ARGUED THEY FOUND NO
CAUSE OF ACTION. ... IT IS HOPED THIS COURT WILL ADDRESS AS
WELL!
THEIR ARGUMENT THAT

SUMMARY JUDGMENT SHOULD BE

GRANTED WHEN NO TRIAL IS NECESSARY, BECAUSE NO EVIDENCE
WOULD AFFECT THE RESULT, IS DECEIVING, ESPECIALLY GIVEN THE
OPPORTUNITY TO HAVE A TRIAL, I AM CERTAIN I WOULD HAVE
PREVAILED WITH A PREPONDERANCE OF EVIDENCE THAT ALL
DEEDS ON MY PROPERTY SHOULD BE HELD VOID OR VOIDABLE, THE
5

App. 54

ORIGINAL DOT AS VOID AB INITIO. & THE DEEDS FILED IN THE COURT
RECORDS FILED BY THE TRUSTEE, OR FOR PROF, ARE NOT ONLY
MATERIALLY, BUT ALSO “FACIALLY” DEFECTIVE - IN ADDITION TO
BEING VOIDABLE - & WHERE I ONLY ADMITTED TO THOSE DEEDS AS
COPIES OF WHAT WAS FILED IN THE COURT, BUT FURTHER STATED
THEY WERE NOT ACCURATE AND HOW THE DEEDS WERE
DEFECTIVE, WHICH APPARENTLY EITHER THE CT IGNORED IN THE
ADMISSIONS THAT I SUBMITTED TO THE COURT FROM BOTH SIDES,
OR UD STATUTES DO NOT ALLOW A CHALLENGE TO THE DOF
SIMPLY BECAUSE A TRUSTEE FILES A DOF (ELECTRONICALLY,
NOT ORIGINALS) IN THE COURT & THUS IT IS CONSIDERED
“PRIMA FACIE” EVIDENCE! IF NOT ALLOWING A CHALLENGE TO
DOF, OR ANY DEEDS ON FILE, THAT WOULD SEEM TO BE A WRONG
APPLICATION OF THE LAW! AND ANOTHER TORT FOR THIS
HONORABLE COURT TO ADDRESS!
AT MY MOTION TO DISMISS, BROUGHT UP IN PROF’S ARGUMENTS, I
PROFFERED FURTHER FACTS TO MY EVIDENCE OF THE INITIAL
DEED OF TRUST BEING VOID AB INITIO Sc THE ASSIGNMENT TO THE
DOT AND THE NOTE HAVING SEPARATED & WHERE AN ASSIGNMENT
OF THE DOT ALONE IS A NULLITY -THUS NO PARTY HAD A RIGHT TO
6

App. 55

FORECLOSE. ... REFERENCING CARPENTER V. LONGAN

AS

WAS STATED IN MY REPLY BRIEF TO SCOTUS! I BELIEVED THESE
FACTS WERE SUFFICIENT TO DISMISS MY CASE UNDER PARRISH &
ALTHO I PROFFERED FURTHER EVIDENCE, IF THAT WAS NOT
SUFFICIENT, THE COURT DID NOT PURSUE THE FURTHER EVIDENCE,
AND DENIED MY MOTION TO DISMISS. IT IS HOPED CLEAR IN MY
PETITION THAT PARRISH DID APPLY, CONSIDERING ALL THE
EVIDENCE AND ARGUMENTS.
HOWEVER, PROF CLAIMED ALLEGATIONS MUST BE SUFFICIENT TO
SURVIVE A DEMURRER AND SINCE I HAD NOT SURVIVED DEMURRER
IN MY PRIOR CASE VS THEM & OTHERS, HEREIN LIES THEIR CLAIM
TO RES JUDICATA, WHICH I WILL DEFER TO MY 2nd PETITION HEREIN
ON DEMURRER.
HAD THE COURT APPLIED PARRISH, IT SHOULD HAVE DISMISSED THE
CASE, AND PROF COULD HAVE FILED A SEPARATE ACTION IN THE
CIRCUIT COURT TO WHICH AFTER DISCOVERY, THE COURT SHOULD
HAVE SET ASIDE THE FORECLOSURE ACTION, BASED ON THE
ARGUMENTS HEREIN, & FOUND ALL RELATED DEEDS FILED IN THE
COURT AS VOID OR VOIDABLE, AS WELL AS THE GOVERNING DOT AS

7

App. 56

VOID AB INITIO & THE INITIAL ASSIGNMENT THERETO AS A NULLITY
(AND ALL DEEDS STILL REQUIRING A CORRECTIVE AFFIDAVIT).
GRANTING

SUMMARY

JUDGMENT

DEPRIVED

ME

OF

MY

CONSTITUTIONAL RIGHTS TO BE JUDGED BY JURY!
THIS COURT IN ITS DE NOVO REVIEW SHOULD DECIDE “W/O
DEFERENCE” TO A PREVIOUS COURT’S DECISION AND, IN DOING SO,
CONSIDER THE TRUTHS TO THE ALLEGATIONS AS LAID OUT IN THE
FACTS & ARGUMENTS HEREIN, & NOT ON THOSE PRIOR DEMURRERS.
YOUR HONORS, I BELIEVE THAT MY PETITION, IF ACCEPTED FOR
APPEAL, IS OF PRECEDENTIAL VALUE & COULD SIGNIFICANTLY
IMPACT THE DEVELOPMENT OF LEGAL STANDARDS ON A NUMBER
OF TORTS ADDRESSED HEREIN.
I RESPECTFULLY PRAY THIS SUPERIOR COURT GRANT THIS APPEAL,
WHERE THIS COURT CAN BEGIN THE PROCESS TO CHANGE WHAT
NEEDS TO BE.

8

App. 57

IN THE SUPREME COURT OF VIRGINIA
KATHLEEN C. HAMPTON

)
)

Appellant / Defendant, pro se

)
)

v.

)

Record No.

)
)
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION, )
)
AS LEGAL TITLE TRUSTEE,
)

Appellee / Plaintiff.

)

PETITION FOR APPEAL
KATHLEEN C. HAMPTON
By:

App. 58

Kathleen C. Hampton, pro se
P.O.Box 154
Bluemont, Virginia 20135
Tel: 540-554-2042
Fax: None Available
khampton47@yahoo .com
(internet with limited access)

//&3

IN THE SUPREME COURT OF VIRGINIA
KATHLEEN C. HAMPTON

)
)

Appellant / Defendant, pro se

)
)

v.

)

Record No.

//

)

PROF-2013-S3 LEGAL TITLE TRUST,
)
BY U.S. BANK NATIONAL ASSOCIATION, )
AS LEGAL TITLE TRUSTEE,
)
)

Appellee / Plaintiff.

)

PETITION FOR APPEAL
NOW COMES Appellant, Defendant below, Kathleen C. Hampton, pro se
(“Appellant” or “Hampton”), and, pursuant to the Rules of the Supreme Court of
Virginia, respectfully submits this Petition for Appeal from the decision of the
Circuit Court of Loudoun County, Virginia, entered on February 7, 2020, in
CLOO118604-00, in favor of Appellee, Plaintiff below, PROF-2013-S3 Legal Title
Trust, by U.S. Bank National Association, as Legal Title Trustee (“Appellee” or
“PROF”). Per the Judicial Emergency Declarations, the tolling period for filing the
petition for appeal under Rule 5:17(a)(l) was extended for a period of 52 days after
the tolling period ended on July 20, 2020, or for this Petition for Appeal was
extended until at least September 8, 2020, and thus timely filed. In support of said
Petition for Appeal, Hampton states as follows:

App. 59

TABLE OF CONTENTS
PAGE
Assignment of Error

in

Table of Authorities

IV

Assignment of Error

1

Statement of the Nature of the Case and
Material Proceedings Below

1

Statement of Facts

6

Authorities and Argument

23

Assignment of Error

23

Conclusion

35

Certificate

36

ii

App. 60

ASSIGNMENT OF ERROR
Whether the Circuit Court erred in granting Summary Judgment on Unlawful
Detainer {Order of February 7, 2020, excerpt tr. 10-18-19, p.13,11. 17-22 - p.14,
1.1), denying Appellant’s Constitutional Rights to a Trial by Jury and whether the
Unlawful Detainer Statutes violate Citizens’ Constitutional Rights to Due Process.

iii

App. 61

TABLE OF AUTHORITIES
Page
Carpenter v. Longan 16 Wall. 271, 83 U.S. 271, 274,
21 L.Ed. 313 (1872)

30

Clomon v. Jackson, 988 F.2d 1314 (2nd Cir. 1993)

17

Corbett v. Nutt. 59 Va. (18 Gratt.) 624, 648 (1868)

29

Hornsby v. Allen, 326 F.2d 605 (5th Cir. 1964)

35

Jacobson v Bayview Loan Servicing & Charles J. Peterson,
Trustee, 371 P.3d 397, 383 Mont 257 (2016)

33

Matthews v. PHHMortgage Corp., 724 S.E.2d 196,
283 Va. 723 (2012)

16,33

Meade v. BANA, Supreme Court of Virginia Record No.
180244, November 29, 2018 (unpublished)

33

Miller v. Javitch, Block & Rathbone, 561 F.3d 588,
591 (6th Cir. 2009)

17

Parrish v. Federal National Mortgage Association,
292 Va. 44, 787 S.E.2d 116 (2016)

5, 25, 28-32

Swanson v. Southern Oregon Credit Service, Inc.,
869 F.2d 1222 (9th Cir. 1988)

17

Tolan v. Cotton, 134 S.Ct. 1861, 1866 (2014)

23

Wallace v. Washington Mut Bank, F.A., 683 F.3d 323
(6th Cir. 2012)

17

Whitlow v. Mountain Trust Bank, 215 Va. 149, 152,
207 S.E.2d 837, 840(1974)

32

Wigodv. Wells Fargo Bank, 673 F.3d 54 (7th Cir. 2012)

34, 35

iv

App. 62

Page
STATUTES
Va. Code §6.2-1614
Va. Code §6.2-1629
Va. Code §55-59.LB

8
8

16

Code of Federal Regulations
12C.F.R. §1024.41
12C.F.R. §1024.41(g)
24 C.F.R. §203.604

17
16
16

United States Code
12U.S.C. §1818(b)
15U.S.C. § 1692(e)
15 U.S.C §1692c(a)(2)
15 U.S.C. §1692k(a)(2)

34

Virginia Rules of the Supreme Court
Rule 3:20 Motion for Summary Judgment

23,33

11,16
17, 18
18

v
App. 63

ASSIGNMENT OF ERROR
Whether the Circuit Court erred in granting Summary Judgment on Unlawful
Detainer {Order of February 7, 2020, excerpt tr. 10-18-19, p-13, 11. 17-22 - p.14,
1.1), denying Appellant's Constitutional Rights to a Trial by Jury and whether the
Unlawful Detainer Statutes violate Citizens’ Constitutional Rights to Due Process.
STATEMENT OF THE NATURE OF THE CASE
AND MATERIAL PROCEEDINGS BELOW
This appeal is from the February 7, 2020, Final Order of the Circuit Court
of Loudoun County on PROF-2013-S3 Legal Title Trust, by U.S. Bank National
Association, as Legal Title Trustee (“PROF” or “Appellee”)’s Unlawful Detainer
granting Summary Judgment (CL00118604-00), filed in the General District Court
(“GDC”) (GV17000311-00, January 12, 2017), where Kathleen C. Hampton
(“Hampton” or “Appellant”) appealed to the Circuit Court. It also needs to be
noticed here that Appellant, by separate Petition for Appeal, appeals the February
7, 2020, Final Order of the Circuit Court of Loudoun County on Appellant’s
Counterclaims & Sanctions (Grounds of Defense) by sustaining Appellee’s
Demurrer (CL00118605-00), initially filed in the GDC (GV17013350-00,
December 21, 2017, and June 1, 2018, respectively). Both cases have been heard
together in the GDC and Circuit Court, and are requested to continue to be herein.
As the record will reflect, in Hampton’s initial Counterclaims and Sanctions:
“NOW COMES Defendant, Kathleen C. Hampton, and in response to
this Court’s action to set Trial for January 5, 2018, submits her
l

App. 64

Counterclaims under Code of Virginia Title 16.1-88.01 and Sanctions which
will follow on Motion under Rule 11 (b).
First, with regard to this Unlawful Detainer herein, a prior claim for
the same in this court was filed June 27, 2016, in Case No. GV16004218-00,
and dismissed September 26, 2016 (after three appearances in court), for
failure of counsel to show up and was argued on Defendant’s claim
regarding her case, as Plaintiff, against PROF-2013-S3 Legal Title Trust
(and several others) before the Circuit Court of Loudoun County, Case No.
CL-98163, which was pending at that time and included her claim to stop
the Unlawful Detainer suits as they were “believed that Fay did this
intentionally as a serious act of extortion against her property, her reputation
and her physical, mental and financial well being.” ...
Second, with regard to this Unlawful Detainer herein, this claim was
brought on January 12, 2017, and hearings scheduled ... were continued due
to Defendant’s ... Appeal before the Virginia Supreme Court ... the
Supreme Court decision of August 14, 2017, finding that the Final Order ...
was “not a final, appealable order as it is not final with regard to ...
PROF...” ... thereafter schedule the December 13, 2017, hearing for a
“status check.” At this last hearing ... Plaintiff herein submitted the Final
Order of the Circuit Court dated January 3, 2017 ... A Trial date of January
5, 2018, was set for docket. ...
Following the scheduling of a Trial Date ... Defendant will provide
supporting Exhibits ... and petition this court to rule on the Unlawful
Detainers and further requests to stop the perpetual auctions on line that are
being conducted on a weekly basis on behalf of the Plaintiff, which is
believed to be a further intentional, serious act of extortion against
Defendant’s property, her reputation and her physical, mental and financial
well being. This type of behavior should be barred as this case is part of a
much larger case that shall return to the highest court in this state on further
appeal of an “acceptable, appealable Final Order” of the Circuit Court....
For the foregoing reasons, Defendant sanctions for this Plaintiff and
all of its counsels to quit any further actions which should be barred by the
above-mentioned suits of Defendant, as it is Defendant’s position that these
Unlawful Detainer suits and auctions on line of the property herein are being
brought “to harass or to cause needless litigation,” while Defendant’s case
continues through the superior courts.”
On March 30, 2018, the Circuit Court signed an Amended Final Order, adding
PROF, on Hampton’s motion for an appealable Final Order, and Hampton filed
2

App. 65

her Objections, where clearly she did not agree to PROF having entered into any
suit in any court. Thus the second Petition for Appeal (Record No. 180842) from
the Amended Final Order included the Order of January 3, 2017, sustaining the
Demurrers and Pleas in Bar and “now added’ PROF, and the Supreme Court, by
Opinion dated November 9, 2018, found “there is no reversible error in the
judgment complained of’ and refused Petition for Appeal and, upon Petition for
Rehearing, denied the same February 1, 2019. The mandates were not returned to
the Circuit Court until February 25, 2019.
Petitioner therein did not believe that the Supreme Court had addressed all
the errors, particularly those related to Hampton’s Constitutional Rights to Due
Process and the Protections of the Law, in addition to whether PROF had truly
entered into any suit, and accordingly, filed her Petition for Writ of Certiorari
before SCOTUS May 1, 2019, identified as Record No. 18-9127. SCOTUS
subsequently denied Hampton’s Petition on October 7, 2019, as being part of the
99% which does not get accepted. This was not a confirmation of the State
Supreme Court’s Opinion.
Hampton’s initial Complaint filed December 4, 2015, in the U.S. District
Court (Eastern District of Virginia, Alexandria Div.) Civil Action No.l:15CV 1624
for “Application for TRO and/or Preliminary Injunction, and Declaratory Relief,”
was filed in a hurried effort to stop two defendants, Fay Servicing LLC (“Fay”)
3

App. 66

and Samuel I. White, P.C. (“SIW” or “White”) on behalf of PROF, from
proceeding with a Trustee Sale on December 7, 2015. That U.S. court later granted
Hampton’s request May 18, 2016, Dismissing without Prejudice pursuant to FRCP
41(a)(1), which Hampton requested in an effort to combine that federal suit with
the state court case (filed December 11, 2015, subsequent to foreclosure) in her
Second Amended Complaint, since opposing counsels had complained of multiple
suits, which were only brought on by PROF’s failure to cancel the foreclosure
proceeding three days after suit filed.
Returning here to the Unlawful Detainer (“UD”) case in the GDC, at the trial
date of January 5, 2018, the Court accepted Hampton’s Counterclaims, despite
PROF’s counsel’s arguments and further set a “status check” for April 2, 2018. It
was at this “status check” (three days after the March 30, 2018, Amended Final
Order issued) that the GDC set a trial for August 3, 2018, and directed PROF’s
counsel to submit a Bill of Particulars and for Hampton to submit her Grounds of
Defense. This was what the trial on August 3, 2018, was to be based upon, not the
initial Counterclaims, which were dependent upon Hampton’s other court filings.
At the August 3, 2018, trial, it was not apparent that the court reviewed the
Bill ofParticulars or the Grounds ofDefense, although the judge advised Hampton
that she could not invalidate any Deeds or foreclosure actions, and that the GDC
was not a “court of record.” Thereafter, as prompted by PROF’s counsel, the court
4

App. 67

ruled on a Motion for Summary Judgment, dismissed previously as premature, and
without considering Hampton’s response thereto. The court granted possession to
PROF and, without a spoken word, apparently dismissed the Grounds of Defense,
and imposed an $8,000 bond on Appeal, advising that both the Unlawful Detainer
and the Counterclaims would have to be separately appealed. However, the GDC
held out on an Order until another “status check” was held on November 14, 2018.
At the “status check” November 14, 2018, Hampton made known that
Parrish {Parrish v. Federal National Mortgage Association, 292 Va. 44, 787
S.E.2d 116 [2016]) should have prevented the GDC from ruling on the UD case
and awarding possession. Hampton also advised of her continuing cases before the
Supreme Court of Virginia, where the court denied Hampton’s Petition for Appeal
on November 9, 2018, but she had intention to file a Petition for Rehearing, which
she did file, and it was not until February 1, 2019, that the Petition was denied, and
the mandates were not returned to the Circuit Court until February 25, 2019.
It appeared to Hampton that the GDC made a premature ruling on a case,
where superior court decisions were not mandated to the Circuit Court until three
months after GDC’s November 14, 2018, Order.
Hampton’s Petition for Writ of Certiorari to SCOTUS was not denied until
October 7, 2019, nearly a year after the November 14, 2018, GDC Order.

5

App. 68

STATEMENT OF THE FACTS
This is an Unlawful Detainer suit resulting from a “wrongful” non-judicial
foreclosure, that no court has recognized or set aside, which was prematurely filed
and charged against Hampton, and was also prematurely decided by the GDC prior
to final decisions in higher courts on Hampton’s appeals of her case. Hampton was
lead to believe that by appealing the GDC decisions, she would have a Trial by
Jury, in a court of equity, as a Constitutional right; and, thus, her costly Appeal.
Hampton notes here that the twenty minute allotted time to argue at hearing
on PROF’s Motions for Summary Judgment and Demurrer, was insufficient to
present all the evidence that would have been provided in her three-day Trial by
Jury. It would appear the court did not consider all the evidence, for there was
“sufficient” evidence presented by Hampton in “submitted” Discovery Admissions,
from both sides, and her Exhibits A - T thereto, to show the Assignment of the
Deed of Trust (“DOT”) and the Deed of Foreclosure (“DOF”) were materially
defective and in dispute and PROF was not entitled to Summary Judgment or
possession. Those motions were “fatally” decided, and prevented Hampton’s
“Constitutional Rights” to a Trial by Jury.
The following facts were identified in Hampton’s Amended List of Exhibits
(herein as H.EJ), filed as evidence to be presented to the court and jury, and
identified in Hampton’s exhibits to Discovery Requests for Admissions (herein as
6

App. 69

H.A. A through T), as supported in Hampton’s Motion for Rehearing ... Mistrial
Supporting Memorandum ofLaw, which should be reviewed together herein.
1. On July 28, 2005, America’s Wholesale Lender, aka Countrywide Home
Loans, Inc. (“CW” or “Countrywide”), sold Hampton two predatory loans (referred
to as subprime 2/28 [$300,000] and 2/15 [$75,000]), as evidenced on the original
Deed of Sale, and the DOTs, filed in the court as Instrument Nos. 200507290083785, 20050729-008386, 20050729-008387, respectively.
2. Hampton, upon receiving, reviewed her Deed of Sale, where the original
description of the property was not at settlement, and reported to the Title
Company that the description listed an incorrect amount of acreage conveyed. The
company obtained a corrected description of the property from the seller, and filed
deeds in the court on October 17, 2005, as: Re-recorded Deed of Sale instrument
no. 20051017-0116773 (H.E.l); Re-recorded DOT (for $300,000) instrument no.
20051017-0116774 (H.E.2); and Re-recorded DOT (for $75,000) instrument no.
20051017-0116775 (H.E.3).
3. The first DOT and loan had a two percent prepayment penalty, never
noted to Hampton (in violation of VA Code §159.1-200 re predatory lending), and
in February of 2006, Countrywide induced Hampton into a re-finance of her loans,
combining the two, for both a significantly lower payment and slightly lower
interest rate, and claiming the property appraised at $581,000.
7

App. 70

4. Countrywide staged a sale of the subordinate loan to HSBC, to validate
the prepayment penalty they were not entitled to with an “in-house” re-finance, as
seen in the “fraudulent” Corporation Assignment of DOT from Countrywide to
Household Realty Corp. of VA, filed in the court on May 25, 2006, as instrument
no. 20060525-0046084, just prior to the re-finance June 9, 2006. (H.E.4) (Also
appended to Reconsideration Memorandum ofLaw from prior case Exhibit 5)
5. Countrywide violated VA Code §6.2-1629 (prohibited practices re decep­
tion, fraud, etc. with Consumer Transactions) as well as §6.2-1614 (blanks left to
be filled in after execution and submitting false information ... breaching any
covenant or instrument... intentionally engage in the act of refinancing a mortgage
loan within 12 months following the date the refinanced mortgage loan was
originated, unless in borrower’s best interest). Hampton was not only induced but
deceived as to the loan product of an interest-only-arm loan for ten years, not
discovered until ten years later and her loan increased by $16,800 without cashout.
The 2006 Countrywide refinance DOT was filed in the court on June 14, 2006, as
instrument no. 20060614-0052490. (H.E.5) (H.A.A) (further argued at Hampton’s
Motion to Dismiss, as evidence submitted at hearing with Hampton’s Reply Briefto
SCOTUS, copies of the DOT, both before and after alteration). And since again the
property description was not at signing, the description was found altered and
incorrect and later determined to require a “Corrective Affidavit.” (see para. 20).
8

App. 71

6. Evidence of the material alteration is easily seen in the 2006 Countrywide
refinance DOT, first page of Hampton’s original copy at closing, unaltered, with
blank spaces to be filled in. (H.E.6) (H.A.A, altered DOT in admissions). The
original was to be at Trial, together with other originals, and included at Summary
Judgment and Demurrer hearings, but returned to Hampton for use at trial.
7. Although Bank of America, N.A. (“BANA”) admitted to State Attorney
General’s Predatory Lending Unit in 2019 that Fannie Mae was the “master”
investor since 2006, it was not until a Bloomberg Audit on Hampton’s account
revealed the Note possibly went into the Fannie Mae REMIC-2006-67 GSE.
8. Although Countrywide failed to send or file with the court a Notice of
Corporate Assignment (per paragraph 20 of the DOT), Bank of America (“BoA” or
“BofA”) took over the loan in April 2009. Hampton, having applied and qualified
for, was verbally approved by BoA, under the Fannie Mae Guidelines, for the
HAMP modification, as evidenced by Hampton’s July 27, 2009, submission for
HAMP modification (H.E.7), qualifying Hampton for the HAMP modification on
July 29, 2009, but was never offered. No further billing statements were received
after the July 2009 statement, and Hampton was instructed not to make payment on
that prior loan as it was being modified. All loans were to convert to fixed-rates.
9. BoA required Hampton to file bankruptcy in order to qualify for the
HAMP modification, which Hampton filed January 12, 2010. And, in a further
9

App. 72

effort to receive the modification, Hampton faxed her January 24, 2010, letter to
BofA re HAMP modification with attachments 5A-D (hardship/history of loan)
and 6A-6B (Fannie Mae Guidelines), after bankruptcy attorney’s consent. (H.E.8)
10. Thereafter, BoA failed to reaffirm with a modification, as promised, and
the court discharged the debt as could be seen in US Bankruptcy Court Discharge
dated April 26, 2010. (H.E.9)
11. Shapiro et al. wrote a December 15, 2010, letter re deed of trust being
unavailable and notice re sale of property. (H.E.10) Later, it was this foreclosure
notice and BoA’s prior approval of the HAMP modification (never offered) that
qualified Hampton under the Independent Foreclosure Review.
12. Hampton’s further evidence to qualification for the HAMP modification
could be seen in her December 21, 2010, e-mail with John Pontino, BoA’s Loss
Mitigation Specialist, re HAMP application sent to underwriting. (H.E.ll) In
February 2011, BoA “lied” about the investors rejecting the HAMP modification
where Fannie Mae, the investor, did not deny the same. (H.E.8, attached 6A-6B)
13. Notice of Assignment of DOT from MERS to Bank of America, N.A.
(“BANA”), successor by merger to BAC Home Loans Servicing, LP fka Country­
wide Home Loans Servicing, LP (who never serviced Hampton’s loan) filed in the
court March 30, 2012 (nearly six years later), instrument no. 20120330-0023523,
misrepresenting that they were the “holder and owner” of the Note and beneficiary
10

App. 73

of the DOT, when this was not true and was a misrepresentation of material fact,
and they did so with the intent to cause Hampton to rely on the misrepresentation
regarding the DOT and their attempts to foreclosure on the Property (H.E.12)
(H.A.B), argued at Motion to Dismiss, with exhibits to Hampton’s Reply Brief to
SCOTUS, and her argument regarding separation of the Note and the DOT, and
where an assignment of the DOT alone is a nullity.
14. Under the Consent Orders (2011) (H.E.39 US Bank N.A., on behalf of
their trusts), US Treasury created the OCC FRB Financial Remediation Framework
- Independent Foreclosure Review (2012). (H.E.13) (H.E.40, full Guide) The
remedies required to “provide the loan (HAMP) modification for which borrower
should have been (was) approved,” plus corrections to credit records, and to
“suspend” foreclosure or “rescind” if such occurred. (Also see US Bank’s letters
on their role with Trusts, H.E. 40a & 40b) See also, 12U.S.C. §1818(b).
15. Under the Independent Foreclosure Review (“IFR”), the board sent a
letter of acknowledgment of Hampton’s request January 4, 2013. (H.E. 14)
16. Under the IFR, the banks were found accountable “with an enforcement
action related to deficient servicing and foreclosure processes,” and Hampton was
approved for the remedies, and sent a penalty payment on April 19,2013. (H.E. 15)
17. Under the IFR, Hampton was sent Tax Form 1099-Misc for 2013 (for the
penalty payment alone) received April 22, 2013. (H.E.16)
ll

App. 74

18. At no time following Hampton’s qualification under the IFR has BANA
or Fay (on behalf of US Bank/PROF) offered the mandated remedies, i.e., the
HAMP modification retro to July 29, 2009. A modification is like a re-finance
without closing costs and the loan starts over again, for another 30-40 years.
19. Hampton filed Complaints with President Obama in April 2014
(redirected to Consumers Financial Protection Bureau [CFPB]) as well as follow­
ups with CFPB, OCC/US Treasury, for BANA/Fay to comply with the IFR
remedies, to no avail. In response to BANA’s attorney (H.E.41) offering nothing
resembling the mandates, Hampton had Burch arrange a Bloomberg Audit of her
account in January 2015. Hampton’s expert witness was to provide testimony and
the Audit would have been presented to the jury (H.E.38) (Audit was also
submitted in full with Motion for Rehearing/Mistrial.)
20. Notices were sent in April 2015 on BANA’s attempt to foreclose and
Hampton discovered that the “description” in the publication and 2006 DOT were
altered from the re-recorded deeds of October 2005. Upon further investigation,
she discovered her property’s description was inaccurate and she put in claim to
Fidelity National Title Insurance Co., who turned it over to Owen & Owens
(“O&O”) in Virginia for a “Corrective Affidavit.” (H.E.43a - 43g) Jeremiah
Yourth, Esq. from O&O would have testified to White’s knowledge and approval
of those required “Affidavits” prior to foreclosure. See also para. 45 re (H.A.T).
12

App. 75

21. Further to BANA’s attempt to foreclose, Fannie Mae’s May 8, 2015,
Notice to Occupants was hand delivered to Hampton and she advised that CHI3
had been filed and no foreclosure had taken place at the courthouse. (H.E.17)
22. BofA sent on July 14, 2015, Notice of Servicing Transfer to Fay as of
August 1, 2015. (H.E.18) There was no transfer of the DOT filed in the court, nor
could Fay be considered a “Lender.” And Fay appears as a sub-servicer of BANA,
since on the MERS site STILL Fannie Mae is investor, and BANA is servicer.
23. Fay sent on July 17, 2015, 404 Notice/Notice of Sale of Ownership of
Mortgage Loan to PROF as of June 19, 2015. (H.E.19) (H.A.C) Hampton knew
this to be a misrepresentation since PROF could only be sold to “within a ninety
period of time” back in 2013, under the terms of a Pooling and Servicing
Agreement (PSA), which governs such trusts.
24. White sent on August 20, 2015, Notice re Fair Debt Collection Practices
Act. (H.E.20) Several communications followed and Hampton responded to all, to
both Fay and White, to communicate Notice of Error or Information Request/
Notice of Incorrect Default Amounts, Bankruptcy dismissal, and status of her loan
with the IFR remedies (H.E.20d), and as would have been presented in her trial by
jury, exhibits identified as H.E.20a to H.E.20f, with 20e being Fay’s offer of a
Deed in Lieu Incentive, which did not expire until December 31,2015, and where
they ignored all proper procedures as set out as violations in paragraph 31 herein.
13

App. 76

25. White sent its September 29, 2015, response to Hampton’s Notice of
Dispute, together with Interest Only Adjustable Rate Note attached. (H.E.21)
(H.A.D), stating that the note with all endorsements evidenced Noteholder status,
but it was “blank” endorsed. There should have been an endorsement to Fannie
Mae. A review of the Note and DOT clearly shows no endorsement to Fannie Mae
or BANA and, therefore, any appointment of a Substitute of Trustee or Assignment
is invalid, as both parties do not have the requisite authority to foreclose, assign a
substitute trustee or collect any payments.
26. Substitution of Trustee (SOT) from PROF to White, filed electronically
November 10, 2015, is identified as instrument no. 20151110-0074973. (H.E.22)
(H.A.E) PROF was never secured by the DOT, no Power of Attorney (POA) was
noted in the SOT, nor filed in the court records, and there was no Assignment to
the DOT filed in the court records, as a prerequisite to foreclose or assign the SOT.
Thus, White and Fay acted without the right to do so and knowingly did so.
27. White’s November 18, 2015, Notice of Trustee Sale/Substitution of
Trustee, was received by Hampton November 23, 2015, for Trustee Sale on
December 7, 2015 (H.E.23) (H.A.F), where this should be considered as “unfair”
notice as further detailed in paragraph 31 herein.
28. Although Hampton advised in August 2015, both Fay and White, of the
name of her attorney’s office (as required) and, more particularly, Burch’s
14

App. 77

involvement, and submitted numerous Third Party Authorizations, upon their
request, Fay continuously did not accept the same as they should have. Also,
Hampton, under the IFR remedies, was to be offered the HAMP modification - not
an application to determine eligibility - as she had already been found eligible.
29. Finally on December 1, 2015, Fay accepted Burch’s Third Party
Authorization, together with a modification application and proposed workout, and
contrary to Fay’s claim that Hampton failed to workout anything with Fay, it was
the reverse as they were to deal with Burch, but failed to do so until this late date.
30. Burch’s December 3, 2015, Demand to Cease & Desist Foreclosure
Proceedings was sent to White and Fay, together with Third Party Authorization.
(H.E.24) (H.A.G) Also attached to that letter were the Loan Securitization Audit
Highlights (H.E.24) to be presented at trial together with the other supporting
attachments noted in that Cease & Desist letter. (H.E.24a through H.E.24d)
31. On December 7, 2015, PROF through Fay and trustee White proceeded
with a foreclosure they had no right to proceed with and despite warnings per
Burch’s Cease and Desist, as set forth above, and stated in Hampton’s Motion for
Rehearing ... Mistrial Supporting Memorandum ofLaw, at pages 6 through 10:
“At no time has SIW acted as an unbiased fiduciary, and together with
Fay, have acted more as debt collectors (and, in fact, all their
communications identified them as such) violating the Fair Debt Collections
Practices Act (FDCPA) by:
Not following proper notice requirements such as:
15

App. 78

1) Unfair Notice of Trustee Sale where such Notice might have been
received within two weeks of the foreclosure date, but it was given during
the Thanksgiving Holiday and Hampton was only afforded 7 V2 days to do
anything about it, during a time period where not only the courts were
closed, but attorneys were unavailable as well. Also, Hampton did not
receive this Notice until after it was published in the newspaper, which again
should not be viewed as fair.
2) Hampton never received a Default Letter or any of the other notices
that were to be sent to her, in breach of the DOT, paragraph 22, where
Notice must specify:
(a) The Default; (b) the action to cure the default; (c) date not less
than thirty days from date of notice; and (d) notice of right to reinstate after
acceleration and right to bring court action.
Further to the above, Section 55-59.1.B of the Code of Virginia,
requires proper and timely notice, which was not provided to Hampton or
other beneficiaries.
3) In further breach of the DOT, paragraph 16, Governing Law;
Severability; Rules of Construction, calls for all conditions precedent as
required by Federal and/or Virginia Law, including but not limited to:
(a) the Virginia Supreme Court ruling in Mathews v. PHH. Mortg.
Corp., 724 S.E.2d 196, 283 Va. 723 (2012) regarding the failure to conduct
the HUD face-to-face meeting required by HUD regulations (24 CFR
section 203.604);
(b) failing to offer the mandated HAMP modification approved
initially July 29, 2009, under Fannie Mae Guidelines, and further approved
in early 2013, in the review of the Independent Foreclosure Review and its
Remediation Framework, a program which followed US Bank NA’s, on
behalf of their Trusts, “Consent Orders” with the OCC/US Treasury (as well
as to its predecessor BANA), which also did not require a complete
modification application, as it had already been approved; [12 U.S.C.
§1818(b) added here]
(c) failing to address the full and complete modification package
which was submitted, with confirmation to Fay Servicing on December 1,
2015, together with the Third Party Authorization, which ... delayed the
submission of the same ... And had Fay accepted the Third Party
Authorization, when first boarding the loan, Hampton’s further modification
application could have been submitted 37 days before the foreclosure date
making the foreclosure invalid ... under 12 CFR Section 1024.41(g).
(d) failing to let the offer of a Deed in Lieu expire prior to foreclosure,
where expiration date was December 31, 2015, and where foreclosure action
16

App. 79

L

took place December 7, 2015, in further violation of 12 CFR section 1024.41
- Loss Mitigation Procedures.
Even more specifically, the FDCPA is a strict liability statute which
specifically prohibits “[t]he use of any false representation or deceptive
means to collect or attempt to collect any debt or to obtain information
regarding a consumer.” 15 USC section 1692e(10). The FDCPA was
enacted “to eliminate abusive debt collection practices by debt collectors... ”
Miller v. Javitch, Block & Rathbone, 561 F.3d 588, 591 (6th Cir. 2009)
(quoting 15 U.S.C. Section 1692(e)).
... See Swanson v. Southern Oregon Credit Service, Inc., 869 F.2d
1222 (9lh Cir. 1988) ... Clomon v. Jackson, 988 F.2d 1314 (2nd Cir. 1993)
... Wallace v. Washington Mut. Bank, F.A., 683 F.3d 323 (6th Cir. 2012).
Here in this case it is clear that Fay committed numerous violations
using false representations and unfair and deceptive practices to collect
against Hampton, beginning with their very first 404 Notice of Sale of
Ownership of Mortgage Loan (Hampton’s Exhibit C to Discovery
Admissions) informing Hampton that PROF was the New Creditor as sold
on 6/19/2015. Since Hampton had already commissioned CFLA to conduct
the Bloomberg Audit in January of 2015, and having received and studied
the same, Hampton knew that PROF could not be a new creditor since these
trusts must have pooled all loans into the trust back in 2013 within 90 days
of the pooling and servicing agreement. Also, Fannie Mae was still claiming
to be the investor at that time.
Accordingly, Fay misrepresented to Hampton that this entity had a
right to foreclose, where clearly they did not, and as further evidenced by the
Bloomberg Audit. Here, Fannie Mae, the investor, was clearly the only one
who might have been able to foreclose had MERS assigned that first
Assignment to them instead of BANA, and thereafter appointed BANA as
servicer. Fay also advised Hampton that they would make sure that a
modification would be made and they would be Hampton’s last customer
service manager (since Hampton had more than 25 CSMs with BANA).
Further, Fay advised that the HAMP modification was no longer available,
which was clearly not true since it did not cease until December 31, 2016.
However, before Fay had time to even “board” the loan or followed through
with any of the above, they had instructed SIW to proceed with foreclosure
in mid-August, 2015.
Further Fay, early on, had advised that if Hampton had legal
representation that they would communicate with them, and Hampton
advised of the same and Burch, Hampton’s Loss Mitigation Specialist,
contacted them in mid-August regarding the same. However, it was not until
17

App. 80

December 1, 2015, that Fay accepted the ‘Third Party Authorization”
together with the modification application. SIW also did not accept the
“Third Party Authorization” together with the December 3, 2015, Cease &
Desist Letter until that date. That letter was also copied to Fay, and warned
of violations to the DOT, FDCPA, etc., and that Hampton would file suit,
which she did, the following day, December 4, 2015, if they failed to call off
the Trustee Sale scheduled for December 7, 2015.
So in addition to all the violations listed above and in Burch’s Cease
& Desist, including the Audit Highlights, the need for the Corrective
Affidavit to correct the Property description (“Cloud on Title”), invalid
assignments, lack of required notices, and the actual filing of a suit against
them in an attempt to stop the same, SIW and Fay proceeded with the
“wrongful” Trustee Sale on December 7, 2015. ... Hampton’s belief that Fay
acted merely as a “foreclosure mill” and misrepresented PROF was the
beneficiary of Hampton’s loan, where clearly Fannie Mae was the
beneficiary, but had never been assigned the DOT as it should have within
three months of acquiring the same, it should be found that this constituted a
false representation in connection with the collection of a debt and a
deceptive practice in the conduct of trade or commerce in violation of 15
U.S.C. Section 1692e. All of this coupled with the fact that the signer of the
Assignment from BANA to PROF, shows further confusion as to PRMF’s
acquisition of the loan as of June 19, 2015, the same date that Fay claimed
PROF had acquired the same. Given the wide range of misrepresentations,
the “least sophisticated consumer” would clearly have difficulty ascertaining
who owns the loan, and who can foreclose or resolve the loan.
Still further, the FDCPA prohibits a debt collector from
communicating with a consumer in connection with the collection of any
debt “if the debt collector knows the consumer is represented by an attorney
...” 15 U.S.C. Section 1692c(a)(2). Fay, as well as SIW, knew in midAugust that Hampton was represented by counsel and, more specifically, the
firm’s Loss Mitigation Specialist Jeff Burch, but failed to accept the Third
Party Authorization until December 1st and 3rd, 2015, respectively, and right
before the Trustee Sale of December 7, 2015.”
32. Hampton’s Civil Cover Sheet and US District Court, Eastern District of
VA, December 4, 2015, No. 1:15CV1624, filed to stop the foreclosure December
7, 2015, was presented at the Trustee Sale, but White ignored. (H.E.25) (H.A.H)
18

App. 81

As laid out in Hampton’s Requestfor Admissions, noted in #21, based on the
foregoing Exhs. A - H, PROF through White proceeded with foreclosure,
knowing all of the above, yet their responses deny any “wrongdoing.”
It should be obvious to this court, as Hampton believes it would have been to
her jurists, White on behalf of Fay/PROF did not fulfill all requirements precedent
to foreclosure per the DOT, nor did they have a right to proceed with the same.
33. Assignment of DOT from BANA to PROF was executed December 17,
2015, filed electronically twice December 28, 2015, in the court as instrument nos.
20151228-0084712 and 20151228-0084736 (H.E.26) (H.A.I), after the December
7, 2015, Trustee Sale, evidencing that PROF was not secured by the DOT prior to
filing the SOT and proceeding with foreclosure. This deed was not an original, had
an incorrect pin number, had a “bogus” description of the property, was executed
by a servicer on a POA not filed in the court and concealed ownership to still
another party, not party to the DOT, nor assigned servicing of the DOT; and where
the land records do not connect PRMF to the loan or the lender.
34. Auction.com advertisements began with post for January 16-19, 2016,
submitted with Exhibit BB to GDC and provided herein. (H.E.27) (H.A.K) It
should be noted here that neither Probate Court nor Circuit Court posted Orders
until nearly a year after auctions began, which continued into 2018, and caused
Hampton a great deal of stress, which Hampton believed to be Fay’s intention.
19

App. 82

35. Fay on behalf of PROF, through other counsel, initially filed Unlawful
Detainers (“UD”) in GDC on June 27, 2016, where Probate Court had yet to rule,
and again January 12, 2017, despite ongoing litigation. Hampton believes these
actions, as well as the GDC Order, were all premature to other court decisions.
36. Fay, as “Lender,” submitted to the IRS 2015 Form 1099-A/Acquisition
or Abandonment of Secured Property, where they knew Hampton filed bankruptcy
and was discharged from the debt in 2010, and were not entitled to file this notice,
and believed filed to cause Hampton further harm. (H.E.28) (H.A.L)
37. DOF from White to PROF dated May 12, 2016, filed May 13, 2016, as
instrument no. 20160513-0028205 (H.E.29) (H.A.M), not executed on December
7, 2015, did not state verbatim the property conveyed from the DOT, where White
knowingly substituted from a “Corrective Affidavit” (re “Cloud on Title”) they
approved, and knew the SOT was improperly assigned, and DOF was not an
Original, wet-ink copy as required. The property description is still incorrect.
38. Hampton’s Letter of Opposition filed with the Circuit Court to Land
Records, Real Estate Assessment and Treasurer’s Office dated June 20, 2016, was
sent to the Commissioner of Accounts and complained on the DOF as to being
unacceptable to the courts and was filed to stop further harm. (H.E.30) (H.A.N)
39. The Limited POA from US Bank NA to Fay dated August 26, 2014,
which was first submitted with Foreclosure Accounting by White to Commissioner
20

App. 83

of Accounts on June 7, 2016 (to show right or power to act), failed to list PROF.
(H.E.31) (H.A.O)
40. The Limited POA from US Bank NA to Fay dated June 4, 2015, was
filed and recorded in Mount Holly, NJ, on December 23, 2015, as instrument no.
5188366, and subsequently submitted for Foreclosure Accounting by White to
support its powers to foreclose, was not an original POA, not filed in the county
court, and appeared tampered with regarding “PROF’s” entry - the exhibit
attached thereto being a copy and not original, as required. (H.E.32) (H.A.P)
41. PROF’s Certificate of Partial Release, was prepared by White, and filed
with the court on August 16, 2016, as instrument no. 20160816-0052847. (H.E.33)
(H.A.Q) This deed demonstrates White’s confusion regarding the need for the
“Corrective Affidavit” on the description of the property, where this deed releases
21.88 acres that never conveyed in the DOT of 2006, and further “Clouds Title.”
42. The Limited POA from BANA to Avenue 365 Lender Services, LLC,
relates to BANA’s sale of Hampton’s Mortgage Loan Purchase and Interim
Servicing Agreement as sold June 19, 2015, to PRMF Acquisitions LLC, was
recorded in the Maricopa County Recorder on August 26, 2015, as instrument no.
20150617207. (H.E.34) (H.A.J) This POA conceals further ownership and that the
wrong party proceeded with the assignment of the SOT and foreclosure
proceedings, and failed to record in court records, to prove any powers.
21

App. 84

43. US Securities & Exchange Commission’s (“SEC”) Attestation dated
October 3, 2016, states no filings under US Bank NA as Legal Title Trustee for
PROF-2013-S3 Legal Title Trust or under the name of PROF; thus the Note not
secured by the DOT. (H.E.35) (H.A.R) Where these trusts are governed by their
PSAs, Federal law requires that their contracts be certified and filed with the SEC.
44. The Order of Probate Court dated December 1, 2016, states it “expresses
no opinion as to the correctness and validity ... or other language on the account of
sale.” (H.E.36) (H.A.S) And where Hampton had filed “Exceptions” therein, those
Exceptions could have been offered at trial (H.E.42) Note: Probate Court, like
GDC, is not a court of record, and thus cannot invalidate a DOT or DOF.
45. The Loudoun County website stating how to correct a deed recorded in
the land records (by “Corrective Affidavits” only), was submitted first in GDC on
August 3, 2018, which procedures White ignored. (H.E.37) (H.A.T)
As laid out in Hampton’s Requestfor Admissions, noted in #22, based on the
foregoing Exits. I - T, PROF through White proceeded with post-foreclosure
filings, knowing all of the above, yet their responses deny any “wrongdoing.”
As can be seen from the List of Exhibits (through 48), there was much more
testimony and exhibits to be presented to the jury in support of the effects of the
“wrongdoings,” and to the costly, even duplicate, expense to Hampton and to her
welfare, her reputation and her physical, mental and financial well being.
22

App. 85

AUTHORITIES AND ARGUMENT
Assignment of Error: Whether the Circuit Court erred in granting Summary
Judgment on Unlawful Detainer {Order of February 7, 2020, excerpt tr. 10-18-19,
p.13,11. 17-22 - p.14,1.1), denying Appellant’s Constitutional Rights to a Trial by
Jury and whether the Unlawful Detainer Statutes violate Citizens’ Constitutional
Rights to Due Process.
The standard of review on a summary judgment is de novo.
Under Rule 3:20. Motion for Summary Judgment
“If it appears from the pleadings, the orders, if any, made at pretrial
conference, the admissions, if any, in the proceedings, that the moving party
is entitled to judgment, the court shall grant the motion. ... Summary
judgment shall not be entered if any material fact is genuinely in dispute.”
This is further supported by:
“Where there is conflicting evidence, the court must credit the
evidence of both sides and acknowledge that there is a genuine issue of
material fact that cannot be resolved by summary judgment.” See Tolan v.
Cotton, 134 S.Ct. 1861, 1866 (2014) (stating that summary judgment is
inappropriate where each side has put forward competent evidence that
raises a dispute about a material fact).
One only needs to review the facts to find clear and genuine facts in dispute
and as “submitted” in Hampton’s Admissions (from both sides) with her Exhibits.
Hampton also filed Reconsideration motions, and then Motions for Rehearing or in
the Alternative Motions for a Mistrial and Supporting Memorandum of Law, to
“complete and preserve” the record, before Final Orders issued, and to give the
court the opportunity to make an informed ruling on the issues to prevent needless
appeals and in hopes of “justice” resulting in a trial by jury, not by the bench.
23

App. 86

Hampton submitted her Objections to the Final Order on Summary Judg­
ment in the Unlawful Detainer Action, ruled on February 7, 2020, and as preserved
therein, when read together with Hampton’s other Reconsideration/Rehearing/
Mistrial motions will be easier to follow, thus offers those arguments as -stated:
First, Hampton had filed Motions for Reconsideration (denied by
Judge Sincavage), as well as Motions for Rehearing or in the Alternative
Motions for a Mistrial and Supporting Memorandum of Law, deemed to be
further Motions for Reconsideration, also denied at the February 7, 2020,
hearing on Final Order. Those motions and exhibits thereto, now on record,
presented evidence as to the wrongdoing that PROF, Fay Servicing and
Samuel I. White, P.C. have imposed upon Hampton. The following
objections and/or arguments are being preserved herein as they will be
presented to the Supreme Court of Virginia on a still further appeal.
Addressing the issue of summary judgment, the following is an
excerpt from Judge Sincavage’s ruling on December 6, 2019, on the Motion
to Release Bond;
“Hampton filed Motion to Reconsider and I have not reviewed yet. ...
First on ruling, I don’t believe I affirmed. Affirming has a couple meanings
that apply. If someone was to withdraw their appeal, then the General
District Court ruling is affirmed. There was no withdrawal in this case. Nor
was this a review of General District Court whether they made proper
rulings or proper findings. This was a trial de novo.” [Hampton notes
here: de novo review: when court decides without deference to a previous
court’s decision. Court decides all issues, as if case being heard for first
time.] (bold added for emphasis here)
. So the court was starting from the beginning - not looking at what
the District Court did and seeing if there was any error. What the court in
fact do was adjudicate these matters de novo from the start and the
court did so by granting summary judgment on unlawful detainer and
dismissing on demurrer the counterclaim. ... Until I get a final order, the
court has not really spoken as to what its adjudication or rulings in this
matter.” (bold added for emphasis here)
As can be seen in Judge Sincavage’s Final Order, as memorialized by
the Transcript Excerpt of October 18, 2019, what Judge Sincavage stated
24

App. 87

therein was that on “the issue on summary judgment” [p.6, 1.15] ... “are
there any genuine disputes of material facts.” [p.6, 11.17-18] ... “the most
important words for this analysis is material facts.” [p.6, 11.20-22] Judge
Sincavage then turns to the court’s jurisdiction: “on these matters is
derivative of the general court’s jurisdiction which per [Parrish] clearly
doesn’t include the ability, the jurisdiction, the power, the authority to try
issues of title.” [p.7,11.8-12]
Further, Judge Sincavage “has ruled on that and the court did decline
to dismiss the claim” [p.7,1.22 - p.8,11.1] ... “that Ms. Hampton’s claim of
- that title was invalid was not a bona fide claim under the law. Obviously
Ms. Hampton disagrees with the court’s decision to deny the motion to
dismiss.” [p.8, 11.3-6] ... “so the materiality of the dispute must be seen in
light of unlawful detainer action and unlawful detainer action only.” [p.8,
I.22 -p.9,11.1-2]
The court proceeds with the Deed of Foreclosure and Notice to
Vacate being admitted to as true, but where Hampton’s Admissions only
admit to being a “true” copy as to what SIW filed in the court, but noted as
NOT “accurate,” which the court fails to address or notice. It would appear
that anything that an attorney files is taken as truth and cannot be questioned
if filed and recorded with the courts.
Judge Sincavage stated further: “Those matters being admitted, in the
court’s view leave no material issue in genuine dispute because they
conclusively demonstrate as a matter of law that Prof is entitled to
possession of the subject property under the unlawful detainer statute.”[plO,
II.13-18]
There were no Admissions on Hampton’s part that would allow
Summary Judgment. And restating from Hampton’s first Motion for
Reconsideration:
“Yes, Hampton takes issue with this where clearly she has provided
sufficient evidence in her exhibits, as well as in Admissions to Discovery
Requests from both sides, for this court to determine that the documents of
Deed ofForeclosure, as well as the Assignment of the Deed of Trust, which
it is based upon, are materially defective. It appears from the transcript that
the court has based its decision on what was presented at hearing only, and
has ignored the evidence in the exhibits and Admissions. What does it take to
prove that there is a material dispute or a defective Deed, or what does it
take to survive a Demurrer where clearly the evidence shows that before a
trial by jury, Hampton would have prevailed with a preponderance of the
evidence. There is no justice in dismissing on Demurrer, where the evidence
25

App. 88

can prove otherwise. It is PROF who fears this outcome, because surely they
would not survive a trial by jury. And according to their Admissions, have
challenged Hampton on the same. But if you look more clearly, they wish to
prevent all evidence, including witnesses, as they have objected to the same.
Again, Hampton considers this to be an “obstruction of justice.” And this
court has failed Hampton on her rights to defend her property from the
“unlawful taking” of the same against her Constitutional Rights to Due
Process, and this court has failed in protecting Hampton from the same,
(emphasis added)
Although Hampton, prior to receiving the e-mail with a copy of the
transcript attached, had filed her Motions for Reconsideration, based on her
recollection at the hearing, Hampton believes those motions and recon­
siderations should be considered herein, together with their attachments....
It is clear from the transcript that the court did not review all
documentation on file, where particularly in Hampton’s Response to
Summary Judgment and Demurrer, Hampton was specific in her
“submitted” Admissions to PROF’s Discovery Requests that the documents
on file were, in fact, defective and those material facts were in dispute and,
thus, PROF was not entitled to judgment as a matter of law. It appears that
Hampton’s filed Response and her “submitted” attachments thereto, which
also included the Admissions of PROF to Discovery Requests, which read
more on denials, together with Hampton’s exhibits, were not considered by
the court. Clearly, the Admissions and Exhibits demonstrated that there were
defects to those documents, as well as to the procedure leading up to and
including those documents with regard to possession. And Hampton knows
that she would have prevailed at a trial by jury.”
Continuing with Judge Sincavage’s rulings, where he stated “The
demonstration of the deed of foreclosure which has not been found to be
invalid, for the reasons that have been stated previously such an attack isn’t
cognizable in this litigation” [p.10,1.19 - p.ll, 1.1] And in his final ruling on
this issue, Judge Sincavage states “that the deed of foreclosure and its
provisions stands as valid as does the notice to vacate, and as a matter of law
I find that plaintiff is entitled to possession, so the court grants the plaintiffs
motion for summary judgment and grants possession of the subject property
to the plaintiff.” [p.13,11.17-22 -p.14,1.1] [bold emphasis added]
Thus, it appears to Hampton that the Circuit Court is stating here that
on appeal from the General District Court on an unlawful detainer, this court
can only rule on an unlawful detainer based on the unlawful detainer statute,
26

App. 89

that being the same as in the General District Court. If this is the case, what
would be the purpose of an appeal to the Circuit Court, if it was limited
to what the General District Court can rule on? And why would a Trial
by Jury be granted on a de novo appeal, if you cannot consider anything
more than the unlawful detainer statute? Hampton was lead to believe
that by appealing an Unlawful Detainer suit from a General District Court,
which is not a court of record, she would be entitled to a de novo trial of
record, and her Constitutional Right to a Trial by Jury, where the jury
would determine the outcome and not the bench. How could this court’s
decision be considered “fair,” particularly, where Hampton was further
imposed with not only the $8,000 Bond to appeal, but the cost of filing
appeals fees; the costs involved in pleadings; the costs involving expert
witnesses, where a trial by jury was not permitted; the time spent in
researching and writing; the burden of trying to prove these injustices, where
she was not permitted to do so; and leaving Hampton still with the burden
of carrying on this appeal? (emphasis added)
Before addressing further Hampton’s arguments to be presented on
further appeal to the Supreme Court of Virginia, Hampton quotes from her
Motion to Dismiss filed September 18, 2019, page 2, paragraph 2:
“Second, this is also a combined suit where Hampton filed
Counterclaims based on the “wrongful” foreclosure sale, an alleged “forged”
Note, a material breach to the Deed of Trust (DOT) thus Void Ab Initio, an
invalid 404 Notice, improper notices to foreclosure, breaches to the DOT as
not all conditions precedent met, improper assignment to Substitution of
Trustee, wrong party proceeding, a known “Cloud on Title,” in addition to
filing suit challenging the foreclosure prior to the foreclosure, and a
multitude of other torts, including the validity of all Deeds, Assignments
(including challenging the initial Assignment signed by MERS), and all such
other records on file.” (bold emphasis added)
Although most exhibits have been entered into this case in one or more
pleadings or admissions, i[t] is felt that some exhibits regarding the “Cloud
on Title” are necessary for inclusion herein, namely, from Hampton’s
Amended List of Exhibits and Witnesses, filed October 15, 2019, to be
introduced at trial:
“43. Communications regarding the need for a “Corrective Affidavit”
as follows:
e. Owen & Owens letter to Hampton dated December 3, 2015,
together with “Corrective Affidavits” they had prepared, received
27

App. 90

December 7, 2015, after the subject foreclosure sale (Samuel L White
PC had already approved the same in November 2015Q]; ...
g. Hampton’s letter to Owen & Owens, as well as Fidelity, dated
August 15, 2019, as to update on cases and possible need for their
testimony (sent via e-mail), but to date no response received, thus
forthcoming subpoena.”
The bolded exhibits shown above are included herein (as Exhibits 43-E &
43-G) to demonstrate to the court that, in fact, SIW, not only approved the
“Corrective Affidavits,” but also copied the description in their prepared
Deed of Foreclosure (DOF), which was to state verbatim the description on
the Deed of Trust (DOT), and did not; and this court should have viewed the
same as a facially “material defect” to the DOF, which is still incorrect.
Hampton notes here that the DOF, as well as the Assignment of the DOT, were
filed electronically but were to be filed as Original wet-ink copies per Virginia’s
Recording Land Records Requirement and Standards. Also the description of the
Property in this DOF is still incorrect and makes reference to wrong pages in deed
books, and still requires a “Corrective Affidavit” approved by Hampton - yet to be
filed - on “all the deeds on record.”
Hampton continues with her arguments preserved in her Objections to the
Final Order on Summary Judgment with the following:
In light of all of the above, and as supported by Hampton’s Motions
for Reconsideration, Supporting Memorandum of Law and, still further,
Motions for Rehearing ... Mistrial and more particularly, as spelled out to
the court (as Hampton would have to a jury) in her Motions for Rehearing ...
Mistrial Supporting Memorandum of Law, all the violations listed therein,
Hampton submits her arguments and objections to the Final Order and/or
rulings in this case.
Hampton sincerely believes that the Supreme Court of Virginia on
Appeal could find that not only does Parrish apply to this particular case,
but as its opinion therein stated:
28

App. 91

“a plaintiff in the second class of cases, who claims a right of possession
acquired after the defendant’s original, lawful entry, must show the validity
of that right. When the plaintiffs after-acquired right of possession is based
on a claim of title, the plaintiff may be required to establish the validity of
that title. Corbett v. Nutt. 59 Va. (18 Gratt.) 624, 648 (1868). [Where the
right of possession depends solely upon a claim of title, the question of
whether that title is valid is a threshold question in an unlawful detainer
action. While a court’s resolution of that question in an unlawful detainer
action may not, by statute, be preclusive in actions for ejectment or to quiet
title, the court trying the unlawful detainer action nevertheless must weigh
the parties’ competing arguments about validity to determine whether a
plaintiffs prima facie right of possession evidenced by a trustee’s deed has
been rebutted by the defendant.] Actions for unlawful detainer in the
foreclosure context generally fall into this category. [... In the specific
context of a foreclosure, the foreclosure purchaser plaintiff comes to court
claiming a right of possession based on a claim of legal title, itself based on
the trustee’s deed by which the trustee has ostensibly conveyed to the
foreclosure purchaser the legal title conveyed in the deed of trust to the
trustee by the defending homeowner. Meanwhile, the defending homeowner
has possession, which the foreclosure purchaser plaintiff seeks to oust. The
question of which of the two parties is entitled to possession is inextricably
intertwined with the validity of the foreclosure purchaser’s title.”]
Here in Hampton’s Supporting Memorandum of Law, she has spelled out
what she would have to a panel of jurists, as well as the court, the violations
to the DOT incorporated as a condition precedent to foreclosure and the
regulations that barred that foreclosure. Further, as found in Parrish:
“We may further infer from their allegations that the foreclosure purchaser,
Fannie Mae, was aware of the alleged violation of the deed of trust because
it was the lender that allegedly committed the violation. We conclude that
these allegations are sufficient that, if proved, they could satisfy a court of
equity to set aside the foreclosure.
We therefore hold that the Parrishes raised a bona fide question of title in the
unlawful detainer proceeding, thereby divesting the general district court of
subject matter jurisdiction. Accordingly, the general district court lacked
subject matter jurisdiction to try the unlawful detainer before it. The circuit
court likewise lacked subject matter jurisdiction while exercising its de novo
appellate jurisdiction, because its subject matter jurisdiction was derived
29

App. 92

from and limited to the subject matter jurisdiction of the court from which
the appeal was taken. Its authority therefore was limited to dismissing the
proceeding without prejudice, thereby enabling the foreclosure
purchaser to pursue its choice of available remedies in the circuit court
under that court’s original jurisdiction.” (bold emphasis added)
Hampton did not believe that she had to spell out ALL the violations to the
DOT and regulations/statutes precedent to foreclosure and, where argued
previously in her Motion to Dismiss, she did specify the violations to the
DOT itself which should have been found as void ab initio. Further she
pointed out that the subsequent Assignment of the DOT was a nullity as
found in:
“Carpenter v. Longan 16 Wall. 271, 83 U.S. 271,274, 21 L.Ed. 313 (1872),
the US. Supreme Court stated “The note and mortgage are inseparable; the
former as essential, the latter as an incident. An assignment of the note
carries the mortgage with it, while assignment of the latter alone is a
nullity
Thus, Hampton’s claim to no one having a right to foreclose. Also at oral
argument, Hampton stated further: “This should be sufficient evidence, all
previously submitted and pled, but NEVER previously “actually” tried, but
if not I have more that I could present.” [tr. 10-4-19, p.6,11.16-18, added] It
was believed, in light of Parrish, Hampton had raised a bona fide dispute of
title, including its validity.
The Parrishes alleged that the foreclosure was invalid due to
violations of 12 CFR § 1024.41(g) - HAMP modification submittal 37 days
before foreclosure - just one of the violations listed in Hampton’s
Supporting Memorandum of Law. But as can be seen in all the pleadings,
Hampton sought to invalidate the Trustee’s Deed, the Assignment of the
DOT to PROF, the Substitution of Trustee from Fay/PROF to SIW, the 1st
Assignment of the DOT from MERS to BANA, and the DOT itself ... and
of course to set aside the wrongful foreclosure and prove to this court that no
one had the right to possession or the right to the remedy to foreclose.
Further to Parrish, Justice Powell concurring in part and dissenting in part:
“As the majority’s ruling is unsupported by this Court’s jurisprudence, leads
to an unnecessary expansion of the concept of trying title and impedes the
ability of home owners to protect the possession of their homes, I must
respectfully dissent.”
30

App. 93

“Moreover, I am particularly concerned with what appears to be an
imbalance in the majority’s approach. Under the majority’s approach, a
plaintiffs allegation of a valid trustee’s deed is sufficient to conclusively
establish its right of possession. However, a defendant cannot merely present
evidence to rebut the validity or bona fides of that deed in general district
court. Rather, ... a defendant must do significantly more than just deny the
validity of the trustee’s deed. A defendant must assert a bona fide question
of title ‘sufficient to survive a demurrer had the defendant filed a complaint
in circuit court seeking [to set aside foreclosure.]’ In other words, a
defendant must plead sufficient facts to meet a different standard for a
different cause of action that can only be raised in a different court. [Further
demonstrating the seeming imbalance of the majority’s approach, the
majority seeks to foreclose any collateral attacks on previous unlawful
detainer actions where defendants raised a question concerning title. In
holding that these decisions are merely voidable, the majority presumes that
the general district court’s decision was based on a finding that the
defendant had not raised a bona fide question of title. Rarely will we have
any way of knowing the basis for the general district court’s ruling. Indeed,
it is not beyond the realm of possibility that the defendant raised a bona fide
question of title but lost because the general district court made a ruling on
the merits, notwithstanding the fact that it had no jurisdiction to do so. The
only way to determine the basis for the general district court’s ruling is to
reopen the case and allow a collateral attack.] Even by successfully raising
the requisite bona fide question of title, the defendant cannot have the matter
resolved in general district court. Instead, the defendant can only cause the
matter to be removed from the general district court to be heard in the circuit
court. ... If a defendant has raised sufficient allegations to allow a general
district court to rule in that defendant’s favor, that court loses jurisdiction
over the matter, but if the defendant fails to raise sufficient allegations, the
court retains jurisdiction. Stated differently, the majority has crafted an
approach that prevents a general district court from ruling on the merits in
favor of a defendant.
Thus it is clear to me that the general district court had subject matter
jurisdiction to hear the present case regardless of the defense raised by the
Parrishes. As a result, I would also find that the circuit court properly
exercised its derivative jurisdiction. Therefore, it is necessary to address the
circuit court’s decision to grant Fannie Mae summary judgment. In my
opinion, the circuit court erred in granting summary judgment. Notably, by
31

App. 94

raising a bona fide question of title, the Parrishes have presented a disputed
issue of material fact. Furthermore, our case law establishes that Fannie Mae
was not entitled to judgment as a matter of law on this issue. Indeed, under
the court’s jurisprudence, the exact opposite is true.”
“The general rule concerning the position of a trustee under a deed of
trust is that the trustee is a fiduciary for both debtor and creditor and
must act impartially between them. Implicit in this rule is the
proposition that a trustee must refrain from placing himself in a
position where his personal interest conflicts with the interests of
those for whom he acts as fiduciary.”
“Generally, a trustee cannot be both a seller and a buyer at his own
auction sale, because the two roles are incompatible. When a trustee
buys at his own sale, a constructive fraud exists; the transaction is
voidable; and when attacked, the sale must be set aside. In such a
situation, the adequacy of consideration, fairness of the sale, and good
motive of the trustee in purchasing are not controlling. A prime reason
for making such a sale voidable is the necessity of upholding the
fiduciary relationship between the trustee and those for whom he acts.
Whitlow v. Mountain Trust Bank, 215 Va. 149, 152, 207 S.E.2d 837, 840
(1974) (citations omitted) (emphasis added).
In the present case, Atlantic Law Group, LLC (‘ALG’), the trustee, was also
the agent of the purchaser, Fannie Mae. Notably, ALG was not only the
trustee, but it also represented Fannie Mae in the general district court and
circuit court throughout the underlying litigation. Thus, the record clearly
demonstrates that Fannie Mae was both the buyer and, through its agent,
seller at the foreclosure auction. As Whitlow requires that the foreclosure
sale be set aside, the trial court had no legal basis for granting the summary
judgment.”
Here, in Hampton’s case, we have an identical situation, where the record
clearly demonstrates that PROF (or the investor Fannie Mae) was both the
buyer and, through its agent SIW, seller at the foreclosure auction and thus
requires the foreclosure sale be set aside, and the trial court had no legal
basis for granting the summaiy judgment.

32

App. 95

Under Rule 3:20 Summary Judgment. ... Summary Judgment shall not
be entered if any material fact is genuinely in dispute.
This court should take note of the above particularly as the
circumstances also exist in Hampton’s case and as noted in Hampton’s
Supporting Memorandum of Law beginning page 6 as to SIW and PROF
(notably actually Fannie Mae) and the violations to the DOT and the manner
in which the foreclosure was conducted ... where they were not permitted to
the remedy of foreclosure.
Still further at page 6, 3) (a) Further to Matthews v. PHHMortg. Corp
(2012), this court should take notice of the more recent case decision before
all the justices in Meade v. BANA, Record No. 180244, November 29, 2018,
remanded and thereafter settled (conditions unknown by this pro se litigant),
wherein:
“As in Matthews, Squire, and Ramos, Meade asserts that these provisions
incorporate 24 CFR Sec 203.604(b), which provides that ‘ [t]he mortgagee
must have a face-to-face interview with the mortgagor, or make a reasonable
effort to arrange such a meeting, before three full monthly installments due
on the mortgage are unpaid.’ Her complaint alleges that ‘[n]o creditor ever
gained the right to accelerate or foreclose on the home for reasons including
but not limited to the fact that no creditor ever complied with’ the regulation,
‘no lender was entitled to foreclose on the home and [Equity] was not
empowered to foreclose,’ and ‘no lender or any creditor entity ever complied
with the requirements of the DOT.”
It can be seen from Hampton’s Loss Mitigation Specialist’s Cease &
Desist letter of December 3, 2015 (previously attached as [H.E.24 and
H.A.G], with attachments, to Hampton’s Supporting Memorandum ofLaw),
that this was a noted violation to the DOT, which should have precluded
SIW from proceeding with foreclosure. Clearly, SIW never acted as an
unbiased fiduciary and has violated his own duties as such since dealings
with SIW began in mid-August 2015. (See further pages 6 - 12 for all the
found violations thus far.)
Since Hampton, as a pro se litigant, has found no case in the Virginia
courts that has all the torts that Hampton’s case carries, she wishes to draw
this court’s attention to a case with several of those torts quite matching in
nature - that is, from the Supreme Court of Montana, in Jacobson v Bayview
Loan Servicing & Charles J. Peterson, Trustee, 371 P.3d 397, 383 Mont.
33

App. 96

257 (2016), where their County court recognized the violations to Fair Debt
Collection Practices Act and the Supreme Court found that:
“Bayview repeatedly violated the FDCPA ... violated the contractual
requirements of the Trust Indenture ... and Bayview’s unfair and deceptive
practices against the Jacobsons cannot be tolerated as they are clear
violations of the FDCPA. We conclude that the district court made detailed
and accurate conclusions of law under the FDCPA and accordingly, we
affirm its decision with respect to the FDCPA claims.”
As to damages, in that case:
“[t]he court may, in its discretion, award up to 3 times the actual damages
sustained and may provide any other equitable relief that it considers
necessary or proper. ... without imposing any particular criteria, to grant an
award of treble damages if it finds that such an increase will further the
purpose of the CPA [Consumer Protection Agency]. ... Specifically the
district court awarded $172,615 of actual damages and $50,000 of additional
damages ‘for emotional distress suffered by the Jacobsons together with the
deception, stonewalling, and utter disregard for their contractual and
statutory rights that the Jacobsons have been forced to endure as a result of
[Bayview’s] conduct. The court also assessed statutory damages of $1,000
for each of the Jacobsons under 15 USC Sec. 1692k(a)(2). ... and still
further awarded money damages, emotional distress damages, statutory
damages, and additional damages for Bayview’s post-trial actions.” ... “We
find further support for this conclusion in Wigod v. Wells Fargo Bank, 673
F.3d 54 (7th Cir. 2012). The U.S. 7th Circuit Court of Appeals determined
that Wigod alleged recoverable pecuniary loss under the Illinois Consumer
Protection Act as a result of unfair HAMP procedures by Wells Fargo.
Wigod, 673 F3d at 575. The Court found Wigod’s allegations that “she
incurred costs and fees, lost other opportunities to save her home, suffered a
negative impact to her credit, never received a Modification Agreement, and
lost her ability to receive incentive payments during the 1st five yrs of the
modification” were sufficient to establish pecuniary loss. Wigod, 673 F3d at
575. The Jacobsons have suffered a pecuniary loss similar to that suffered by
Wigod and accordingly, we conclude that the damages suffered by the
Jacobsons are a financial detriment and the losses are properly considered
actual damages by the district court.”
This Montana case has been the closest that Hampton, as a pro se litigant,
could find to her own (submitted to SCOTUS’ attention too) and Bayview,
34

App. 97

like Fay Servicing acting on behalf of the trust PROF by US Bank NA as
Trustee (or Fannie Mae as they still claim ownership), and further Peterson,
Trustee, like SIW Trustee, and where clearly both violated those FDCPA
statutes laid out in Hampton’s Supporting Memorandum of Law. Also,
Hampton, under Wigod, has been waiting over ten years for her HAMP
Modification, retro to July 29, 2009, as mandated by the Independent
Foreclosure Review Remediation Framework and “Consent Orders” with
both US Bank on behalf of its Trusts, as well as BANA.
Further to Hampton’s Petitition to SCOTUS, quoting Hornsby v.
Allen, 326 F.2d 605:
“The role of the courts is to ascertain the manner in which this determination
was or is made accords with constitutional standards of due process and
equal protection.” And “It follows that the trial court must entertain the suit
and determine the truth of the allegations.”
The integrity of the rule of law is at stake, as the most basic of our due
process rights are involved. Hampton also believes this case of precedential value.
The Unlawful Detainer Statutes offer no protections of the law and violate
citizens’ Constitutional Rights to due process in defending their Property from
“unlawful takings.” This court can begin the process to change what needs to be.
CONCLUSION
Appellant respectfully requests this court find that the Circuit Court erred in
granting summary judgment, and find that Appellant was deprived of her
Constitutional Rights to a “fair” trial by jury, where “reasonable minds would have
come to but one conclusion when viewing the evidence,” and thus to grant this
Appeal. Appellant should not have to continue to defend her property from the
“Unlawful Taking” by PROF, in clear violation of her Constitutional Rights.
35

App. 98

Respectfully submitted,

Kathleen C. Hampton, prjfse
CERTIFICATE
The undersigned Appellant, Kathleen C. Hampton, in accordance with
VSCR 5:17(i), makes the following certification:
1.

Names of parties and full contact information for counsel:

Appellant (Defendant below): Kathleen C. Hampton
Pro se
Kathleen C. Hampton, pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042
khampton47@yahoo.com (limited access)
Appellee (Plaintiff below):

PROF-2013-S3 LEGAL TITLE TRUST, by
U.S. BANK NATIONAL ASSOCIATION,
as Legal Title Trustee
Counselfor Plaintiff
Ronald J. Guillot, Jr., Esquire (VSB No. 72153)
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
(757) 217-9304 (Telephone)
(757) 337-2814 (Facsimile)
rguillot@siwpc.com

36

App. 99

2.

I further certify that a copy of the Petition for Appeal was mailed USPS to

the above-named counsel for Appellee, at their office address listed, on this 8th day
of September, 2020.
3.

I further request the opportunity to state orally, in person, to a panel of the

Justices of the Supreme Court, the reasons why this Petition for Appeal should be
granted. I understand that should I-choose to file a Reply Brief in Opposition that
will serve as a waiver of the right to such oral argument.

'

7

75^

Kathleen C. Hampton, pro se

37

App. 100

IN THE SUPREME COURT OF VIRGINIA
KATHLEEN C. HAMPTON

)
)

Appellant / Defendant, pro se

)
)

v.

)

Record No. 201103

)
)
PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION, )
AS LEGAL TITLE TRUSTEE,
)
)

Appellee / Plaintiff.

)

RESPONSE TO MOTION TO DISMISS
PETITION FOR APPEAL
COMES NOW Appellant, Kathleen C. Hampton (“Appellant” or
“Hampton”), pro se, and responds to the Motion to Dismiss filed by PROF-2013S3 Legal Title Trust, by U.S. Bank, National Association, as Legal Title Trustee
(“Appellee” or “PROF”), by counsel, and, as respectfully requested on Petition for
Appeal, further requests this response be reviewed together with the companion
response to Motion to Dismiss on counter suit (Record No. 201105), heard together
below, and again requested to be heard together herein.
Under Rule 5:17(c)(l), Hampton did “list, clearly and concisely and without
extraneous argument, the specific errors in the rulings below ...” and did so on
pages iii, 1 and 23 and under a separate heading entitled “Assignment of Error.”

l

App.101

Under Rule 5:l(c)(l)(iii), Hampton did “address the findings, rulings, or
failures to rule on issues in the trial court or other tribunal from which an appeal is
taken” and Hampton did not “merely state the judgment or award is contrary to law
and the evidence,” as can be seen beginning pages 23 through 35 of her Authorities
and Argument, all of which specifically address the findings, rulings, or failures to
rule on issues, and where the lower court ignored the preponderance of evidence as
can be seen in the “Statement of the Facts” on pages 6 through 22.
Under Rule 5(c)(l)(iv), Effect of Failure to Use Separate Heading or Include
Preservation Reference, “If there is a deficiency in the reference to the page(s) of
the ... record where the alleged error has been preserved ... including, with respect
to error assigned to failure of such tribunal to rule on an issue ... where the issue
was preserved in such tribunal, specifying the opportunity that was provided to the
tribunal to rule on the issue(s), a rule to show cause will issue pursuant to Rule
5:1A.” Accordingly, Hampton believes there is no real deficiency as can be
determined from the contents of pages 6 through 35 of her Petition for Appeal,
where Hampton clearly quotes from most of that record, as filed prior to any Final
Orders, and as preserved therein. It is not believed that this Supreme Court will
find a need for rule to show cause required under Rule 5:1 A, but if this court so
determines, the same will issue and there need not be a dismissal of these cases.
Clearly, PROF does not want this case to be heard, thus its Motion to Dismiss.
2

App.102

As presented in Hampton’s Petition for Appeal, the Assignment of Error was
presented to this court without extraneous argument, but pointing directly to the
court’s ruling on granting summary judgment, preserved in the transcript, and
stated as follows:
ASSIGNMENT OF ERROR
Whether the Circuit Court erred in granting Summary Judgment on Unlawful
Detainer (Order of February 7, 2020, excerpt tr. 10-18-19, p.13, 11. 17-22 - p.14,
1.1), denying Appellant’s Constitutional Rights to a Trial by Jury and whether the
Unlawful Detainer Statutes violate Citizens’ Constitutional Rights to Due Process.
Apparently, PROF takes issue with the terminology used, which if this court
needs clarification, can be reworded as follows:
ASSIGNMENT OF ERROR
The Circuit Court erred in granting Summary Judgment on Unlawful Detainer
0Order of February 7, 2020, excerpt tr. 10-18-19, p.13,11. 17-22 - p.14,1.1), which
in turn denied Appellant’s Constitutional Rights to a Trial by Jury and, thus, it
appears that the Unlawful Detainer Statutes violate Citizens’ Constitutional Rights
to Due Process.
There really should be no issue with the wording as Hampton posed her
errors as queries, because she felt the query would avoid her looking as if she was
drawing “a conclusion of law,” which is what the lower court and PROF, by
counsel, had accused her of doing before. More importantly, it is up to this
Supreme Court to decide or determine whether Hampton’s Petition is or isn’t
sufficient; and given all the torts to this case, it is hoped that some clarification to
3

App. 103

those torts and the significant precedential value, as well as substantial
constitutional questions as to these issues, should be determined as pled for in
Hampton’s Petition. A Motion to Dismiss would not obtain that goal, nor would it
be in the “interest of justice.”
PROF’s arguments in their Motion to Dismiss are unwarranted, as Hampton
has clearly presented the facts and arguments and prayers and one needs only to
read the Petition, in full, and the record, which they should be very familiar with
by now, particularly since arguments in the Petition were quoted from the record
and preserved therein as noted.
It would appear that counsel has neglected to read the full Petition and
record, so they could consider and address the alleged error. However, PROF has
filed their Brief in Opposition, which continues to deceive the court stating such
things as “Hampton does not contest her default in payment” and “these material
uncontested facts demonstrate PROF has a superior right to possession against
Hampton,” where these are the very facts and issues contested as seen in
Hampton’s Statement of Facts, and preserved in the evidence below, and, thus,
further demonstrates that the Petition and the record has not been fully read.
Further to the Assignment of Error, Hampton was denied her Trial by Jury
and from the ruling below, it also appears the Unlawful Detainer Statutes violate
citizens’ Constitutional Rights to due process in defending their Property from
4

App. 104

“unlawful takings.” Hampton requested the court to address these matters and to
change what needs to be.
WHEREFORE, Appellant respectfully requests that this Court dismiss
PROF’s Motion to Dismiss.
Respectfully submitted,

Kathleen C. Hampton, pr(fse
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042
khampton47@yahoo.com (limited access)
CERTIFICATE OF SERVICE
I further certify that a copy of this foregoing Response to Motion to Dismiss
Petition for Appeal was mailed USPS to counsel for Appellee, at their office
address listed below, on this 10th day of October, 2020.
E. Edward Farnsworth, Jr., Esq.
Ronald J. Guillot, Jr., Esq.
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452

Kathleen C. Hampton, pro se

5

App. 105

In the Circuit Court of
Loudoun County Virginia

App.106

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

)

)
)
)
)
)
>

v.

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim
)

KATHLEEN C. HAMPTON
Appellant, prose
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

APPELLANT’S OBJECTIONS TO THE FINAL ORDER
ON SUMMARY JUDGMENT IN THE UNLAWFUL DETAINER ACTION
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Appellant” or “Hampton”), to submit her Objections to the Final Order on Summary Judgment
in the Unlawful Detainer Action as ruled on February 7, 2020, and as memorialized in the
Transcript of Hearing Excerpt from October 18, 2019, in Judge Sincavage’s Final Order.
First, Hampton had filed Motions for Reconsideration (denied by Judge Sincavage), as
well as Motions for Rehearing or in the Alternative Motions for a Mistrial and Supporting
Memorandum of Law, deemed to be further Motions for Reconsideration, also denied at the
February 7, 2020, hearing on Final Order. Those motions and exhibits thereto, now on record,
presented evidence as to the wrongdoing that PROF, Fay Servicing and Samuel I. White, P.C.
have imposed upon Hampton. The following objections and/or arguments are being preserved
herein as they will be presented to the Supreme Court of Virginia on a still further appeal.
1

App.107

Addressing the issue of summary judgment, the following is an excerpt from Judge
Sincavage’s ruling on December 6, 2019, on the Motion to Release Bond:
“Hampton filed Motion to Reconsider and 1 have not reviewed yet. ... First on
ruling, I don’t believe I affirmed. Affirming has a couple meanings that apply. If
someone was to withdraw their appeal, then the General District Court ruling is affirmed.
There was no withdrawal in this case. Nor was this a review of General District Court
whether they made proper rulings or proper findings. This was a trial de novo”
[Hampton notes here: de novo review: when court decides without deference to a
previous court's decision. Court decides all issues, as if case being heardforfirst time.]
(bold added for emphasis here)
“... So the court was starting from the beginning - not looking at what the District
Court did and seeing if there was any error. What the court in fact do was adjudicate
these matters de novo from the start and the court did so by granting summary
judgment on unlawful detainer and dismissing on demurrer the counterclaim. So
the court doesn’t feel that there’s an affirmation of the General District Court’s ruling in
their ruling and the result of both ruling would cause somebody to say that, but I think it
has a special significant meaning and I just want to be clear, that is what we are talking
about. ... Until I get a final order, the court has not really spoken as to what its
adjudication or rulings in this matter.” (bold added for emphasis here)
As can be seen in Judge Sincavage’s Final Order, as memorialized by the Transcript
Excerpt of October 18, 2019, what Judge Sincavage stated therein was that on “the issue on
summary judgment” [p.6,1.15] ... “are there any genuine disputes of material facts.” [p.6,11.1718] ... “the most important words for this analysis is material facts.” [p.6, 11.20-22] Judge
Sincavage then turns to the court’s jurisdiction: “on these matters is derivative of the general
court’s jurisdiction which per [Parrish] clearly doesn’t include the ability, the jurisdiction, the
power, the authority to try issues of title.” [p.7,11.8-12]
Further, Judge Sincavage “has ruled on that and the court did decline to dismiss the
claim” [p.7,1.22 - p.8,11.1] ... “that Ms. Hampton’s claim of - that title was invalid was not a
bona fide claim under the law. Obviously Ms. Hampton disagrees with the court’s decision to

2

App.108

deny the motion to dismiss.” [p.8, 11.3-6] ... “so the materiality of the dispute must be seen in
light of unlawful detainer action and unlawful detainer action only.” [p.8} 1.22 -p.9, 11.1-2]
The court proceeds with the Deed ofForeclosure and Notice to Vacate being admitted to
as true, but where Hampton’s Admissions only admit to being a “true” copy as to what SIW filed
in the court, but noted as NOT “accurate,” which the court fails to address or notice. It would
appear that anything that an attorney files is taken as truth and cannot be questioned if filed and
recorded with the courts.
Judge Sincavage stated further: “Those matters being admitted, in the court’s view leave
no material issue in genuine dispute because they conclusively demonstrate as a matter of law
that Prof is entitled to possession of the subject property under the unlawful detainer
statute.”[plO, 11.13-18]
There were no Admissions on Hampton’s part that would allow Summary Judgment. And
restating from Hampton’s first Motion for Reconsideration:
“Yes, Hampton takes issue with this where clearly she has provided sufficient
evidence in her exhibits, as well as in Admissions to Discovery Requests from both sides,
for this court to determine that the documents of Deed of Foreclosure, as well as the
Assignment of the Deed of Trust, which it is based upon, are materially defective. It
appears from the transcript that the court has based its decision on what was presented at
hearing only, and has ignored the evidence in the exhibits and Admissions. What does it
take to prove that there is a material dispute or a defective Deed, or what does it take to
survive a Demurrer where clearly the evidence shows that before a trial by jury,
Hampton would have prevailed with a preponderance of the evidence. There is no justice
in dismissing on Demurrer, where the evidence can prove otherwise. It is PROF who
fears this outcome, because surely they would not survive a trial by jury. And according
to their Admissions, have challenged Hampton on the same. But if you look more clearly,
they wish to prevent all evidence, including witnesses, as they have objected to the same.
Again, Hampton considers this to be an “obstruction ofjustice.” And this court has failed
Hampton on her rights to defend her property from the “unlawful taking” of the same
against her Constitutional Rights to Due Process, and this court has failed in protecting
Hampton from the same.

3

App.109

Although Hampton, prior to receiving the e-mail with a copy of the transcript
attached, had filed her Motions for Reconsideration, based on her recollection at the
hearing, Hampton believes those motions and reconsiderations should be considered
herein, together with their attachments thereto.
It is clear from the transcript that the court did not review all documentation on
file, where particularly in Hampton’s Response to Summary Judgment and Demurrer,
Hampton was specific in her “submitted” Admissions to PROF’s Discovery Requests
that the documents on file were, in fact, defective and those material facts were in dispute
and, thus, PROF was not entitled to judgment as a matter of law. It appears that
Hampton’s filed Response and her “submitted” attachments thereto, which also included
the Admissions of PROF to Discovery Requests, which read more on denials, together
with Hampton’s exhibits, were not considered by the court. Clearly, the Admissions and
Exhibits demonstrated that there were defects to those documents, as well as to the
procedure leading up to and including those documents with regard to possession. And
Hampton knows that she would have prevailed at a trial by jury.”
Continuing with Judge Sincavage’s rulings, where he stated “The demonstration of the
deed of foreclosure which has not been found to be invalid, for the reasons that have been
stated previously such an attack isn’t cognizable in this litigation” [p.10,1.19 - p.ll, 1.1] And in
his final ruling on this issue, Judge Sincavage states “that the deed of foreclosure and its
provisions stands as valid as does the notice to vacate, and as a matter of law I find that plaintiff
is entitled to possession, so the court grants the plaintiffs motion for summary judgment and
grants possession of the subject property to the plaintiff.” [p.13, 11.17-22 - p.14, 1.1] [bold
emphasis added]
Thus, it appears to Hampton that the Circuit Court is stating here that on appeal from the
General District Court on an unlawful detainer, this court can only rule on an unlawful detainer
based on the unlawful detainer statute, that being the same as in the General District Court. If
this is the case, what would be the purpose of an appeal to the Circuit Court, if it was limited to
what the General District Court can rule on? And why would a Trial by Jury be granted on a de
novo appeal, if you cannot consider anything more than the unlawful detainer statute? Hampton

4

App. 110

was lead to believe that by appealing an Unlawful Detainer suit from a General District Court,
which is not a court of record, she would be entitled to a de novo trial of record, and her
Constitutional Right to a Trial by Jury, where the jury would determine the outcome and not the
bench. How could this court’s decision be considered “fair,” particularly, where Hampton was
further imposed with not only the $8,000 Bond to appeal, but the cost of filing appeals fees; the
costs involved in pleadings; the costs involving expert witnesses, where a trial by jury was not
permitted; the time spent in researching and writing; the burden of trying to prove these
injustices, where she was not permitted to do so; and leaving Hampton still with the burden of
carrying on this appeal?
Before addressing further Hampton’s arguments to be presented on further appeal to the
Supreme Court of Virginia, Hampton quotes from her Motion to Dismiss filed September 18,
2019, page 2, paragraph 2:
“Second, this is also a combined suit where Hampton filed Counterclaims based
on the “wrongful” foreclosure sale, an alleged “forged” Note, a material breach to the
Deed of Trust (DOT) thus Void Ab Initio, an invalid 404 Notice, improper notices to
foreclosure, breaches to the DOT as not all conditions precedent met, improper
assignment to Substitution of Trustee, wrong party proceeding, a known “Cloud on
Title,” in addition to filing suit challenging the foreclosure prior to the foreclosure, and a
multitude of other torts, including the validity of all Deeds, Assignments (including
challenging the initial Assignment signed by MERS), and all such other records on file.”
(bold emphasis added)
Although most exhibits have been entered into this case in one or more pleadings or admissions,
if is felt that some exhibits regarding the “Cloud on Title” are necessary for inclusion herein,
namely, from Hampton’s Amended List of Exhibits and Witnesses, filed October 15, 2019, to be
introduced at trial:
“43. Communications regarding the need for a “Corrective Affidavit” as follows:
a. Fidelity National Title Insurance Co. (Fidelity) to Hampton, dated May 28,
2015, re status of claim filed;
5

App.Ill

b. E-mail communication between Fidelity and Hampton, dated May 28, 2015, re
appointing Owen & Owens, PLC to fix legal description error;
c. Fidelity’s letter dated October 29, 2015, explaining their obligations, etc. with
regard to Hampton’s claim;
d. Hampton’s response to Fidelity to above, dated November 19, 2015;
e. Owen & Owens letter to Hampton dated December 3, 2015, together with
“Corrective Affidavits” they had prepared, received December 7, 2015, after the
subject foreclosure sale (Samuel I. White PC had already approved the same in
November 2015[)];
f. Fidelity’s letter to Hampton, dated December 9, 2015, re finalizing its curative
matters, but where Hampton’s approval had not been provided and had 30 days to
approve or object, which Hampton did object to as still incorrect via letter December 29,
2015, to Owen & Owens and Fidelity (also sent via e-mail); and
g. Hampton’s letter to Owen & Owens, as well as Fidelity, dated August 15,
2019, as to update on cases and possible need for their testimony (sent via e-mail),
but to date no response received, thus forthcoming subpoena.”
The bolded exhibits shown above are included herein (as Exhibits 43-E & 43-G) to demonstrate
to the court that, in fact, SIW, not only approved the “Corrective Affdavits,” but also copied the
description in their prepared Deed of Foreclosure (DOF), which was to state verbatim the
description on the Deed of Trust (DOT), and did not; and this court should have viewed the same
as a facially “material defect” to the DOF, which is still incorrect.
In light of all of the above, and as supported by Hampton’s Motions for Reconsideration,
Supporting Memorandum ofLaw and, still further, Motions for Rehearing ... Mistrial and more
particularly, as spelled out to the court (as Hampton would have to a jury) in her Motions for
Rehearing ... Mistrial Supporting Memorandum of Law, all the violations listed therein,
Hampton submits her arguments and objections to the Final Order and/or rulings in this case.
Hampton sincerely believes that the Supreme Court of Virginia on Appeal could find that
not only does Parrish apply to this particular case, but as its opinion therein stated:
“a plaintiff in the second class of cases, who claims a right of possession acquired after
the defendant’s original, lawful entry, must show the validity of that right. When the
plaintiffs after-acquired right of possession is based on a claim of title, the plaintiff may
6

App.112

be required to establish the validity of that title. Corbett v. Nutt. 59 Va. (18 Gratt) 624,
648 (1868). [Where the right of possession depends solely upon a claim of title, the
question of whether that title is valid is a threshold question in an unlawful detainer
action. While a court’s resolution of that question in an unlawful detainer action may not,
by statute, be preclusive in actions for ejectment or to quiet title, the court trying the
unlawful detainer action nevertheless must weigh the parties’ competing arguments about
validity to determine whether a plaintiff’s prima facie right of possession evidenced by a
trustee’s deed has been rebutted by the defendant.] Actions for unlawful detainer in the
foreclosure context generally fall into this category. [... In the specific context of a
foreclosure, the foreclosure purchaser plaintiff comes to court claiming a right of
possession based on a claim of legal title, itself based on the trustee’s deed by which the
trustee has ostensibly conveyed to the foreclosure purchaser the legal title conveyed in
the deed of trust to the trustee by the defending homeowner. Meanwhile, the defending
homeowner has possession, which the foreclosure purchaser plaintiff seeks to oust. The
question of which of the two parties is entitled to possession is inextricably intertwined
with the validity of the foreclosure purchaser’s title.”]
Here in Hampton’s Supporting Memorandum ofLaw, she has spelled out what she would have to
a panel of jurists, as well as the court, the violations to the DOT incorporated as a condition
precedent to foreclosure and the regulations that barred that foreclosure. Further, as found in
Parrish'.
“We may further infer from their allegations that the foreclosure purchaser, Fannie Mae,
was aware of the alleged violation of the deed of trust because it was the lender that
allegedly committed the violation. We conclude that these allegations are sufficient that,
if proved, they could satisfy a court of equity to set aside the foreclosure.
We therefore hold that the Parrishes raised a bona fide question of title in the unlawful
detainer proceeding, thereby divesting the general district court of subject matter
jurisdiction. Accordingly, the general district court lacked subject matter jurisdiction to
try the unlawful detainer before it. The circuit court likewise lacked subject matter
jurisdiction while exercising its de novo appellate jurisdiction, because its subject matter
jurisdiction was derived from and limited to the subject matter jurisdiction of the court
from which the appeal was taken. Its authority therefore was limited to dismissing the
proceeding without prejudice, thereby enabling the foreclosure purchaser to pursue
its choice of available remedies in the circuit court under that court’s original
jurisdiction.” (bold emphasis added)

7

App.113

Hampton did not believe that she had to spell out ALL the violations to the DOT and
regulations/statutes precedent to foreclosure and, where argued previously in her Motion to
Dismiss, she did specify the violations to the DOT itself which should have been found as void
ab initio. Further she pointed out that the subsequent Assignment of the DOT was a nullity as
found in:
"Carpenter v. Longan 16 Wall. 271, 83 U.S. 271,274, 21 L.Ed. 313 (1872), the U.S.
Supreme Court stated "The note and mortgage are inseparable; the former as essential,
the latter as an incident. An assignment of the note carries the mortgage with it, while
assignment of the latter alone is a nullity
Thus, Hampton’s claim to no one having a right to foreclose. Also at oral argument, Hampton
stated further: “This should be sufficient evidence, all previously submitted and pled, but
NEVER previously “actually” tried, but if not I have more that I could present.” It was believed,
in light of Parrish, Hampton had raised a bona fide dispute of title, including its validity.
The Parrishes alleged that the foreclosure was invalid due to violations of 12 CFR Sec.
1024.41(g) - HAMP modification submittal 37 days before foreclosure - just one of the
violations listed in Hampton’s Supporting Memorandum of Law. But as can be seen in all the
pleadings, Hampton sought to invalidate the Trustee’s Deed, the Assignment of the DOT to
PROF, the Substitution of Trustee from Fay/PROF to SIW, the 1st Assignment of the DOT from
MERS to BANA, and the DOT itself... and of course to set aside the wrongful foreclosure and
prove to this court that no one had the right to possession or the right to the remedy to foreclose.
Further to Parrish, Justice Powell concurring in part and dissenting in part:
“As the majority’s ruling is unsupported by this Court’s jurisprudence, leads to an
unnecessary expansion of the concept of trying title and impedes the ability of home
owners to protect the possession of their homes, I must respectfully dissent.”
“Moreover, I am particularly concerned with what appears to be an imbalance in the
majority’s approach. Under the majority’s approach, a plaintiff’s allegation of a valid
8

App. 114

trustee’s deed is sufficient to conclusively establish its right of possession. However, a
defendant cannot merely present evidence to rebut the validity or bona fides of that deed
in general district court. Rather, ... a defendant must do significantly more than just deny
the validity of the trustee’s deed. A defendant must assert a bona fide question of title
‘sufficient to survive a demurrer had the defendant filed a complaint in circuit court
seeking [to set aside foreclosure.]’ In other words, a defendant must plead sufficient facts
to meet a different standard for a different cause of action that can only be raised in a
different court. [Further demonstrating the seeming imbalance of the majority’s approach,
the majority seeks to foreclose any collateral attacks on previous unlawful detainer
actions where defendants raised a question concerning title. In holding that these
decisions are merely voidable, the majority presumes that the general district court’s
decision was based on a finding that the defendant had not raised a bona fide question of
title. Rarely will we have any way of knowing the basis for the general district court’s
ruling. Indeed, it is not beyond the realm of possibility that the defendant raised a bona
fide question of title but lost because the general district court made a ruling on the
merits, notwithstanding the fact that it had no jurisdiction to do so. The only way to
determine the basis for the general district court’s ruling is to reopen the case and allow a
collateral attack.] Even by successfully raising the requisite bona fide question of title,
the defendant cannot have the matter resolved in general district court. Instead, the
defendant can only cause the matter to be removed from the general district court to be
heard in the circuit court. ... If a defendant has raised sufficient allegations to allow a
general district court to rule in that defendant’s favor, that court loses jurisdiction over
the matter, but if the defendant fails to raise sufficient allegations, the court retains
jurisdiction. Stated differently, the majority has crafted an approach that prevents a
general district court from ruling on the merits in favor of a defendant.
Thus it is clear to me that the general district court had subject matter jurisdiction to hear
the present case regardless of the defense raised by the Parrishes. As a result, I would also
find that the circuit court properly exercised its derivative jurisdiction. Therefore, it is
necessary to address the circuit court’s decision to grant Fannie Mae summary judgment.
In my opinion, the circuit court erred in granting summary judgment. Notably, by raising
a bona fide question of title, the Parrishes have presented a disputed issue of material
fact. Furthermore, our case law establishes that Fannie Mae was not entitled to judgment
as a matter of law on this issue. Indeed, under the court’s jurisprudence, the exact
opposite is true.”
“The general rule concerning the position of a trustee under a deed of trust is that
the trustee is a fiduciary for both debtor and creditor and must act impartially
between them. Implicit in this rule is the proposition that a trustee must refrain

9

App. 115

from placing himself in a position where his personal interest conflicts with the
interests of those for whom he acts as fiduciary.”
“Generally, a trustee cannot be both a seller and a buyer at his own auction sale,
because the two roles are incompatible. When a trustee buys at his own sale, a
constructive fraud exists; the transaction is voidable; and when attacked, the sale
must be set aside. In such a situation, the adequacy of consideration, fairness of
the sale, and good motive of the trustee in purchasing are not controlling. A prime
reason for making such a sale voidable is the necessity of upholding the fiduciary
relationship between the trustee and those for whom he acts.
Whitlow v. Mountain Trust Bank, 215 Va. 149, 152, 207 S.E.2d 837, 840 (1974)
(citations omitted) (emphasis added).
In the present case, Atlantic Law Group, LLC (‘ALG’), the trustee, was also the agent of
the purchaser, Fannie Mae. Notably, ALG was not only the trustee, but it also represented
Fannie Mae in the general district court and circuit court throughout the underlying
litigation. Thus, the record clearly demonstrates that Fannie Mae was both the buyer and,
through its agent, seller at the foreclosure auction. As Whitlow requires that the
foreclosure sale be set aside, the trial court had no legal basis for granting the summary
judgment.”
Here, in Hampton’s case, we have an identical situation, where the record clearly demonstrates
that PROF (or the investor Fannie Mae) was both the buyer and, through its agent SIW, seller at
the foreclosure auction and thus requires the foreclosure sale be set aside, and the trial court had
no legal basis for granting the summary judgment.
Under Rule 3:20 Summary Judgment. ... Summary Judgment shall not be entered if any
material fact is genuinely in dispute.
This court should take note of the above particularly as the circumstances also exist in
Hampton’s case and as noted in Hampton’s Supporting Memorandum of Law beginning page 6
as to SIW and PROF (notably actually Fannie Mae) and the violations to the DOT and the
manner in which the foreclosure was conducted ... where they were not permitted to the remedy
of foreclosure.
10

App. 116

Still further at page 6, 3) (a) Further to Matthews v. PHH Mortg. Corp (2012), this court
should take notice of the more recent case decision before all the justices in Meade v. BANA,
Record No. 180244, November 29, 2018, remanded and thereafter settled (conditions unknown
by this pro se litigant), wherein:
“As in Matthews, Squire, and Ramos, Meade asserts that these provisions incorporate 24
CFR Sec 203.604(b), which provides that ‘[t]he mortgagee must have a face-to-face
interview with the mortgagor, or make a reasonable effort to arrange such a meeting,
before three full monthly installments due on the mortgage are unpaid.’ Her complaint
alleges that ‘[n]o creditor ever gained the right to accelerate or foreclose on the home for
reasons including but not limited to the fact that no creditor ever complied with’ the
regulation, ‘no lender was entitled to foreclose on the home and [Equity] was not
empowered to foreclose,’ and ‘no lender or any creditor entity ever complied with the
requirements of the DOT.”
It can be seen from Hampton’s Loss Mitigation Specialist’s Cease & Desist letter of
December 3, 2015 (previously attached as Exhibit 24, with attachments, to Hampton’s
Supporting Memorandum ofLaw), that this was a noted violation to the DOT, which should have
precluded SIW from proceeding with foreclosure. Clearly, SIW never acted as an unbiased
fiduciary and has violated his own duties as such since dealings with SIW began in mid-August
2015. (See further pages 6 - 12 for all the found violations thus far.)
Since Hampton, as a pro se litigant, has found no case in the Virginia courts that has all
the torts that Hampton’s case carries, she wishes to draw this court’s attention to a case with
several of those torts quite matching in nature - that is, from the Supreme Court of Montana, in
Jacobson v Bayview Loan Servicing & Charles J. Peterson, Trustee, 371 P.3d 397, 383 Mont.
257 (2016), where their County court recognized the violations to Fair Debt Collection Practices
Act and the Supreme Court found that:
11

App. 117

“Bayview repeatedly violated the FDCPA ... violated the contractual requirements of the
Trust Indenture ... and Bayview’s unfair and deceptive practices against the Jacobsons
cannot be tolerated as they are clear violations of the FDCPA. We conclude that the
district court made detailed and accurate conclusions of law tinder the FDCPA and
accordingly, we affirm its decision with respect to the FDCPA claims.”
As to damages, in that case:
u[t]he court may, in its discretion, award up to 3 times the actual damages sustained and
may provide any other equitable relief that it considers necessary or proper. ... without
imposing any particular criteria, to grant an award of treble damages if it finds that such
an increase will further the purpose of the CPA [Consumer Protection Agency]. ...
Specifically the district court awarded $172,615 of actual damages and $50,000 of
additional damages ‘for emotional distress suffered by the Jacobsons together with the
deception, stonewalling, and utter disregard for their contractual and statutory rights that
the Jacobsons have been forced to endure as a result of [Bayview’s] conduct. The court
also assessed statutory damages of $1,000 for each of the Jacobsons under 15 USC Sec.
1692k(a)(2). ... and still further awarded money damages, emotional distress damages,
statutory damages, and additional damages for Bayview’s post-trial actions.” ... “We find
further support for this conclusion in Wigod v. Wells Fargo Bank, 673 F.3d 54 (7th Cir.
2012). The U.S. 7th Circuit Court of Appeals determined that Wigod alleged recoverable
pecuniary loss under the Illinois Consumer Protection Act as a result of unfair HAMP
procedures by Wells Fargo. Wigod, 673 F3d at 575. The Court found Wigod’s allegations
that “she incurred costs and fees, lost other opportunities to save her home, suffered a
negative impact to her credit, never received a Modification Agreement, and lost her
ability to receive incentive payments during the 1st five yrs of the modification” were
sufficient to establish pecuniary loss. Wigod, 673 F3d at 575. The Jacobsons have
suffered a pecuniary loss similar to that suffered by Wigod and accordingly, we conclude
that the damages suffered by the Jacobsons are a financial detriment and the losses are
properly considered actual damages by the district court.”
This Montana case has been the closest that Hampton, as a pro se litigant, could find to her own
(submitted to SCOTUS’ attention too) and Bayview, like Fay Servicing acting on behalf of the

12

App.118

trust PROF by US Bank NA as Trustee (or Fannie Mae as they still claim ownership), and
further Peterson, Trustee, like SIW Trustee, and where clearly both violated those FDCPA
statutes laid out in Hampton’s Supporting Memorandum of Law. Also, Hampton, under Wigod,
has been waiting over ten years for her HAMP Modification, retro to July 29, 2009, as mandated
by the Independent Foreclosure Review Remediation Framework and “Consent Orders” with
both US Bank on behalf of its Trusts, as well as BANA.
Further to Hampton’s Petitition to SCOTUS, quoting Hornsby v. Allen, 326 F.2d 605:
“The role of the courts is to ascertain the manner in which this determination was or is
made accords with constitutional standards of due process and equal protection.” And “It
follows that the trial court must entertain the suit and determine the truth of the
allegations.”
The integrity of the rule of law is at stake, as the most basic of our due process rights are
involved.
It is Hampton’s prayer and belief that, with these supporting arguments and objections to
the rulings and subsequent Final Order, and further, upon a de novo review by the Supreme
Court of Virginia on Appeal, an outcome will result in “justice being served,” where a “fair”
trial by jury, on its merits, with witnesses and evidence supporting all her claims, might be
held, and it is hoped that the same may set some legal precedence to protect the citizens of this
country from the abuses by the TBTF banks. Hampton should not have to continue to defend her
property from the “Unlawful Taking” by PROF or otherwise, in violation of her Constitutional
Rights; but she will continue to do so, even before SCOTUS, once again, if necessary.
Respectfully submitted,
x

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

13

App. 119

CERTIFICATE OF SERVICE
I hereby certify that on February 21, 2020, a true copy of the foregoing Appellant’s
Objections to the Final Order on Summary Judgment in the Unlawful Detainer Action is being
sent via first class US Mail, postage prepaid to:
Appellee
Plaintiff/Counterclaim Defendant
Ronald J. Guillot, Jr., Esq.
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee

**

/* *

Kathleen C. Hampton, Appellant pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042

14

App.120

STATE OF VIRGINIA
COUNTY OF LOUDOUN

CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Appellant’s Objections to the Final Order on Summary Judgment in the Unlawful
Detainer Action and it is true of my own knowledge, except as to those matters stated on
information or belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct
Date of execution: February 21,2020

s

jh

____________

Kathleen C. Hampton, Agpdllantpro se
SWORN to and subscribed before me, this 21st day of February, 2020.

NOTARY

My Commission Expires:

A nf

J

J
-V /

.72$ : vV

.4

• (■i

r.

15

App. 121

IN THE CIRCUIT COURT OF LOUDOUN COUNTY
5
<S
/-■

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

fm *

)
)
)
)
)
)
)

v.

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

DEFENDANT5 S MOTION FOR REHEARING
OR IN THE ALTERNATIVE MOTION FOR A MISTRIAL
SUPPORTING MEMORANDUM OF LAW
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), to submit further, as reserved, Defendant's Motion for Rehearing
or in the Alternative Motion for a Mistrial Supporting Memorandum of Law on Summary
Judgment and Demurrer judgments at the hearing of October 18, 2019, and states as follows:
Hampton wishes to advise that to date Plaintiff has not “circulated” the transcript nor the
proposed “Final Order,” and, accordingly, this Supporting Memorandum is filed in further
support of Hampton’s Motion for Rehearing ... or Mistrial (deemed by the Honorable Judge
Sincavage to be a still further Motion for Reconsideration, where Hampton’s first Motion for
Reconsideration had been previously denied) and, as previously stated therein,
"... as that transcript clearly demonstrates that the court did not consider the
entire record on appeal, and especially the Bill of Particulars filed by Plaintiff, and
Defendant’s Grounds ofDefense, and instead relied on Defendant’s initial Counterclaims
and Sanctions as filed two years ago, while her case was still active in the courts and still
1

App. 122

/

developing in the General District Court. It should be noted here too that the prior state
case was only recently denied by the U.S. Supreme Court on October 7, 2019, but did not
affirm the lower courts decisions. Thus, it would seem to Hampton that the General
District Court’s decision to award possession on November 14, 2018, was also premature
and again should have been dismissed without prejudice re Parrish.
It is Defendant’s Grounds of Defense which this court should have consulted in
this appeal, and, from the District Court’s decision, it appears that court also failed to
consult the same, particularly given the evidence already presented to the court and of
record herein. And as noted on page 3 thereof, Hampton’s Response to Plaintiffs Motion
for Summary Judgment in the General District Court, where she was not required to file a
response (as dismissed below), but Hampton “did so in order to set the record straight,
since SIW was trying to prevent Hampton from even defending herself, misconstruing
nearly all the facts on record and attempting to paint an unfair picture of Hampton. ...
Hampton interprets this to be ‘an obstruction of justice’ and is, at minimum,
‘questionable’ or ‘unethical’ as to counsel.” (emphasis added)
Further to Hampton’s Grounds of Defense, it should be noted on page 10 under
Conclusion and Prayers for Relief, Hampton “prays that this Court award Hampton by
voiding those documents on file in our Court records, including the Assignment of
Substitute Trustee, Deed of Assignment, Deed of Foreclosure, and all other documents
filed on behalf of PROF, as being invalid. ... or do any further harm to Hampton as
against her property, her reputation, and her physical, mental and financial well being.”
It appears from the transcript that the court has based their judgment on what
transpired at the hearing itself, where the court stated “I’m not here today to hear and
decide a closing argument in a case ... so the issue on summary judgment ... are there
any genuine disputes of material facts. ... the most important words for this analysis is
material facts, (page 5, lines 13-22) Continuing on page 8, line 15 (at the top) “So when
we examine the record properly in this case of matters that can be considered on
summary judgment, including admissions, we have listed as Exhibit 1 to the motion for
summary judgment the deed of foreclosure which was referenced in the request for
admissions ... And among the responses to that is Ms. Hampton’s admission that it’s a
true copy of what Samuel I White filed in the county records ... Those matters being
admitted in the court’s view leave no material issue in genuine dispute because they
conclusively demonstrate as a matter of law that Prof is entitled to possession of the
subject property under the unlawful detainer statute.” (emphasis added)
Yes, Hampton takes issue with this where clearly she has provided sufficient
evidence in her exhibits, as well as in Admissions to Discovery Requests from both sides,
for this court to determine that the documents of Deed of Foreclosure, as well as the
Assignment of the Deed of Trust, which it is based upon, are materially defective. It
appears from the transcript that the court has based its decision on what was presented at
hearing only, and has ignored the evidence in the exhibits and Admissions. What does it
2

App. 123

take to prove that there is a material dispute or a defective Deed, or what does it take to
survive a Demurrer where clearly the evidence shows that before a trial by jury,
Hampton would have prevailed with a preponderance of the evidence. There is no justice
in dismissing on Demurrer, where the evidence can prove otherwise. It is PROF who
fears this outcome, because surely they would not survive a trial by jury. And according
to their Admissions, have challenged Hampton on the same. But if you look more clearly,
they wish to prevent all evidence, including witnesses, as they have objected to the same.
Again, Hampton considers this to be an "obstruction of justice.” And this court has failed
Hampton on her rights to defend her property from the “unlawful taking” of the same
against her Constitutional Rights to Due Process, and this court has failed in protecting
Hampton from the same.
Although Hampton, prior to receiving the e-mail with a copy of the transcript
attached, had filed her Motions for Reconsideration, based on her recollection at the
hearing, Hampton believes those motions and reconsiderations should be considered
herein, together with their attachments thereto.
It is clear from the transcript that the court did not review all documentation on
file, where particularly in Hampton’s Response to Summary Judgment and Demurrer,
Hampton was specific in her “submitted” Admissions to PROF’s Discovery Requests
that the documents on file were, in fact, defective and those material facts were in dispute
and, thus, PROF was not entitled to judgment as a matter of law. It appears that
Hampton’s filed Response and her “submitted” attachments thereto, which also included
the Admissions of PROF to Discovery Requests, which read more on denials, together
with Hampton’s exhibits, were not considered by the court. Clearly, the Admissions and
Exhibits demonstrated that there were defects to those documents, as well as to the
procedure leading up to and including those documents with regard to possession. And
Hampton knows that she would have prevailed at a trial by jury.
Further, as to the Demurrer in the lower court there was none and no Demurrer
filed herein admits to any truths or allegations as can be seen from again the Admissions.
Hampton did not file an Appeal and post an “unaffordable Bond of $8,000”
(for which she has two additional years to pay on and comprises 1/6* of her social
security income), in addition to the “unrefundable” retainer fee of $1,500 for an
expert witness, where the trial was dismissed based on these wrongful Summary
Judgment and Demurrer filings, and where Plaintiff seeks to impose a further bond on
Appeal from this court on Property which they have no right to and have never had a
right to possession, to be DENIED her “Trial by Jury.” According to Code of Virginia
8.01-129, “Trial by jury shall be had upon application of any party.” Hampton appealed
the lower court decision, knowing she would prevail before a jury trial, but has been
denied her most basic rights of what the judicial system is designed to do ... and that is,
let justice prevail. And this denial has come at a very costly expense to her and her
welfare, not to mention her reputation and her physical, mental and financial well being.
3

App.124

This trial court, while still awaiting the proposed Final Order and the transcript of
the judgment from the hearing of October 18, 2019, should consider this motion on the
grounds that the fairness of the trial was infected by improper evidence as Plaintiff
argued that the Admissions of Hampton were clear admissions of fact, and where from
those Admissions, it can be seen that Hampton denied as “true” Plaintiffs Exhibits since
they are defective and inaccurate, and only admitted to their “wrongful” filing of the
same in the court system.
Hampton had requested and the court permitted a trial by jury, but has been
deprived of proving to the court that their bench trials have been improper, unfair, and
unconstitutional given the facts and evidence herein. Clearly, these rulings are
unconstitutional! And it would appear to Hampton that a criminal, which she is not, has
every right to a trial by jury, but Hampton’s [case] has been dismissed and not permitted
to be tried by jury, but instead by a single judge.
Hampton has not committed a crime, but this court is doing so by allowing these
criminals (SIW, Fay, PROF, and whoever else identified or not) to unlawfully take my
home against my Constitutional rights to defend the same and my entitlement to
procedural due process and the protections of the law. Hampton believes that Demurrers
to non-judicial foreclosures should be banned as Unconstitutional!”
Since this court has made a decision from the bench, without considering the evidence
that would have been presented in the trial by jury, and although it is difficult to offer up all
evidence as would have been presented in that three day trial, Hampton attempts herein to supply
key factors/evidence that would have been presented. This evidence is in addition to what this
court has already received in the record, and particularly in addition to those exhibits identified
in the Discovery Requests and Responses or Answers thereto, which already demonstrate the
defective nature of the Assignments and Deeds placed on file in our own Circuit Court.
First, as identified in Hampton’s initial and Amended List of Exhibits and Witnesses, as
Exhibit 38 Certified Forensic Loan Auditors, LLC Property Securitization Analysis Report,
prepared initially January 26, 2015, and updated September 27, 2019, by expert witness Andrew
P. Lehman, J.D., provided herein, would have been offered up to the jury, together with a shorter
version referenced as “Highlights from the Bloomberg Audit.” The expert witness would have
demonstrated and educated the court and the jury on who/what PROF is (still a trust of Fannie
4

App. 125

Mae and Fannie Mae is still the investor on the site of MERS, as well as BANA is still listed
as servicer) and how all the Assignments should be held as invalid. A portion of this report was
submitted to SCOTUS in Hampton’s Reply Brief and again to this court with regard to the
hearing on Hampton’s Motion to Dismiss. This report demonstrated that the Note and the loan
secured by the Deed of Trust (DOT) had separated giving no one the right to the remedy of
foreclosure, and the Assignments of the DOT were invalid, identified on pages 66-67 (Exhibit 1
attached to the Audit). Auditor recommended reading pages 10-37 particularly in support of his
standing on this audit.
Further Hampton draws attention to the highlighted portions on page 27 regarding
conducting foreclosure proceedings when Fannie Mae is the mortgagee and the Auditor’s note
following on page 28; and further report summary on page 30, where clearly MERS should have
assigned the DOT to Fannie Mae and Fannie Mae could have assigned BANA as servicer. Again
on page 34, Fannie Mae did not assign this latest Assignment and thus, it fails as being valid.
Page 37 explains this even further in terms that a jury could understand. The Auditor goes on to
explain what a trust such as PROF is and how it operates on pages 61-62. It was believed that to
demonstrate the contents of this report to a jury, Hampton’s retained expert witness would need a
four-hour period to do so.
As to Hampton’s second witness Jeffrey T. Burch (of Virginia Law PLC and Hampton’s
Loss Mitigation Specialist since 2011), his testimony would have been supported further by all
exhibits following his involvement, but particularly with regard to PROF/Fay/SIW in Exhibit 24
from Hampton’s Amended List ofExhibits, provided herein, Burch’s Demand to Cease & Desist
Foreclosure Proceedings dated December 3, 2015, sent to both Samuel I. White PC (SIW), as
Trustee, and Fay Servicing, on behalf of PROF. This Court should carefully review this

5

App. 126

communication, together with the attachments of the Audit Highlights and further documents
listed as (a) through (f). Further Hampton spells out to this court the violations to the DOT and/or
federal and/or state regulations applicable as follows:
At no time has SIW acted as an unbiased fiduciary, and together with Fay, have acted
more as debt collectors (and, in fact, all their communications identified them as such) violating
the Fair Debt Collections Practices Act (FDCPA) by:
Not following proper notice requirements such as:
1) Unfair Notice of Trustee Sale where such Notice might have been received within two
weeks of the foreclosure date, but it was given during the Thanksgiving Holiday and Hampton
was only afforded 7 !4 days to do anything about it, during a time period where not only the
courts were closed, but attorneys were unavailable as well. Also, Hampton did not receive this
Notice until after it was published in the newspaper, which again should not be viewed as fair.
2) Hampton never received a Default Letter or any of the other notices that were to be
sent to her, in breach of the DOT, paragraph 22, where Notice must specify:
(a) The Default; (b) the action to cure the default; (c) date not less than thirty days from
date of notice; and (d) notice of right to reinstate after acceleration and right to bring court
action.
Further to the above, Section 55-59.1.B of the Code of Virginia, requires proper and
timely notice, which was not provided to Hampton or other beneficiaries.
3) In further breach of the DOT, paragraph 16, Governing Law; Severability; Rules of
Construction, calls for all conditions precedent as required by Federal and/or Virginia Law,
including but not limited to:

6

App. 127

(a) the Virginia Supreme Court ruling in Mathews v. PHH. Mortg. Corp., 724 S.E.2d 196,
283 Va. 723 (2012) regarding the failure to conduct the HUD face-to-face meeting required by
HUD regulations (24 CFR section 203.604);
(b) failing to offer the mandated HAMP modification approved initially My 29, 2009,
under Fannie Mae Guidelines, and further approved in early 2013, in the review of the
Independent Foreclosure Review and its Remediation Framework, a program which followed US
Bank NA’s, on behalf of their Trusts, “Consent Orders” with the OCC/US Treasury (as well as to
its predecessor BANA), which also did not require a complete modification application, as it had
already been approved;
(c) failing to address the full and complete modification package which was submitted,
with confirmation to Fay Servicing on December 1, 2015, together with the Third Party
Authorization, which had not been previously accepted prior to that date and prior to foreclosure
notices, which also in turn delayed the submission of the same by Hampton’s Loss Mitigation
Specialist. And had Fay accepted the Third Party Authorization, when first boarding the loan,
Hampton’s further modification application could have been submitted 37 days before the
foreclosure date making the foreclosure invalid per prohibition under 12 CFR Section
1024.41(g).
(d) failing to let the offer of a Deed in Lieu expire prior to foreclosure, where expiration
date was December 31, 2015, and where foreclosure action took place December 7, 2015, in
further violation of 12 CFR section 1024.41 - Loss Mitigation Procedures.
Even more specifically, the FDCPA is a strict liability statute which specifically prohibits
“[t]he use of any false representation or deceptive means to collect or attempt to collect any debt
or to obtain information regarding a consumer.” 15 USC section 1692e(10). The FDCPA was

7

App.128

enacted “to eliminate abusive debt collection practices by debt collectors, to ensure that those
debts collectors who refrain from using abusive debt collection practices are not competitively
disadvantaged, and to promote consistent State action to protect consumers against debt
collection abuses.” Miller v. Javitch, Block & Rathbone, 561 F.3d 588, 591 (6th Cir. 2009)
(quoting 15 U.S.C. Section 1692(e)).
To assess whether particular conduct violates the FDCPA, courts use the “least
sophisticated debtor” standard. See Swanson v. Southern Oregon Credit Service, Inc., 869 F.2d
1222, 1227 (9th Cir. 1988). This objective standard “ensurefs] that the FDCPA protects all
consumers, the gullible as well as the shrewd.” Clomon v. Jackson, 988 F.2d 1314, 1318-19 (2nd
Cir. 1993).
When applying the “least sophisticated consumer” standard, the misleading statement
must also be materially false or misleading to violate FDCPA 15 U.S.C. Section 1692e. Miller at
596-97. “The materiality standard simply means that in addition to being technically false, a
statement would tend to mislead or confuse the reasonable unsophisticated consumer.” Wallace
v. Washington Mut. Bank, F.A., 683 F.3d 323, 326-27 (6th Cir. 2012).
Here in this case it is clear that Fay committed numerous violations using false
representations and unfair and deceptive practices to collect against Hampton, beginning with
their very first 404 Notice of Sale of Ownership of Mortgage Loan (Hampton’s Exhibit C to
Discovery Admissions) informing Hampton that PROF was the New Creditor as sold on
6/19/2015. Since Hampton had already commissioned CFLA to conduct the Bloomberg Audit in
January of 2015, and having received and studied the same, Hampton knew that PROF could not
be a new creditor since these trusts must have pooled all loans into the trust back in 2013 within

8

App.129

90 days of the pooling and servicing agreement. Also, Fannie Mae was still claiming to be the
investor at that time.
Accordingly, Fay misrepresented to Hampton that this entity had a right to foreclose.
where clearly they did not, and as further evidenced by the Bloomberg Audit. Here, Fannie Mae,
the investor, was clearly the only one who might have been able to foreclose had MERS assigned
that first Assignment to them instead of BANA, and thereafter appointed BANA as servicer. Fay
also advised Hampton that they would make sure that a modification would be made and they
would be Hampton’s last customer service manager (since Hampton had more than 25 CSMs
with BANA). Further, Fay advised that the HAMP modification was no longer available, which
was clearly not true since it did not cease until December 31, 2016. However, before Fay had
time to even “board” the loan or followed through with any of the above, they had instructed
SIW to proceed with foreclosure in mid-August, 2015.
Further Fay, early on, had advised that if Hampton had legal representation that they
would communicate with them, and Hampton advised of the same and Burch, Hampton’s Loss
Mitigation Specialist, contacted them in mid-August regarding the same. However, it was not
until December 1, 2015, that Fay accepted the "Third Party Authorization” together with the
modification application. SIW also did not accept the “Third Party Authorization” together with
the December 3, 2015, Cease & Desist Letter until that date. That letter was also copied to Fay,
and warned of violations to the DOT, FDCPA, etc., and that Hampton would file suit, which she
did, the following day, December 4, 2015, if they failed to call off the Trustee Sale scheduled for
December 7, 2015.
So in addition to all the violations listed above and in Burch’s Cease & Desist, including
the Audit Highlights, the need for the Corrective Affidavit to correct the Property description

9
App.130

(“Cloud on Title”), invalid assignments, lack of required notices, and the actual filing of a suit
against them in an attempt to stop the same, SIW and Fay proceeded with the “wrongful” Trustee
Sale on December 7, 2015. Hampton’s belief that Fay acted merely as a “foreclosure mill” and
misrepresented PROF was the beneficiary of Hampton’s loan, where clearly Fannie Mae was the
beneficiary, but had never been assigned the DOT as it should have within three months of
acquiring the same, it should be found that this constituted a false representation in connection
with the collection of a debt and a deceptive practice in the conduct of trade or commerce in
violation of 15 U.S.C. Section 1692e. All of this coupled with the fact that the signer of the
Assignment from BANA to PROF, shows further confusion as to PRMF’s acquisition of the loan
as of June 19, 2015, the same date that Fay claimed PROF had acquired the same. Given the
wide range of misrepresentations, the “least sophisticated consumer” would clearly have
difficulty ascertaining who owns the loan, and who can foreclose or resolve the loan.
Still further, the FDCPA prohibits a debt collector from communicating with a consumer
in connection with the collection of any debt “if the debt collector knows the consumer is
represented by an attorney ...” 15 U.S.C. Section 1692c(a)(2). Fay, as well as SIW, knew in midAugust that Hampton was represented by counsel and, more specifically, the firm’s Loss
Mitigation Specialist Jeff Burch, but failed to accept the Third Party Authorization until
December 1st and 3rd, 2015, respectively, and right before the Trustee Sale of December 7,2015.
4) Further to the above, Hampton had claimed that by the violations previously stated to
SCOTUS, as well as in this court as presented at hearing on Motion to Dismiss:
(a) the DOT should be determined void ab initio;
(b) the Assignment of the DOT from MERS to BANA should be held invalid, as it should
have been assigned to Fannie Mae and then Fannie Mae could have assigned to BANA;

10

App.131

(c) the Substitution of Trustee (SOT) from PROF to SIW should be held invalid as PROF
was never the Noteholder (Fannie Mae was), nor was the note secured by the DOT, nor was
PROF the beneficiary of the same and had no authority to assign, nor to exercise the remedy of
foreclosure; and further no Power of Attorney (POA) was given to Fay as is evident therein and,
in the first POA submitted to the Commissioner of Accounts, it failed to list PROF in US Bank
NA’s POA to Fay; and where clearly, the wrong party made assignment; and further that no
assignment to the security instrument from BANA to PROF was filed before or concurrently
with the SOT giving PROF such authority to assign or foreclose;
(d) the subsequent Assignment of the DOT should be held invalid as it relied on the first
Assignment of the DOT and PROF, as a Trust, could not bid on any new loan and was never the
Lender who could have, and Countrywide, the Lender, had ceased to exist. As to facial defects,
this Assignment bears a “bogus” description of the property, an incorrect pin number, which is
critical to its identification, and is executed by a further party Avenue 365 as attorney-in-fact for
BANA, concealing true ownership of the loan to PRMF Acquisitions as of June 19,2015, where
Fay claimed the same was sold to PROF on that date;
(e) the Deed of Foreclosure (DOF) should be found invalid, as it relied on the
Assignment of the DOT and the Trustee Sale, all of which should be held invalid and set aside
by a court in equity. As to facial defects, first the sidebar on page 1 should read “Lot No. 3,
Parkview Estates II,” per its proper recorded identification yet to be submitted via “Corrective
Affidavit;” at the top right of the page, “Title Insurance underwriter unknown to the preparer,”
where it is believed that the Trustee is suppose to be in receipt of the same in order to proceed
with foreclosures; in the third paragraph, “WHEREAS, by instrument recorded in the Clerk’s
Office, Samuel I. White, PC was appointed Substitute Trustee under the DOT,” this SOT is

11

App. 132

invalid as Fay on behalf of PROF was not the proper party to assign; in the fourth paragraph, the
Trustee failed to comply with the requirements of the DOT prior to exercising foreclosure; in the
last paragraph on page 1, PROF, as a trust, could not bid nor take in any loan as the closing date
for doing so was back in 2013, and is not the Lender, who could do bidding. On page 2 of the
DOF, as to the first paragraph, at no time did the Trustee inquire, but should have; as to the legal
description, SIW copied the description received by Owens & Owen regarding the “Corrective
Affidavit,” which they approved with one correction, but remained to be approved by Hampton
and filed in the court herein, which to date has not occurred due to late receipt, after the Trustee
Sale, as well as the description is still not accurate to what is recorded with the Register of Deeds
(see Exhibit T to Admissions as to procedures to follow on “Corrective Affidavits”), and herein
there are further errors as to incorrect page nos. cited, and, more importantly, the description is to
state verbatim as to the DOT it relies on and does not.
5) The Note itself might be held defective as well by the Commissioner of Accounts’
stamp listing the foreclosure date as of November 7, 2015, whereas it should be December 7,
2015. And as further alleged by Hampton, the signature on this Note is believed to be forged.
6) Still further, PROF’s claim to the Probate Court Order affirming as “true” or
“accurate” as to the Accounting submitted by SIW, deceives this court as the Probate Court
Order specifically states that it does not approve on the “accuracy” of anything therein.
There is much more supporting evidence as can be seen in Hampton’s Amended List of
Exhibits & Witnesses, but this court should once again carefully review both Hampton’s
Admissions to PROF’s Discovery Requests and, even more particularly, PROF’s Admissions to
Hampton’s Discovery Requests and Exhibits A through T provided therein, where Hampton lays

12

App. 133

out her case to be presented to her “jury trial,” where PROF denies most and challenges
Hampton to show proof, which she was prepared to do at the trial by jury.
Hampton’s allegations should be sufficient to state a bona fide claim that the foreclosure
sale and Trustee’s Deed could be set aside in equity, as well as all the Deeds on file. Hampton
has herein, as she would have before a jury, identified the requirements in the DOT that
constitute conditions precedent to foreclosure; has alleged facts that indicate the Trustee failed to
comply with those requirements and that no power to foreclose had accrued before or at the time
of foreclosure; and still further, not only was the foreclosure purchaser the wrong party to bid or
foreclose, but Fannie Mae - the true owner of the trust PROF - knew or should have known of
these defects.
Still further, should this Court deem all of the above to be “conclusions of law,” it is
Hampton’s belief that her jury would conclude, that by law, all of the above would be found as
true and all Deeds found void or invalid, and the foreclosure “wrongful.”
Hampton also refers your Honor to her “12-6-19 Notes for hearing on Bond Release,”
together with her submissions therein and herein request for a full and complete review in hopes
that you will draw the conclusion that PROF (a Trust of Fannie Mae’s) has deceived this court,
as it has deceived Hampton, and is not entitled to Summary Judgment, nor Demurrer, where
Hampton can show a preponderance of evidence to survive the same, and further the General
District Court’s decision was premature and Hampton should have never needed to appeal or
post an $8,000 Bond.
WHEREFORE, for all of the reasons previously submitted and further stated above, and
as supported in the exhibits attached hereto and those previously submitted, Hampton
respectfully requests this Court grant this Rehearing ... Mistrial, and/or to serve justice by

13

App.134

placing this case back on the docket for a “fair” trial by jury and on its merits. Hampton should
not have to continue to defend her property from the “Unlawful Taking” by PROF, in violation
of her Constitutional Rights.
Respectfully submitted,

/
• f'

£

/ /

/,'

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

14

App. 135

CERTIFICATE OF SERVICE
I hereby certify that on December 20, 2019, a true copy of the foregoing Defendant's
Motion for Rehearing or in the Alternative Motion for a Mistrial Supporting Memorandum of
Law is being sent via first class US Mail, postage prepaid to:
Appellee
Plaintiff/Counterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL! WHITE,P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National. Association, as Legal Title Trustee

.. CM.
Kathleen C. Hampton, Appellant pro se
P.O.Box 154
Bluemont, Virginia 20135
540-554-2042

15

App.136

V

STATE OF VIRGINIA
COUNTY OF LOUDOUN
CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Defendant's Motion for Rehearing or in the Alternative Motion for a Mistrial
Supporting Memorandum of Lcm> and it is true of my own knowledge, except as to those matters
stated on information or belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: December 20, 2019

Kathleen C. Hampton, Appellant pro se
SWORN to and subscribed before me, this 20th day of December, 2019.

NOTARY

My Commission Expires:. ^ DM. 3l.-Dp.3A

r

s&gfe*.
Mary E. McCauley .
gfi. *
Commonwealth of Virginia
jra Vu
h.'nurv Public
wsahu*- M CommiREion No. 116683
My Commission ExpifOW 1/31/2020

16

App. 137

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant. Counterclaim

)

)
)
)
)
)
)

v.

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

DEFENDANT’S MOTION FOR REHEARING
OR IN THE ALTERNATIVE MOTION FOR A MISTRIAL
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), to submit Defendant's Motion for Rehearing or in the Alternative
Motionfor a Mistrial on Summary Judgment and Demurrer judgments at the hearing of October
18, 2019, and further reserves the right to file a subsequent Supporting Memorandum of Law,
and states as follows:
First, Hampton wishes to advise that opposing counsel has via e-mail only on November
8, 2019, supplied her with a copy of the transcript of the Summary Judgment hearing (attached
hereto), and to date Plaintiff has not “circulated” this transcript nor the proposed “Final Order,”
and accordingly, this motion is filed as that transcript clearly demonstrates that the court did not
consider the entire record on appeal, and especially the Bill ofParticulars filed by Plaintiff, and
Defendant’s Grounds of Defense, and instead relied on Defendant’s initial Counterclaims and
Sanctions as filed two years ago, while her case was still active in the courts and still developing
1

App. u#**6*^-* 7"

in the General District Court. It should be noted here too that the prior state case was only
recently denied by the U.S. Supreme Court on October 7, 2019, but did not affirm the lower
courts decisions. Thus, it would seem to Hampton that the General District Court’s decision to
award possession on November 14, 2018, was also premature and again should have been
dismissed without prejudice re Parrish.
It is Defendant’s Grounds of Defense which this court should have consulted in this
appeal, and, from the District Court’s decision, it appears that court also failed to consult the
same, particularly given the evidence already presented to the court and of record herein. And as
noted on page 3 thereof, Hampton’s Response to Plaintiff’s Motion for Summary Judgment in the
General District Court, where she was not required to file a response (as dismissed below), but
Hampton “did so in order to set the record straight, since SIW was trying to prevent Hampton
from even defending herself, misconstruing nearly all the facts on record and attempting to paint
an unfair picture of Hampton. ... Hampton interprets this to be ‘an obstruction of justice’
and is, at minimum, ‘questionable* or ‘unethical’ as to counsel.” (emphasis added)
Further to Hampton’s Grounds of Defense, it should be noted on page 10 under
Conclusion and Prayers for Relief, Hampton “prays that this Court award Hampton by voiding
those documents on file in our Court records, including the Assignment of Substitute Trustee,
Deed of Assignment, Deed of Foreclosure, and all other documents filed on behalf of PROF, as
being invalid. ... or do any further harm to Hampton as against her property, her reputation, and
her physical, mental and financial well being.”
It appears from the transcript that the court has based their judgment on what transpired
at the hearing itself, where the court stated “I’m not here today to hear and decide a closing
argument in a case ... so the issue on summary judgment ... are there any genuine disputes of

2

App. 139

material facts. ... the most important words for this analysis is material facts, (page 5, lines 1322) Continuing on page 8, line 15 (at the top) “So when we examine the record properly in this
case of matters that can be considered on summary judgment, including admissions, we have
listed as Exhibit 1 to the motion for summary judgment the deed of foreclosure which was
referenced in the request for admissions ... And among the responses to that is Ms. Hampton's
admission that it's a true copy of what Samuel I White filed in the county records ... Those
matters being admitted in the court's view leave no material issue in genuine dispute because
they conclusively demonstrate as a matter of law that Prof is entitled to possession of the subject
property under the unlawful detainer statute.” (emphasis added)
Yes, Hampton takes issue with this where clearly she has provided sufficient evidence in
her exhibits, as well as in Admissions to Discovery Requests from both sides, for this court to
determine that the documents of Deed of Foreclosure, as well as the Assignment of the Deed of
Trust, which it is based upon, are materially defective. It appears from the transcript that the
court has based its decision on what was presented at hearing only, and has ignored the evidence
in the exhibits and Admissions. What does it take to prove that there is a material dispute or a
defective Deed, or what does it take to survive a Demurrer where clearly the evidence shows that
before a trial by jury, Hampton would have prevailed with a preponderance of the evidence.
There is no justice in dismissing on Demurrer, where the evidence can prove otherwise. It is
PROF who fears this outcome, because surely they would not survive a trial by jury. And
according to their Admissions, have challenged Hampton on the same. But if you look more
clearly, they wish to prevent all evidence, including witnesses, as they have objected to the same.
Again, Hampton considers this to be an “obstruction of justice.” And this court has failed
Hampton on her rights to defend her property from the “unlawful taking” of the same against her

3

App.140

Constitutional Rights to Due Process, and this court has failed in protecting Hampton from the
same.
Although Hampton, prior to receiving the e-mail with a copy of the transcript attached,
had filed her Motions for Reconsideration, based on her recollection at the hearing, Hampton
believes those motions and reconsiderations should be considered herein, together with their
attachments thereto.
It is clear from the transcript that the court did not review all documentation on file,
where particularly in Hampton’s Response to Summary Judgment and Demurrer, Hampton was
specific in her “submitted” Admissions to PROF’s Discovery Requesis that the documents on
file were, in fact, defective and those material facts were in dispute and, thus, PROF was not
entitled to judgment as a matter of law. It appears that Hampton’s filed Response and her
“submitted” attachments thereto, which also included the Admissions of PROF to Discovery
Requests, which read more on denials, together with Hampton’s exhibits, were not considered by
the court. Clearly, the Admissions and Exhibits demonstrated that there were defects to those
documents, as well as to the procedure leading up to and including those documents with regard
to possession. And Hampton knows that she would have prevailed at a trial by jury.
Further, as to the Demurrer in the lower court there was none and no Demurrer filed
herein admits to any truths or allegations as can be seen from again the Admissions.
Hampton did not file an Appeal and post an “unaffordable Bond of $8,000” (for
which she has two additional years to pay on and comprises 176th of her social security income),
in addition to the “unrefundable” retainer fee of $1,500 for an expert witness, where the
trial was dismissed based on these wrongful Summary Judgment and Demurrer filings, and
where Plaintiff seeks to impose a further bond on Appeal from this court on Property which they

4

App.141

have no right to and have never had a right to possession, to be DENIED her “Trial by Juiy.”
According to Code of Virginia 8.01-129, “Trial by jury shall be had upon application of any
party.” Hampton appealed the lower court decision, knowing she would prevail before a jury
trial, but has been denied her most basic rights of what the judicial system is designed to do ...
and that is, let justice prevail. And this denial has come at a very costly expense to her and her
welfare, not to mention her reputation and her physical, mental and financial well being.
This trial court, while still awaiting the proposed Final Order and the transcript of the
judgment from the hearing of October 18, 2019, should consider this motion on the grounds that
the fairness of the trial was infected by improper evidence as Plaintiff argued that the Admissions
of Hampton were clear admissions of fact, and where from those Admissions, it can be seen that
Hampton denied as “true” Plaintiffs Exhibits since they are defective and inaccurate, and only
admitted to their “wrongful” filing of the same in the court system.
Hampton had requested and the court permitted a trial by jury, but has been deprived of
proving to the court that their bench trials have been improper, unfair, and unconstitutional given
the facts and evidence herein. Clearly, these rulings are unconstitutional! And it would appear to
Hampton that a criminal, which she is not, has every right to a trial by jury, but Hampton’s has
A.

been dismissed and not permitted to be tried by jury, but instead by a single judge.
Hampton has not committed a crime, but this court is doing so by allowing these
criminals (SIW, Fay, PROF, and whoever else identified or not) to unlawfully take my home
against my Constitutional rights to defend the same and my entitlement to procedural due
process and the protections of the law. Hampton believes that Demurrers to non-judicial
foreclosures should be banned as Unconstitutional!

5

App. 142

WHEREFORE, for all of the reasons stated above, and as supported in the copy of the
transcript attached hereto, and Hampton’s further Supporting Memorandum of Law,

to come,

r<
this case back on the docket for a “fair” trial by jury and on its merits. Hampton should not have
to continue to defend her property from the “Unlawful Taking” by PROF.

in violation of her

Constitutional Rights.
Respectfully submitted,

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

6

App.143

CERTIFICATE OF SERVICE
I hereby certify that on November 18, 2019, a true copy of the foregoing Defendant 's
Motion for Rehearing or in the Alternative Motion for a Mistrial is being sent via first class US
Mail, postage prepaid to:
Appellee
Plaintiff/Counterciaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee

Kathleen C. Hampton, Appellant pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042

7

App. 144

STATE OF VIRGINIA
COUNTY OF LOUDOUN

CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Defendant's Motion for Rehearing or in the Alternative Motion for a Mistrial and
it is true of my own knowledge, except as to those matters stated on information or belief, and as
to those matters, I believe it to be true.
I declare under penalty of peijury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: November 18, 2019

Kathleen C. Hampton, AppeJlStprose
SWORN to and subscribed before me, this 18th day of November, 2019.

notarybefxdy

Ckrb.

My Commission Expires:

8

App. 145

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

-

»r"'

)

)
r;

)
)

o

)
)
)

v.

) CL00118604-00, Unlawful Detainer
) CL0OI186O5-00, Counterclaim

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

MOTION FOR RECONSIDERATION
OF FURTHER SUPPORT TO MEMORANDUM OF LAW
TO THE HONORABLE STEPHEN E. SINCAVAGE
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), to submit her Motion for Reconsideration of Further Support to
Memorandum ofLaw, as follows:
As previously stated in Motionfor Reconsideration filed October 25, 2019:
“Hampton’s case is a clear case under Parrish, wherein the Trustee’s Sale was not
valid, since neither PROF nor Fay had power to assign or conduct the same, but did so;
title was challenged judicially prior to foreclosure; facially the Deeds are defective; and
yes, a court of equity should set aside the same; and further res judicata does not apply
where the prior suit never ruled on the “merits,” and further never ruled on the
Foreclosure or the Unlawful Detainer Counts and never addressed the same therein.
These are not “naked allegations” and this court should recognize the same and follow
through with adjudicating title, because the title is not valid at law and should be set aside
by a court in equity.
Wherein this Court should have either conducted a de novo trial by jury, including
the new issues raised supporting further the void ab initio DOT, adjudicated the deeds on
1

App.146

file, and set aside the “wrongful” foreclosure, or, if not allowing the de novo trial to
proceed, should have dismissed without prejudice and PROF should have to file their
claim in the Circuit Court, as the Unlawful Detainer is only “lawful” if PROF had a right
to foreclose, which they did not; and as is evident from that which Hampton has already
submitted herein, particularly in Hampton’s Discovery Requests, with evidence/exhibits,
and PROF’s responses thereto.
There is no justice on dismissing on Demurrer, where clearly with the evidence
raised and the dismissal based on the Demurrer in a prior case, which were wrong since
Judge Irby did not “seek the truth of the allegations,” was completely confused as to void
ah initio DOT, and Property Description requiring a “Corrective Affidavit,” and did not
rule on Count VIII Wrongful Foreclosure or on Count XII the Unlawful Detainer, and
dismissed on Demurrer as to all counts, as a housekeeping matter.
PROF has been so eager to provide the entire Second Amended Complaint with
their Opposition to Hampton's Motion to Dismiss without Prejudice, together with most
prior court Orders and PROF’s prior Demurrer thereto, which once again claim they
could not find anything to defend, and where they never addressed the wrongful
foreclosure, nor the unlawful detainer, in their Demurrer.
Clearly, this Court failed to review the Counts to Hampton’s Second Amended
Complaint, together with the transcript of Judge Irby’s ruling, which Hampton includes
herein, and at the very base of Hampton’s claim re voidab initio DOT, Hampton points
to the transcript page 38, beginning at line 20, where Judge Irby rules: “I find that the
claim allegations with respect to the DOT was altered is without merit. Plaintiffs own
exhibits reveal that the DOT was re-recorded in October of 2005 to correct the legal
description. Plaintiff did not specifically state how the DOT was allegedly altered, who,
when it was altered, or who altered it. ... There’s no cognizable cause of action for an
alteration for a DOT and Property Description.” Clearly, Judge Irby failed to read all
allegations and exhibits since the evidence/exhibits were clearly explained. ...
This Court on Appeal, should have consulted with the transcript as well as
Hampton’s Motion for Reconsideration and Memorandum in Support of Motion for
Reconsideration, also provided herein, that states in detail why Judge Irby’s rulings
“failed to consider or misinterpreted as to some of the evidence submitted supporting
Plaintiffs allegations.”
This Court should have never considered Demurrers herein, where the prior
Demurrers never addressed all applicable issues, nor did the court rule on those issues or
claims, and further misinterpreted most of the evidence thereto, and no res judicata or
other doctrine should apply, as never ruled on specifically to this Unlawful Detainer, nor
the underlying Wrongful Foreclosure therein.
How can this court turn a blind eye to the wrongful foreclosure and the Deeds
which should be voided regarding the same, particularly with the evidence which proves
the same?”
2

App. 147

In further support of Hampton’s Reconsideration, Hampton is providing the 209 pages of
evidence/exhibits that were part of the Second Amended Complaint by permitted reference from
the First Amended Complaint, which is the bulk of the real proof or evidence of the wrongdoing
as laid out in that prior case (Hampton v PROF-2013 Legal Title Trust et til. CA 98163). This
Court can take judicial notice of the First Amended Complaint Exhibits (before it was combined
in the Second Amended Complaint, with that of the U.S. Federal District Court case, filed before
foreclosure), pursuant to Virginia Code 8.01-389 (1950, as amended) and Rule 2-201 of The
Rules of the Supreme Court of Virginia. Since PROF has already supplied the Second Amended
Complaint as previously mentioned, it was felt that Your Honor should have the full package and
evidence/exhibits referenced in that prior complaint.
WHEREFORE, for all of the reasons stated above, and supported in this further
attachment hereto, Hampton respectfully requests this Court’s further Reconsideration, and to
serve justice by either placing this case back on the docket for a “fair” trial by jury and on its
merits, or dismiss this case without prejudice, which should have been done in the General
District Court. PROF may file their claim in Circuit Court or perhaps they will come to the
settlement table as they should have done ten (10) years ago. Hampton should not have to
continue to defend her property from the “Unlawful Taking” by PROF, in violation of her
Constitutional Rights.
Respectfully submitted,

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

App.148

CERTIFICATE OF SERVICE
I hereby certify that on November 1, 2019, a true copy of the foregoing Motion for
Reconsideration of Further Support to Memorandum of Law to the Honorable Stephen E.
Sinca\>age, with attachments, is being sent via first class US Mail, postage prepaid to;
Appellee
Plaintiff/Counterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee
/"
.

■x.

Kathleen C. Hampton, Appellant pro se
P.O.Box 154
Bluemont, Virginia 20135
540-554-2042

4

App. 149

STATE OF VIRGINIA
COUNTY OF LOUDOUN
CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Motion for Reconsideration of Further Support to Memorandum of Law to the
Honorable Stephen E. Sincavage and it is true of my own knowledge, except as to those matters
stated on information or belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: November 1, 2019

C
Kathleen C. Hampton, Appellantpfo se
SWORN to and subscribed before me, this 1st day of November, 2019.

NOTA&r

My Commission Expires:

4K
"O

:x

x:

5

App. 150

0* <?(L.
VIRGINIA
L ->\ ,

IN THE CIRCUIT COURT OF LOUDOUN COUNTY
• i
f '*'•

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim

)

* • .•»

)
)
)
)
)
)

v.

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim

KATHLEEN C. HAMPTON
Appellant,pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

MOTION FOR RECONSIDERATION
AND SUPPORTING MEMORANDUM OF LAW
TO THE HONORABLE STEPHEN E. SINCAVAGE
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
(“Defendant” or “Hampton”), to submit her Motion for Reconsideration and Supporting
Memorandum ofLaw, as follows:
First, the General District Court erred in not dismissing this case without prejudice and
causing Hampton to further appeal to this court, with the burden of imposing an $8,000 bond on
Hampton, wherein this court cannot under Parrish rule on the same. The General District Court
should have dismissed the same and PROF would have had to bring a suit against Hampton in
the Circuit Court, wherein Hampton, as a defendant, would still have been entitled to a trial by
jury and been permitted to bring in all of her evidence and witnesses, and further where there
would be no Demurrer or resjudicata or other doctrine barring the same.
1

v'
App. 151

As argued on November 14, 2018, in General District Court:
“Your honor, I would like to address the court, this is the 12th time that I have appeared
in this court over what I consider to be a “Wrongful” Unlawful Detainer, where I have
called into question not only the validity of the foreclosure, but the validity of the Deed
of Foreclosure and all Assignments leading up to it, including the Deed of Trust, and
PROF’s claim to my property by Wrongful Foreclosure conducted Dec. 7, 2015, where I
had already challenged that foreclosure via filing suit Dec. 4,2015, prior to that
foreclosure, where Samuel I. White on behalf of PROF should have been barred from
proceeding.
As pled before the Supreme Court 10-16-18, the Circuit Court should have found
predatory lending, a void ab initio Deed of Trust and the “Cloud on Title” evident
requiring a “Corrective Affidavit” and clearly with the violation of the Consent Orders
with the OCC/US Treasury, a “wrongful foreclosure” had occurred and, more
particularly, I had exercised my rights to file suit before the same challenging the
foreclosure, which SIW on behalf of Fay/PROF ignored. ...
... I shall continue to fight for my due process rights to defend my property from its
unlawful taking by PROF.
Meanwhile, it is my request herein that this court refuse to entertain this unlawful
detainer case any further and dismiss this case based on that fact that I have raised bona
fide dispute of title from the foreclosure sale. And, specifically, in Parrish v. Federal
National Mortgage Association, 292 Va. 44, 787 S.E.2d 116 (2016), the Supreme Court
of Va. held that, where a borrower raises a bona fide question as to the validity of title in
a case originally filed in the General District Court (or subsequently appealed to the
Circuit Court from the General District Court), the case must be dismissed without
prejudice because the General District Court lacks original subject matter jurisdiction to
adjudicate the validity of title. This Court had admitted on 8-3-18 that it could not
invalidate the Deed of Foreclosure or any other deeds on record and further there was no
recordation of trial. In these circumstances, I have alleged facts sufficient to place the
validity of the trustee’s deed in doubt. In such cases, the General District Court’s
lack of subject matter jurisdiction to try title supersedes its subject matter
jurisdiction to try unlawful detainer and the court must dismiss the case without
prejudice. (Hampton’s emphasis added)
Additionally, in two cases, Ramos v. Wells Fargo Bank, 770 S.E.2d 491 (2015) and
Mathews v. PHHMortgage Corp., 283 a. 723, 724 S.E.2d 196 (2012), the Supreme Court
of Virginia confirmed that any challenge to a foreclosure based on the pre-foreclosure
conduct of the lender must be filed before the foreclosure sale has taken place, if the
borrower wants to avoid a foreclosure sale. Clearly, I had filed my first suit Dec. 4,2015,
2

App.152

prior to the foreclosure of Dec. 7,2015, which foreclosure should be found “wrongful”
and/or “void” by the fact that I have filed before the foreclosure action took place.”
Clearly, the General District Court erred in awarding possession and imposing a bond of
$8,000 on Hampton should she appeal the same, where again the General District Court’s lack
of subject matter jurisdiction to try title “supersedes” its subject matter jurisdiction to try
unlawful detainer and the court must dismiss the case without prejudice.
Here, again, where Hampton filed her Motion to Dismiss in this Circuit Court on Appeal,
realizing that she may not be afforded a fair trial based on the merits of her case, the undeniable
evidence and the testimony to support the same, she was denied the same primarily on the basis
of not surviving a Demurrer in her prior suit, which was against far more than just PROF, and on
far more issues than just the Unlawful Detainer. Why was Hampton lead to believe she could
have a fair trial (one of record) in this Court and reviewed de novo, where in fact she was
imposed with an $8,000 bond to appeal, and where this Court will not entertain that fair trial by
jury? Obviously, this court should have again dismissed this case without prejudice and PROF
should have filed their suit against Hampton in a separate action before a court of equity and of
record.
Hampton’s case is a clear case under Parrish, wherein the Trustee’s Sale was not valid,
since neither PROF nor Fay had power to assign or conduct the same, but did so; title was
challenged judicially prior to foreclosure; facially the Deeds are defective; and yes, a court of
equity should set aside the same; and further res judicata does not apply where the prior suit
never ruled on the “merits,” and further never ruled on the Foreclosure or the Unlawful Detainer
Counts and never addressed the same therein. These are not “naked allegations” and this court
should recognize the same and follow through with adjudicating title, because the title is not
valid at law and should be set aside by a court in equity.
3

App. 153

Wherein this Court should have either conducted a de novo trial by jury, including the
new issues raised supporting further the void ab initio DOT, adjudicated the deeds on file, and
set aside the “wrongful” foreclosure, or, if not allowing the de novo trial to proceed, should have
dismissed without prejudice and PROF should have to file their claim in the Circuit Court, as the
Unlawful Detainer is only “lawful” if PROF had a right to foreclose, which they did not; and as
is evident from that which Hampton has already submitted herein, particularly in Hampton’s
Discovery Requests, with evidence/exhibits, and PROF’s responses thereto.
There is no justice on dismissing on Demurrer where clearly with the evidence raised
and the dismissal based on the Demurrer in a prior case, which were wrong since Judge Irby did
not “seek the truth of the allegations,” was completely confused as to void ab initio DOT, and
Property Description requiring a “Corrective Affidavit,” and did not rule on Count VIII
Wrongful Foreclosure or on Count XII the Unlawful Detainer, and dismissed on Demurrer as to
all counts, as a housekeeping matter.
PROF has been so eager to provide the entire Second Amended Complaint with their
Opposition to Hampton’s Motion to Dismiss without Prejudice, together with most prior court
Orders and PROF’s prior Demurrer thereto, which once again claim they could not find
anything to defend, and where they never addressed the wrongful foreclosure, nor the unlawful
detainer, in their Demurrer.
Clearly, this Court failed to review the Counts to Hampton’s Second Amended
Complaint, together with the transcript of Judge Irby’s ruling, which Hampton includes herein,
and at the very base of Hampton’s claim re void ab initio DOT, Hampton points to the transcript
page 38, beginning at line 20, where Judge Irby rules: “I find that the claim allegations with
respect to the DOT was altered is without merit. Plaintiff’s own exhibits reveal that the DOT was

4

App. 154

re-recorded in October of 2005 to correct the legal description. Plaintiff did not specifically state
how the DOT was allegedly altered, who, when it was altered, or who altered it. ... There’s no
cognizable cause of action for an alteration for a DOT and Property Description.” Clearly, Judge
Irby failed to read all allegations and exhibits since the evidence/exhibits were clearly explained.
Further, it is this very alteration of the DOT, as Hampton has raised in this Appeal, and as
submitted to the Supreme Court of the US that makes the DOT void ab initio:
“Petitioner believes this Superior Court should request a response of Bank of America,
N.A., Fannie Mae, and Countrywide Home Loans, Inc. (“CW”) (“Bank Defendants”),
particularly since the loan origination began with predatory loans dating back to 2005,
and resulting in the subject predatory re-finance loan of 2006, and the Deed of Trust,
which accompanied it, which should be found void ab initio.
Further, in investigations pending in the Virginia Office of Attorney General,
Predatory Lending Unit, Hampton has learned more violations to the Deed of Trust:
As to Countrywide (“CW”) and the origination of Hampton’s loans:
Under Code of Virginia Section 6.2-1629. Prohibited practices; authority of the
Attorney General: A. ... no person that is engaged in the business of originating
residential mortgage loans in the Commonwealth shall use any deception, fraud,
false pretense, false promise, or misrepresentation in connection with a
mortgage loan transaction, (emphasis added; also under [B] Code 59.1-9.10
from 2000 with slight rewording)
Hampton was deceived, fraud is evident in the transaction staged with HSBC, and she
was sold a re-finance loan they clearly knew was subprime and/or unaffordable.
CW’s wrongdoing, once again, is further evidenced in the Deed of Trust, where:
Under Code of Virginia Section 6.2-1614. Prohibitions applicable to mortgage
lenders and mortgage brokers. No mortgage lender ... shall
1. Obtain any agreement or instrument in which blanks are left to be filled in
after execution; ... 5. ... submitting false information in connection with an
application for the mortgage loan, breaching any representation or covenant
made in the agreement or instrument, or failing to perform any other
obligations undertaken in the agreement or instrument; ... 7. Knowingly or
intentionally engage in the act or practice of refinancing a mortgage loan
within 12 months following the date the refinanced mortgage loan was
5

App. 155

originated, unless the refinancing is in the borrower’s best interest ...”
(emphasis added)
Clearly, the blanks in the DOT at time of signing the same were a violation of the above.
The blanks referred to page nos. of the re-financed [subprime] loans, and were never
filled in thereafter and, in fact, they were struck through as if it were not a re-finance,
concealing the fact that CW was not entitled to a prepayment penalty for an in-house
refinance, in addition to the fraud and deceit in recorded documentation with the Clerk’s
Office, in support of Hampton’s claim to a void ab initio DOT. Notable also is this
refinance was done within 11 months and was not in Hampton’s best interest, since it was
set to fail, as clearly it was “unaffordable.
In addition, Hampton’s loan increased by nearly $17,000 for a re-finance, recorded
NOT as a re-finance and without cash out.
As to the re-recorded DOT in October of 2005, that re-recorded DOT only corrected the
acreage listed from 27 plus acres described to the 5.24 acres conveyed. Along with the refinance
of 2006, CW further altered that corrected property description, which obviously Judge Irby had
consulted with the wrong exhibits, and further to all those recorded DOTs, they still had the
wrong “metes and bounds” description of the property requiring still further the “Corrective
Affidavits,” which were required as to all the deeds on record. And which Samuel I. White in the
Deed ofForeclosure altered the property description to what he had approved in the “Corrective
Affidavit,” which required his approval since he was the original Trustee, and obviously the new
(still wrong) description does not convey that of the DOT, which is required to state verbatim
that which is being conveyed. Further still all Deeds require the “Corrective Affidavits.” Judge
Irby had not consulted with all the exhibits, which clearly could show the need for the same, and
it was clear she was confused as to the same being already corrected in 2005.
As to Judge Irby’s ruling on page 42, beginning line 15, “Count VIII, Lack of Standing to
Foreclose, Wrongful Foreclosure as to BofA, PROF, Fay and White. The Plaintiff argues that
Countrywide and its successors lacks the power of exercise on behalf of the PSA. The Plaintiff
6

App.156

furthermore disputes the validity of the assignment of the DOT. The Plaintiff admits in her
pleadings that she does not allege specifically to each defendant as to their actions are
accountable.” Judge Irby does not rule hereon and moves on to the next count.
On page 44, line 21 through page 45, line 1, Judge Irby leaves off with sustaining the
Demurrer to Count X with prejudice and without leave to amend. Judge Irby never made a ruling
on the Wrongful Foreclosure, only citing what the claim was, and never ruled on the Count XI Fraud with the IRS and Count XII - Unlawful Detainer.
It does appear from the Judge’s rulings that she followed along with whatever PROF’s
counsel had said, both at hearing and in their Demurrer, and the judge failed to address the
“allegations as truth,” finding no cause of action, no cognizable claim, no fraud pled with
specificity, and barred by the statute of limitations. Still further she never addressed the Pleas for
Judicial Notice, which clearly showed that: the wrong party foreclosed; both banks had violated
their Consent Orders with the OCC/US Treasury to follow the remedies of the IFR Remedial
Framework they were mandated to follow, including rescission of the foreclosure and offering
the HAMP modification, based on approval back in July 29, 2009; SEC Attestation that showed
no registration by PROF, thus not secured by the DOT; and further, documentation showing
when Statute of Limitations began.
So m that prior case, where perhaps no such claim might have been heard in this state
before, the Judge failed to “seek the truth of the allegations” and violated Hampton’s due process
rights, by prematurely sustaining the Demurrers and not allowing Discovery with her Pleas for
Judicial Notices. This was a clear case, which should have set legal precedence, since there has
never been a case with as many torts, and violations of Codes and violations of all precedents to

7

App.157

the DOT being fulfilled prior to exercising the power of foreclosure, as well as wrong party
proceeding.
Further, as pled before this court and the Supreme Court of the US:
“Pertinent constitutional and statutory provisions were set forth in the Appendix
to Hampton’s Petition (App. N), which Hampton draws this Court’s attention to the last
paragraph on the last page thereof:
“The party secured by the deed of trust, or the holders of greater than fifty percent
of the monetary obligations secured thereby, shall have the right and power to
appoint a substitute trustee or trustees. The instrument of appointment shall be
recorded in the office of the clerk wherein the original deed of trust is recorded
prior to or at the time of recordation of any instrument in which a power,
right, authority or duty conferred by the original deed of trust is exercised.”
(emphasis added)
Here, PROF appointed a substitute trustee, while they did not own the loan nor were they
secured by the DOT, as it had been sold to PRMF Acquisitions on June 19,2015 (and not PROF
as indicated in Fay’s 404 Notice), and exercised a “power, right, authority or duty conferred by
the original deed of trust” without being assigned the same or recording the same “in the office
of the clerk wherein the original deed of trust was recorded.” This is but one merit to Hampton’s
case that was pled and Judicially Noticed. Thus, wrong party appointed a substitute trustee and
could not make claim to being secured by the Deed of Trust, nor had an Assignment of the Deed
of Trust been made to them prior to exercising foreclosure and still further, PROF could only
bring in loans 90 days within their closing date sometime back in 2013.
Where further shown in the Bloomberg Audit Reports Highlights taken from pages 24-31
of the Second Amended Complaint:
“Bloomberg Loan Securitization Audit Report HIGHLIGHTS
1. There is no evidence on Record to indicate that the Mortgage was ever transferred
concurrently with the purported legal transfer of the Note, such that the Mortgage
8

App. 158

and Note has been irrevocably separated, thus making a nullity out of the
purported security in a property, as claimed.” ...
•

Although MERS records an assignment in the real property records, the
promissory note which creates the legal obligation to repay the debt has not been
transferred nor negotiated by MERS.” ...

•

MERS is not a party to the alleged mortgage indebtedness underlying the security
instrument for which it serves as “nominee”. ...

The loan was originally made to Countrywide Home Loans, Inc. and may have
been sold and transferred to Fannie Mae Remic Trust 2006-67. There is no record of
Assignments to either the Sponsor or Depositor as required by the Pooling and
Servicing Agreement.
In Carpenter v. Longan 16 Wall 271,83 US. 271, 274, 21 L.Ed. 313 (1872), the U.S.
Supreme Court stated “ The note and mortgage are inseparable; the former as
essential, the latter as an incident. An assignment ofthe note carries the mortgage
with it, while assignment ofthe latter alone is a nullity. ”
An obligation can exist with or without security. With no security, the obligation
is unsecured but still valid. A security interest, however, cannot exist without an
underlying existing obligation. It is impossible to define security apart from its
relationship to the promise or obligation it secures. The obligation and the
security are commonly drafted as separate documents - typically a promissory
note and a Mortgage. If the creditor transfers the note but not the Mortgage, the
transferee receives a secured note; the security follows the note, legally if not
physically. If the transferee is given the Mortgage without the note
accompanying it, the transferee has no meaningful rights except the possibility of
legal action to compel the transferor to transfer the note as well, if such was the
agreement. (Kelley v. Upshaw 91952) 39 C.2d 179,246 P.2d 23; Polhemus v.
Trainer (1866) 30C 685).
“Where the mortgagee has “transferred” only the mortgage, the transaction is a nullity
and his “assignee” having received no interest in the underlying debt or obligation,
has a worthless piece of paper (4 Richard R. Powell), Powell on Real Property S
37.27 [2] (2000).
By statute, assignment of the mortgage carries with it the assignment of the debt...
Indeed, in the event that a mortgage loan somehow separates interests of the note and
the Mortgage, with the Mortgage lying with some independent entity, the mortgage
9
App.159

may become unenforceable. The practical effect of splitting the Mortgage from the
promissory note is to make it impossible for the holder of the note to foreclose, unless
the holder of the Mortgage is the agent of the holder of the note. Without the agency
relationship, the person holding only the trust will never experience default because
only the holder of the note is entitled to payment of the underlying obligation. The
mortgage loan becomes ineffectual when the note holder did not also hold the
Mortgage.”
Thus, Hampton’s claim to no one having a right to foreclose, where MERS assigned the
DOT to 8ANA when it should have assigned to Fannie Mae and then Fannie Mae could
have assigned servicing to BANA. Here there has been a patently clear separation of the
Note and the Mortgage, making a nullity out of the latter. And further, the Note has lost its
security of the DOT, and thus, no Noteholder has a right to foreclose.
This Court on Appeal, should have consulted with the transcript as well as Hampton’s
Motion for Reconsideration and Memorandum in Support of Motion for Reconsideration, also
provided herein, that states in detail why Judge Irby’s rulings “failed to consider or
misinterpreted as to some of the evidence submitted supporting Plaintiffs allegations.”
This Court should have never considered Demurrers herein, where the prior Demurrers
never addressed all applicable issues, nor did the court rule on those issues or claims, and further
misinterpreted most of the evidence thereto, and no res judicata or other doctrine should apply,
as never ruled on specifically to this Unlawful Detainer, nor the underlying Wrongful
Foreclosure therein.
How can this court turn a blind eye to the wrongful foreclosure and the Deeds which
should be voided regarding the same, particularly with the evidence which proves the same?
Again, this court has denied Hampton her due process rights to her 3-day trial by Jury
this week, where it is believed by the end of the same, Hampton would have proven by a
preponderance of evidence that PROF has never been entitled to the remedy of foreclosure, since
10

App. 160

at no point in time were they secured by the DOT, and as no right to Assign a Substitute Trustee
and proceed with a foreclosure action had accrued, and thus was a “wrongful” foreclosure,
particularly since Hampton had filed suit prior to the same to stop the same, and further not all
conditions precedent to the DOT were fulfilled prior to proceeding.
This Appeal scheduled for a three (3)-day Trial by Jury for October 21-23, 2019, which
was ordered on February 4, 2019, over eight months ago. Also ordered at that time was the
Uniform Pretrial Scheduling Order setting Pretrial Conference for September 20, 2019, and the
following orders applied:
“V. Dispositive Motions: All dispositive motions shall be presented to the court for
hearing as far in advance of the trial date as practical. All counsel of record
are
encouraged to bring on for hearing all demurrers, special pleas, motions for summary
judgment or other dispositive motions 60 days after being filed.”
PROF had more than ample time to bring on any dispositive motions “as far in advance of the
trial date as practical,” since February 4, 2019, wherein the Uniform Pretrial Scheduling Order
was set, and should have further done so prior to and concluded by the Pretrial Conference date
of September 20, 2019.
“VII. Pretrial Conferences: Pursuant to Rule 4:13 of the Rules of the Supreme Court of
Virginia, when requested by any party or upon its own motion, the court may order a
pretrial conference wherein motions in limine, settlement discussions or other
pretrial motions which may aid in the disposition of this action can be heard.”
Again PROF’s motions should have been brought on earlier and disposed of or concluded by
Pretrial Conference.
VIII- Motions In Limine: Absent leave of court, any motion in limine which requires
argument exceeding five minutes shall be duly noticed and heard before the day of trial.”
Again, see VII above “wherein motions in limine, settlement discussions or other pretrial
motions which may aid in the disposition of this action can be heard.”
11

App.161

Hampton had hoped that as a dispositive matter, her Motion to Dismiss might be
considered at the Pretrial Conference. However, at that Pretrial Conference, the Honorable Judge
Sincavage advised that would be unfair notice to PROF and, after consulting with counsel on
time needed to respond, set September 27, 2019, as a response date for PROF s reply thereto,
one week before the hearing on the same October 4, 2019. Judge Sincavage also advised both
Hampton and counsel that two motions could not be heard on the same day, and since
Hampton’s Motion to Dismiss took priority, she left it on the motions hearing date of October 4,
2019. Further to this, Hampton’s Motion to Compel Discovery had to be dismissed for motions
day of October 4, 2019, and re-praeciped for scheduling date of September 30, 2019, which
motion was particularly in response to PROF’s answers to Discovery Requests, and which
Hampton needed in order to aid her in preparation for trial.
On September 30, 2019, the hearing for the Motion to Compel Discovery was set for
Tuesday, October 15, 2019, less than a week before trial. Had both motions been heard on
October 4, 2019, Hampton might have been afforded those Discovery Requests to aid her in
preparation for trial and where the court found Hampton could have subpoenaed witnesses and
documents, but October 15, 2019, was not within the required ten day time limit to issue
subpoenas, thus not ample time for trial.
The first dispositive motions, Motion for Summary Judgment and Renewed Demurrer to
Hampton's Counterclaim, were both filed on September 20, 2019, on the day of Pretrial
Conference (held one month before trial), and both of which were praeciped for scheduling on
September 30, 2019. At the scheduling hearing, Judge Irby, after setting Hampton’s Motion to
Compel Discovery for October 15, 2019, indicated that there was no space on the docket to hear
PROF’S motions before trial. Hampton also brought up the fact that Judge Sincavage had

12
App.162

informed both Hampton and counsel that two motions could not be heard on one day, but Judge
Irby said otherwise and, after questioning counsel on the Renewed Demurrer (which did not exist
as renewed in this case) and realizing it was a Demurrer to the former case heard and ruled on by
Judge Irby and dismissed on Demurrer, Judge Irby found a 45-minute slot on October 18, 2019,
to hear both the Motion for Summary Judgment and the Renewed Demurrer, and giving Hampton
until October 11, 2019, for her replies to both. On this same scheduling date, September 30,
2019, PROF filed their Motion in Limine with their Praecipe for scheduling docket for October
7, 2019 (one week later), and at that scheduling docket, Judge Irby scheduled the Motion in
Limine to be heard on October 15, 2019, on the same hearing date of Hampton’s Motion to
Compel Discovery.
So here Judge Irby had scheduled two motions together, twice, and all four motions
to be heard within four days of each other, and regardless of their late filings, and right
before a Trial by Jury, where time should be spent on preparation for the Trial. And if
Hampton wanted to respond to this late Motion in Limine, she was not afforded any “fair”
time to do so. The Clerk’s office informed Hampton that in order for her response to be
considered at that hearing date on October 15, 2019, Hampton would have to file the same
within four (4) days or by October 11, 2019, together with her other two responses that
were due by that date. It is not believed that this is “fair process” and Judge Irby, who has
been disqualified under Rule 2:11 as to any hearings, acted with prejudice therein.
All three of PROF’s motions were not only “not timely filed,” but could have and should
have been filed months ago, as claimed “dispositive,” possibly even eliminating the time needed
for Pretrial Conference, Discovery Requests, etc., should they succeed; and it is believed that the
same was only brought on because of Hampton’s Discovery Requests, and the Motion in Limine

13

App. 163

brought on further by Hampton’s Responses io PROF’s Discovery Requests. It is quite obvious
that counsel sought to make this case solely upon the Unlawful Detainer and their limited proof
as to having a right to possession and wished to dismiss all of Hampton’s evidence and
witnesses, which can prove otherwise. Hampton should have been entitled to a fair trial and the
right to present her evidence and witnesses to the jury, and none of those motions should have
survived Hampton’s Constitutional Rights to Due Process.
Further, just because Hampton’s Petition before the United States Supreme Court, was
denied, as being part of the 99% which does not get accepted, this was not an affirmation of the
lower court’s decision, as counsel would have you believe. Hampton’s Petition before this
highest court was based on her Constitutional Rights to defend her property from the “unlawful
taking” of the same without Due Process. And to date, no court has afforded her the same,
since her earlier Complaints were Dismissed on Demurrers and Pleas in Bar as to “finding
no cause of action, insufficiently pled as to fraud, and finding no cognizable claim, and
barred by the Statute of Limitations.” That judgment never addressed the merits of the
case, nor the evidence that supported them. And, in fact, there was no Trial, no Discovery, no
witnesses examined and/or cross-examined, just a hearing where the Honorable Judge Jeanette
A. Irby found in favor of PROF and the other Defendants (predecessors to PROF), and where
Hampton’s objection to that ruling in the Order, stated clearly “... the dismissal of the claim is
a material injury constituting a deprivation of Plaintiff’s right to procedural due process.”
Addressing this court’s decision to grant summary judgment on PROF’s Motion for
Summary Judgment and Renewed Demurrer to Counterclaim, Hampton repeats that PROF is not
entitled to judgment where “summary judgment shall not be entered if any material fact is
genuinely in dispute.” (Rule 3:20) Clearly, there is a “preponderance of evidence” that material

14

App.164

facts were genuinely in dispute as to the Assignment of the DOT and the Deed of Foreclosure,
and as can be seen from Hampton’s Responses to Requests for Admissions, where clearly she has
disputed and has not admitted to any material facts that would permit summary judgment
to PROF.
It should be noted here from page 4 of Hampton’s Admissions that she denies any
allegations as to the “accuracy” of Exhibit A, the Deed of Foreclosure ... “Hampton will
admit that SIW has altered the property description in the Deed ofForeclosure from that of the
Deed of Trust, which is to be stated verbatim.” This should be considered as a facially-invalid
title and certainly Hampton challenged it on the same.
In further support as to PROF not being entitled to summary judgment, Hampton
submitted PROF’s Responses to Hampton's Requests for Admissions, together with the Exhibits
referenced therein, and wherein it should have been clear to this court that they denied all
allegations as stated and demanded strict proof thereof, which Hampton was prepared to do at the
trial by jury.
Although, Hampton believed all PROF’s responses to admission should be read, she
directed attention to admission 13, on page 10, Exhibit M, again as to their Deed of Foreclosure
to PROF ... “that SIW has altered the property description from that of the DOT, which is to be
stated verbatim, and has done so with the knowledge and its own approval to a “Corrective
Affidavit” which “was” to be filed/recorded ... to correct the property description creating a
“Cloud on Title,” ... further needed Defendant’s approval.” Where PROF’s response is
“Plaintiff lacks present sufficient knowledge, information, and belief to respond as to
allegations regarding same, and as such, denied the same and demands strict proof thereof.
... denies any title defects and/or clouds on title and the germaneness of same to this

15

App.165

possession suit in the eviction appeal and demands strict proof thereof.” Hampton again was
prepared to prove the same at trial, and these combined suits were not limited to possession, nor
had anything on the merits of Hampton’s allegations ever been “actually” litigated or ruled on
the “merits” in any prior case.
Turning to admission 9, on page 7, Exhibit I, again as to SIW’s Assignment of Deed of
Trust dated December 17, 2015, filed electronically and recorded in the public land records of
Loudoun County Circuit Court on December 28, 2015, ... whereby Bank of America, N.A.
grants, conveys, assigns to PROF all beneficial interest under that certain DOT executed by
Defendant ... with an invalid description of the property, ... TOGETHER with the note or
notes therein described and secured thereby. Said Assignment of DOT was prepared by PROF,
but returned to Avenue 365. To which PROF responds
themselves

legal instruments speak for

all contrary allegations are denied thereto and strict proof is demanded

thereof.... the Substitution of Trustee instrument and Limited Power of Attorney are legal
instruments that speak for themselves.” Hampton again was prepared to prove the same at
trial, and even further to this Assignment of DOT, the document contained an incorrect pin
no. in addition to the “bogus” description, which by virtue of those facts alone should be
considered as a facially-invalid title, and Hampton challenged it on the same, as well as
challenging this Assignment which was filed 21 days after foreclosure, evidencing that PROF
had not been previously secured by the DOT and had no power to Substitute a Trustee
(Exhibit E), nor were they permitted to exercise the remedy of foreclosure, when they did
so.
Further, to Hampton’s claim was Exhibit J, the Limited Power of Attorney from BANA
to Avenue 365 under the terms of sale of Hampton’s loan to PRMF Acquisition LLC resulting

16

App.166

from an auction on June 19, 2019, thus concealing true ownership of said loan and evidence
that the wrong party proceeded with the SOT and foreclosure proceeding/Trustee Sale.
Here is where true evidence of collusion appears, where the loan was sold, but yet Fay on
behalf of PROF and SIW file a SOT without any power to do so, and where that power had
been sold to PRMF, and where neither BANA nor the “concealed” PRMF assign that power to
PROF, until after the foreclosure (filed 21 days later).
Accordingly, what Hampton has raised herein is that PROF was not entitled to
possession, as they were never secured by the DOT, were not permitted to Assign a Trustee and
exercise the power of foreclosure and, at the time they did so, were no longer the owner of the
Note and further the subsequent Assignment of the DOT to PROF from BANA and the Deed of
Foreclosure are facially invalid, as well.
Repeating here from Hampton’s Response as to resjudicata, etc.:
“Further, to correct counsel on *ts position as this matter having been litigated
fully and exhaustively through companion or corollary affirmative litigation, even to the
Highest Court of the Land, counsel deceives this court with their claims under
res
judicata, issue preclusion, collateral estoppels, and judicial economy, where at
no time
was Hampton’s prior case heard on the merits, nor “actually” litigated and “tried” on
the merits, as apparently none of the defendants could find a cause of action to
defend, could find no fraud pled with specificity, could not find a cognizable claim,
and nearly all counts were barred by the statute of limitations, and Judge Irby ruled
the same.
Here, on PROF’s motion for summary judgment, page 10, states that Judge Irby’s
Final Order after the exhaustive four (4)-hour Demurrer hearing conclusively and readily
demonstrates that Hampton’s title-attacking claims failed to meet the Parrish threshold
and survive a demurrer by the Defendants, to which Hampton says is totally bogu_ ___
s as
the hearing was forty-eight (48) minutes long and never addressed Parrish therein,
and again was dismissed as to not finding a cause of action, nor a cognizable claim,
nor fraud pled with specificity, and further Count XII on the Unlawful Detainer was
never addressed by defendants, particularly PROF as it only applied to them , nor
ruled on by Judge Irby, but all counts were dismissed with prejudice as prompted
by counsel as “a final housekeeping note.”

17

App. 167

Obviously, in the courts final ruling, “the complaint failed to meet the pleadings
standard; was unable to find a cause of action; being exhaustively litigated for a number
of years (13 months and 3 months offiling the COMBINED 2nd amended complaint);
where foreclosure [wrongful] had concluded; and was an inappropriate use of court’s and
parties’ resources.” How could this court conclude such as a fair trial? ... “that parties be
allowed opportunity to know opposing parties’ claims, to present evidence to support
their contentions, and to cross-examine opposing parties’ witnesses, but strict adherence
to common law rules of evidence at hearing is not required.” (quoting Hornsby v. Allen,
326 F.2d 605)
The circuit court should have found predatory lending, a void ab initio Deed of
Trust and the “Cloud on Title” evident requiring a “Corrective Affidavit,” and clearly
with the violation of the Consent Orders, HUD requirements, and breaches of the DOT, a
“wrongful foreclosure” had occurred and, more particularly, Hampton had exercised her
rights to file suit before the same challenging the foreclosure, which Plaintiff and SIW
ignored.
As stated on p25 of Hampton’s Petition before the Supreme Court of Virginia and
further to Hornsby v. Allen:
“The role of the courts is to ascertain the manner in which this determination was
or is made accords with constitutional standards of due process and equal
protection.” And “It follows that the trial court must entertain the suit and
determine the truth of the allegations.”
The integrity of the rule of law is at stake, as the most basic of our due process
rights are involved.
It is a fundamental principle that one has the right to protect his or her property
from its unlawful taking by another. Consistent with the US Constitution, the Virginia
Constitution states that “no person shall be deprived of his life, liberty, or property
without due process of law.” The federal government, the states, and the courts of all
levels, are tasked with the daunting task of protecting the property rights of citizens
from theft, conversion, fraud, and otherwise unlawful “takings.” That earlier case
was a civil action to protect Hampton’s property rights from the unlawful taking of those
rights by either Bank Defendants or Trust Defendants, but Hampton never experienced
any protections of the law, since her Complaint was dismissed on Demurrer without
determining the truths of the allegations and nothing was ruled on any merits, (emphasis
added)

Hampton has challenged all Assignments on record and particularly the Deed of
Trust as being void ab initio, and challenged the foreclosure first warning of the same vh
her Loss Mitigation Specialist, Jeffrey Burch’s December 3, 2015, “Cease & Desist
18

App.168

letter (Exhibit G attached) to both SIW and Fay Servicing, and when it became obvious
that they would not Cease & Desist the foreclosure, Hampton filed suit in US District
Court to stop the same on December 4, 2015. SIW ignored this case filing and foreclosed,
in violation of and breach of the DOT as to not fulfilling all conditions precedent as
required, and as found in Virginia Supreme Court ruling in Mathews v. PHH Mortgage
Corp., 724 S.E.2d 196 (Va., 2012).
Further repeating: Hampton has raised the fact that SIW has abused their fiduciary duties,
where Hampton filed suit against PROF and others December 4, 2015, prior to foreclosure on
December 7, 2015, challenging foreclosure, which SIW ignored; in addition to improper notices
to foreclosures; invalid 404 notice; failure to send Default Letter; breaches to the DOT as not all
conditions precedent met, including HUD violations, and violations of “Consent Order” with
OCC/US Treasury; improper or voidable Assignments; wrong party proceeding with
foreclosure; despite a known “Cloud on Title” requiring a “Corrective Affidavit;” and despite a
Cease & Desist Letter from Hampton’s Loss Mitigation Specialist, including Highlights from a
Bloomberg Audit, demonstrating why the initial assignment of the DOT to BANA failed as a
valid instrument.
That based on the violation of not conducting the HUD face-to-face meeting alone,
Hampton should have survived earlier and should have survived herein any Demurrer. And
further to the National

Mortgage Settlement (NMS), “The banks have agreed to major

reforms ... borrowers will have the right to see all of their loan documents to make sure
any potential foreclosure is legal” (taken from page 9 of the NMS). Clearly, PROF (nor
BANA) have ever complied with this major reform, but should have done so.
Addressing further those dispositive motions, under the doctrine of res judicata, “[a]
party whose claim for relief arising from identified conduct, a transaction, or an occurrence, is
decided on the merits by a final judgment, shall be forever barred from prosecuting any

19

App. 169

second or subsequent civil action against the same opposing party or parties (this is reference to
individual persons not entities) on any claim or cause of action that arises from that same
conduct, transaction or occurrence, whether or not the legal theory or rights asserted in the
second or subsequent action were raised in the prior lawsuit...” This argument cannot apply to a
case dismissed on Demurrer that could find “no cause of action, no cognizable claim, not pled
fraud with specificity, or barred by the statute of limitations,” which was never decided on the
merits by a final judgment, and further those issues were never “actually” litigated, since they
were dismissed on Demurrer before any actual discovery was permitted.
Since Judge Welsh in the General District Court ruled in favor of PROF, moving on their
earlier dismissed Summary Judgment, and without considering Hampton’s response thereto, it
became necessary for Hampton to file an appeal to protect her rights from the Unlawful
Taking” by PROF, in violation of her Constitutional Rights, and she was informed by Judge
Welsh, that both the Unlawful Detainer and the Counterclaim had to be appealed together.
As previously argued, Hampton considered any imposed bond unfair, since she too has
her own damages, where she has not been afforded the benefits of loan payments against her
taxes for ten years; has been forced into bankruptcy several times (once on Bank of America’s
requirement for the HAMP modification/twice on stopping foreclosures); has had to pay higher
pnces on all lines of credit and insurance; has been deprived of her right to quiet title, which the
Deed of Trust is purported to give; where she has been damaged further by the unlawful detainer
suits; where these losses have spanned a period of ten years, not to mention the Predatory loans
and the cost of the same.
Still further Hampton has had to go to the expense of these continued litigations, and
prior cost of attorneys, loss mitigation specialists, bankruptcy attorneys, auditors, courts, printing

20

App.170

and, in general, deprived of seeking employment or furthering her desire to start a healing
practice; open her doors to veterans; and lacks time to further volunteering with Wounded
Warriors and Sanctuary on the Trail, in Bluemont, which is how Hampton would like to retire.
This state of never knowing what is next, and continually having to fight for her rights, take a
real toll on Hampton’s quality of life.
Plaintiff (and all predecessors) could have and should have offered the HAMP
modification, for had they done so according to the Independent Foreclosure Review Remedies,
there would never have been a need for litigation. Where it was the banks, including PROF/US
Bank s, obligation to fulfill the remedies of the IFR Remediation Framework and offer the
HAMP, as it should have been offered ten (10) years ago - that is, a new loan that starts all over
again, and based on the terms when they should have offered it. The banks/PROF at any time
could have had a working loan, but choose instead to “unlawfully take” Hampton’s property.
Hampton believed in the success of her case herein and, particularly since she would
finally have a court of record trial by jury, with the court’s and jurists’ findings ofjustice on the
“merits” of her case; and further believed that by October 23, 2019, this case would finally be
put to rest in Hampton’s favor.
PROF has deceived this court at every level of these procedures, because they knew with
the “truth of the allegations” and the supporting evidence, they could not possibly win at trial by
jury — thus the last minute dispositive motions, which were clearly in response to Hampton’s
Discovery Requests, of record herein, which also should have been fully read.
This court has found that Hampton, once again, did not survive either a Demurrer or res
judicata and it is hoped that, Your Honor, will read the attached transcript (at least to its rulings)
and accompanying Motion for Reconsideration and Memorandum in Support of in that prior

21

App. 171

case, and further determine that PROF has clearly misled this court as to those Demurrers and
resjudicata.
Hampton has unfairly been denied her rights to present her evidence to a “fair” trial, as
her “fair” trial by jury was cancelled as to those dispositive motions. Please tell me where is
there justice in this. This is clearly a violation of my Constitutional Rights to due process, since
no court has afforded the same.
Hampton has already been burdened with a bond, which will take her two more years to
pay off, and which should never have been imposed on her, and now this court is allowing
thieves to take her home of nearly twenty-five (25) years, and again, without due process.
Hampton should not have to Appeal again, but will and hopefully, with her pleadings and
evidence provided herein, the Supreme Court will remand the same, where she will be heard on
the “merits” with all of her evidence and witnesses permitted again before a trial by jury.
WHEREFORE, for all of the reasons stated above, and supported in the attachments
hereto, Hampton respectfully requests this Court’s Reconsideration, and to serve justice by either
placing this case back on the docket for a “fair” trial by jury and on its merits, or dismiss this
case without prejudice, which should have been done in the General District Court. PROF may
file their claim in Circuit Court or perhaps they will come to the settlement table as they should
have done ten (10) years ago. Hampton should not have to continue to defend her property from
the “Unlawful Taking” by PROF, in violation of her Constitutional Rights.
Respectfully submitted,

V <:>*£>

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

22

App. 172

CERTIFICATE OF SERVICE
I hereby certify that on October 25, 2019, a true copy of the foregoing Motion for
Reconsideration and. Supporting Memorandum of Lom> to the Honorable Stephen E. Sinccwage,
with attachments, is being sent via first class US Mail, postage prepaid to:
Appellee
Plaintiff/Counterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee

s-

Kathleen C. Hampton, Appellant pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042

23

App.173

STATE OF VIRGINIA
COUNTY OF LOUDOUN

CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Motion for Reconsideration and Supporting Memorandum of Law to the
Honorable Stephen E. Sincavage and it is true of my own knowledge, except as to those matters
stated on information or belief, and as to those matters, I believe it to be true.
I declare under penalty of perjury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: October 25, 2019

Kathleen C. Hampton, Appeljarft pro se
SWORN to and subscribed before me, this 25th day of October, 2019.

w
NOTARY

L
Mary E. McCauleyJ
Commonwealth of Virginia
Notary Public
Commission No. 'I166B3
My Commission Expires 1/31/2020

24

App. 174

My Commission Expires: U/X|\j <3/ 3, Peg\Q

c/c

VIRGINIA

JV
CyO

IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim
v.

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

/<9

'<v

A&

J?.

)
)
)
)
)
)
)

• .St

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim
)
)
)
)

DEFENDANT’S MOTION TO DISMISS
COMES NOW, Appellant/Defendant/Counterclaim Plaintiff, Kathleen C. Hampton
("Defendant” or “Hampton”), pursuant to the Rules ofSupreme Court of Virginia Rules 12(b)(1)
and 12(h)(3) and all other applicable statutory, common law,

and legal and equitable authorities,

to respectfully move this Court on Defendant s Motion to Dismiss, as this court lacks subjectmatter jurisdiction.
As was raised in the General District Court, in Parrish v. Federal National Mortgage
Association (292 Va. 44, 787 S.E.2d 116 (2016), the Supreme Court of Virginia held that “where
a borrower raises a bona fide question as to the validity of title in a case originally filed
General District Court (or subsequently appealed to the Circuit Court from th

in the

e General District

Court), the case must be dismissed without prejudice because the General District Court lacks
original subject matter jurisdiction to adjudicate the validity of title.”
1

App. 175

/
<

First, this is an Unlawful Detainer Appeal proceeding, where the Plaintiff does
not
possess and Hampton claims possession of property as a Constitutional Right from the “unlawful
taking” by PROF-2013-S3 Legal Title Trust and where the Plaintiff’s right of possession has
been disputed.
Second, this is also a combined suit where Hampton filed Counterclaims based
on the
“wrongful” foreclosure sale, an alleged “forged” Note, a material breach to the Deed of Trust
(DOT) thus Void Ab Initio, an invalid 404 Notice, improper notices to foreclosure, breaches to
the DOT as not all conditions precedent met, improper assignment to Substitution of Tmstee,
wrong party proceeding, a known “Cloud on Title,” in addition to filing suit challenging the
foreclosure prior to the foreclosure, and a multitude of other torts, including the validity of all
Deeds, Assignments (including challenging the initial Assignment signed by MERS), and all
such other records on file.
In addition to my case before the U.S. Supreme Court on my Constitutional Rights to
Due Process, set to go to Conference October 1st, Hampton has filed Complaints with the Office
of Attorney General, Predatory Lending Unit, with regard to her Predatory loans initiated
through Countrywide and taken over by BANA, who is under investigation, and both BANA and
US Bank (on behalf of its Trusts, including PROF) are under investigation in that office, with
regard to Hampton’s mortgage loan as to violations of the “Consent Judgment” on the National
Mortgage Settlement and the “Consent Orders” on the Independent Foreclosure Review with the
OCC/US Treasury.
The General District Court erred in judgment and award of possession and imposing an
$8,000 Appeal Bond on Hampton, where they should have dismissed the same in light of Parrish
and the fact that I had raised that case and “a bona fide dispute of title,” including its validity.

App. 176

WHEREFORE, for all of the reasons stated above, and in the hopes of being considered
at Pre-Trial Conference on October 20, 2019,

Defendant respectfully request this Court for an
°rder to Dismiss without prejudice, on the basis that the lower
court erred in making that
judgment, the award of possession be void, and Hampton’s Appeal Bond be
released to her, and
for any further award of reasonable
expenses incurred in this Appeal, which should never have
been imposed on Hampton, who is only hying to defend herself from the “

unlawful taking” of

her property by PROF.
Respectfully submitted,

--r

~

Kathleen C. Hampton, Appellant pro se
Defendant/Counterclaim Plaintiff

3

App. 177

CERTIFICATE OF SERVICE
I hereby certify that on September 18, 2019, a true copy of the foregoing Motion to
Dismiss is being sent via first class US Mail to and e-mailed to ll<im(5?siwpc.com for early
receipt:
Appellee
PlaintiffyCounterclaim Defendant
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counselfor PROF-2013-S3 Legal Title Trust,
by US Bank National Association, as Legal Title Trustee

Kathleen C. Hampton, AppellaSlfpro se
P.O. Box 154
Bluemont, Virginia 20135
540-554-2042

4

App. 178

STATE OF VIRGINIA
COUNTY OF LOUDOUN

CERTIFICATION
I, Kathleen C. Hampton, hereby certify that I am the Appellant in this action. I have read
the foregoing Motion to Dismiss and it is true of my own knowledge, except as to those matters
stated on information or belief, and as to those matters, I believe it to be true.
I declare under penalty of peijury under the laws of the Commonwealth of Virginia that
the foregoing is true and correct.
Date of execution: September 18,2019

Kathleen C. Hampton, AppellanfjSro se
SWORN to and subscribed before me, this 18th day of September, 2019.

d
NOTARY

My Commission Expires:

lilU
:?l

V\

5

App.179

4
*4

#6
Transcript of Hearing of
October 4, 2019

App.180

t

VIRGINIA
IN THE CIRCUIT COURT OF LOUDOUN COUNTY

PROF-2013-S3 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE
Appellee,
Plaintiff, Unlawful Detainer
Defendant, Counterclaim
v.

)
)
)
)
)
)
)

) CL00118604-00, Unlawful Detainer
) CL00118605-00, Counterclaim
)

KATHLEEN C. HAMPTON
Appellant, pro se
Defendant, Unlawful Detainer
Plaintiff, Counterclaim

)
)
)
)

,-«*v

App. 181

October 4, 2019
Leesburg, Virginia
Hearing before The Honorable Stephen E. Sincavage, Chief Justice at the Loudoun County
Circuit Court. 118 East Market Street, Leesburg, Virginia 20176 and were present on behalf of
the respective parties:

APPEARANCES:
On behalf of the Appellant:
Kathleen C. Hampton, pro se
P.O. Box 154
Bluemont, Virginia 20135 .

On behalf of the Appellees:
Daniel J Pesachowitz, Esq., standing in for
Lisa Hudson Kim, Esq.
SAMUEL I. WHITE, P.C.
5040 Corporate Woods Drive, Suite 120
Virginia Beach, Virginia 23462
Counsel for PROF-2013-S3 Legal Title Trust,
by U.S. Bank National Association, as Legal Title Trustee

App.182

r

?

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19
1

3

PROCEEDINGS

2
3

AUDIO 15:45:22

4
5

JUDGE SINCAVAGE: Hampton versus PROF-2013-S3. Good
afternoon.

6
7

MR. PESACHOWITZ: Good afternoon Your Honor. Daniel P. for
PROF-2013.

8

JUDGE SINCAVAGE: Yes sir.

9

MS. HAMPTON: Kathleen Hampton.

10

JUDGE SrNCAVAGE: Yes ma’am. I’d give each about ten minutes.

11

MR. PESACHOWITZ: And this is for Motion.

12

JUDGE SINCAVAGE: Yes. Alright go ahead Ms. Hampton

13

MS. HAMPTON: We are here on my Motion to Dismiss and I have

14

prepared a package which I think will help make it easier to follow along with. As further

15

evidence in support of my Motion to Dismiss I offer first my notes read at court 11-14-18

16

where I raised Parrish, as well as Ramos v. Wells Fargo Bank and Mathews v. PHH

17

Mortgage Corp. And where the General District Court should have dismissed without

18

prejudice this case. Here on Appeal, where again I have raised a bonafide question as to

19

the validity of title, the case must be dismissed without prejudice because the General

20

District Court lacks original subject matter jurisdiction to adjudicate the validity of title

21

and this court lacks subject matter jurisdiction on the trial... on Appeal. As to validity of

RACHEL L. BROWN TRANSCRIPTION

PO Box 1268, Leland, NC 28451

607-793-6589

App.183

s*

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

4

1

title I submit my, my copy of my reply to SCOTUS and direct your attention to particularly

2

the asterisk marked and also the Exhibits attached to it as well. On the bottom page of

3

number one... page one not only should a court of record find the Deed of Trust void ab

4

initio as it is, is evidenced in the Deed of Trust where under Code of Virginia Section 6.2-

5

1614 Prohibitions applicable to mortgage lenders and mortgage brokers. No mortgage

6

lender shall 1) Obtain any agreement or instrument in which blanks are left to be filled in

7

after execution and then 7) intentionally engage in the act or practice of refinancing a

8

mortgage loan within twelve months following the date the refinanced mortgage was

9

originated unless the refinancing is in the favor... is in the borrower’s best interest. Both

10

Exhibit A and Exhibit B... Exhibit B is the second page. It’s just the first page of the Deed

11

of Trust it is obvious here that at the time of signing the same the blank spaces were a

12

violation of that code. Blank space with blanks referred to page numbers of the re-financed

13

subprime loans and were never filled in thereafter and in fact, they were struck through.

14

This is evident on 6A as if it were not a re-finance, concealing the fact that Countrywide

15

was not entitled to a prepayment penalty for an in-house refinance. In addition to the fraud

16

and deceit in recorded documentation with the Clerk’s Office here regarding HSBC in, in

17

further support of Hampton’s claim to a void ab initio Deed of... Deed of Trust. Notable

18

also is this refinance was done within eleven months and not in Hampton’s best interest

19

since it was set to fail as clearly it was unaffordable. In addition her loan increased by

20

nearly seventeen thousand dollars ($17,000) for a re-finance recorded not as a re-finance

21

and without cash out. Continuing from page three in the extract portion this:.. The parties

RACHEL L. BROWN TRANSCRIPTION

App.184

PO Box 1268, Leland, NC 28451

607-793-6589

V

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
. CONDUCTED ON 10/4/19
* fsecured by the Deed of Trust shall have the right and power to

5

appoint a substitute trustee

2

or trustees. The instrument of appointment shall be recorded in the Office of the Clerk

3

wherein the original Deed of Trust is recorded prior to or at the time of recordation of any

4

instrument in which a power of right authority or duty conferred by the original Deed of

5

Trust is exercised. And on Exhibit 54 the substitution of the Trustee here PROF appointed

6

a substitute Trustee while it no longer owned the loan as it had been sold to PRMF

7

Acquisitions on June 19, 2015. An exercised a power of right, authority or duty conferred

8

by the original Deed of Trust without being assigned the same or recording the same in the

9

Office of the Clerk where the original Deed of Trust was recorded. This is but one merit

10

to Hampton’s case that was pled and judicially noticed. Thus the wrong party appointed a

11

substitute Trustee and could not make claim to being secured by the Deed of Trust nor hac

12

an assignment of the Deed of Trust been made to them prior to exercising foreclosure.

13

Where further shown in the Bloomberg Audit Reports highlights taken from pages 24

14

through 31 of the second amended complaint that the Plaintiffs have submitted herein, I

15

don’t know if you’ve had an opportunity to review any of that. At the bottom of page three

16

Bloomberg Loan Securitization Audit Report Highlights and referring to the first

17

assignment of the Deed of Trust, Exhibit 27 filed six years after the loan. Number 1) There

18

is no evidence on record to indicate that the mortgage was ever transferred concurrently

19

with the purported legal transfer of the note. Such that the mortgage and the note has been

20

irrevocably separated thus making a nullity out of the purported security in a property as

21

claimed. Continuing on page 4 Although MERS records an assignment in the real property

RACHEL L. BROWN TRANSCRIPTION

PO Box 1268, Leiand, NC 28451

607-793-6589
App. 185

••f

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

6

1

records the promissory note which creates the legal obligation to repay the debt has not

2

been transferred nor negotiated by MERS. MERS is not a party to the alleged mortgage

3

indebtedness underlying the security instrument for which it serves as nominee.

4

Carpenter v. Longan the United... the US Supreme Court stated the note and mortgage are

5

inseparable. The former as essential, the latter as an incident. An assignment of the note

6

carries the mortgage with it while assignment of the latter alone is a nullity. Where the

7

mortgagee has transferred only the mortgage, the transaction is a nullity and his assignee

3

having received no interest in the underlying debt or obligation has a worthless piece of

9

paper. That’s citing from Powell on real property. The mortgage loan becomes ineffectual

10

when a noteholder did not also hold the mortgage. Thus Hampton’s claim to no one having

11

a right to foreclose. This is precisely what can be seen in the assignment from MERS to

12

BANA where the mortgage loan becomes ineffectual when a noteholder does not also hold

13

the mortgage. Accordingly a court of record should also find that no one had a right to

14

foreclose since the Deed of Trust is secured to the note by assignment had separated there

15

from. When MERS assignments don’t transfer the loan which MERS itself say they don’t

16

then nothing was assigned as you can’t assign the Deed of Trust without the note. This

17

should be sufficient evidence all previously submitted and plead but never previously

18

actually tried. But if this isn’t enough evidence for this court I have more. This court per

19

Parrish should dismiss this case because the General District Court had no jurisdiction to

20

try title and neither does the Circuit Court on Appeal from the GDC. PROF was filed...

21

refiled in Circuit Court where as a Defendant I will defend my property rights and where I

RACHEL L. BROWN TRANSCRIPTION

App.186

PO Box 1268, Leland, NC 28451

In

607-793-6589

V.

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

7

1

should be afforded a fair trial on the merits of my case. And where the foreclosure sale has

2

yet to be actually litigated or tried on the merits but only previously been dismissed on

3

Demurrers with prejudice. Of course SCOTUS could put an end to all of this should they

4

accept my petition therein but as I am sure you are aware they only hear about one percent

5

(1%) of the cases submitted. Still I am hopeful that I am in that one percent (1%). On stil

6

another note as to PROF’s opposition to this dismissal on page 3 footnote 11 have no idea

7

where counsel ever came up with the idea of that, quote “The parties agree upon present

8

knowledge, information, and belief that if the US Supreme Court defeats Hampton’s

9

Appeal, she has no further grounds available to challenge this eviction proceeding.” For if

10

this Appeal proceeds to an unfair trial not on the merits as in my evidence, as they seem to

11

want it to continue without my evidence, I shall continue to Appeal until my case is heard

12

fairly on its merits. There is no end that I will not go to, to defend my Constitutional Rights

13

to protect my property from the unlawful taking of the same by anyone without due process.

14

Also to date the parties have not agreed on anything and to the contrary, it was through

15

PROF’s responses to admissions and interrogatories that I realized they would obstruct

16

justice by not allowing my evidence, witnesses, etc. As can be clearly seen by the multiple

17

untimely filed dispositive motions filed to favor them and to be heard in two weeks from

18

today. Right before the trial on Monday. Appellant respectfully requests this Honorable

19

court grant my Motion to Dismiss.

20

JUDGE SINCAVAGE: Alright thank you. Response.

21

MR. PESACHOWITZ: Your Honor the claims that she’s asserting have

RACHEL L. BROWN TRANSCRIPTION

POBox 1268, Leland,NC 28451

607-793-6589

App.187

V.

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

8

1

already been determined by this Court and don’t survive a Demurrer. In fact they were...

2

the Demurrer was granted and the Parrish stand for the proposition that the Parrish case

3

stand for the proposition that the General District doesn’t have jurisdiction if the defendant

4

raises an attack to title that is bon... that’s a bonafide attack. This court’s already

5

determined in the case that she... in the insular case that it didn’t survive her Demurrer.

6

And it didn’t survive her Demurrer. It was appealed through the Virginia Supreme Court.

7

The Supreme Court didn’t... the Supreme Court affirmed it or didn’t take... didn’t take

8

it... didn’t grant (inaudible) and then it’s been appealed now to the Supreme Court but it’s

9

always been determined that her, her claims are not a bonafide attack on title and it can’t

10

survive a Demurrer and that’s just what Parrish said. If you can’t survive a Demurrer it’s

11

not an attack on title. So for those... For that reason her, her Motion to Dismiss should be

12

denied. We should proceed with trial.

13
14

JUDGE SINCAVAGE: Alright thank you. I’ll give you a couple minutes
to respond if you wish Ms. Hampton

15

MS. HAMPTON: I do have a response to that. As to my pending Appeal

16

before the Supreme Court of the United States my primary claim has to do with my

17

Constitutional Rights to due process. And to date no court has afforded me the same. So

18

if my earlier complaints were dismissed on Demurrers and pleas in barr as to finding no

19

cause of action, insufficiently pled as to fraud and finding no cognizable claim and by, by

20

the statute of limitations. Those judgements never addressed the merits of the case nor the

21

evidence that supported them and in fact there was no trial, no discovery, no witnesses

RACHEL L. BROWN TRANSCRIPTION
App.188

PO Box 1268, Leland,NC 28451

607-793-6589

sr

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

9

1

examined and/or cross examined just the hearing where the Honorable Judge Jeannette A.

2

Irby found in favor of PROF and the other defendants, predecessors to PROF where

3

Hampton’s objection to that ruling in the Order stated objected to per the result of

4

Plaintiff s inability to obtain the information necessary to satisfy the stringent requirements

5

of Rule 9B, the dismissal of the claim is material injury constituting a depravation of

6

Plaintiffs right to procedural due process. The Supreme Court of Virginia did not address

7

the due process errors but denied the Petition on finding no error on the Judgment

8

complained of.

9

hearing. Thus the due process case before SCOTUS. So anything that has to do with Res

10

judicata, collateral estop was plain and issued completion. None of that should apply here

11

because none of the merits have ever been tried on my case. As I have just presented to

12

you as well. But the basics of, of why this case should be dismissed.

And refused Petition and further denied Hampton’s Petition for a re-

13

JUDGE SINCAVAGE: Thank you.

14

16:00:31 - 16:28:42 PAUSE (Side conversations)

15

JUDGE SINCAVAGE: (Inaudible) for your patience. We’ll start with

16

this. In looking at the, the Motion that’s before the Court, the Motion to Dismiss filed

17

on September 18th. What Ms. Hampton has asked the court to do... request the court for

18

an Order to Dismiss without prejudice on the basis that the lower court erred in making

19

that judgment. And then she asked for the repossession to be void and the Appeal Bond

20

to be released and so on, and so forth. This court does not sit in review of the General

21

District Court so it’s ineffectual to ask this court to find the General District Court erred.

RACHEL L. BROWN TRANSCRIPTION

PO Box 1268, Leland,NC 28451

607-793-6589
App.189

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19

10

1

Which is essentially asking the court to do here. And I think the Motion could be denied

2

on that basis alone but Til go a little bit further. I do find that under the rules of Parrish

3

that the burden that is Ms. Hampton’s to establish, a bonafide question of title to Parrish

4

which invokes a Demurrer standard as the threshold for a bonafide claim. That the ones

5

brought in these combined actions 118604 and 118605 are in substance the same as the

6

claim brought in 98163 which were found to be insufficient to survive Demurrer. And

7

that the court has not been persuaded how the claims in this case are additionally down

8

the road as sufficiency to survive a Demurrer standard and the Parrish requirements. So

9

for those reasons I have denied the Motion to Dismiss. I’ll note your exception.

10

Counsel will you draft an Order consistent with the court’s ruling?

11

MR. PESACHOWITZ: Certainly Your Honor.

12

JUDGE SINCAVAGE: Alright thank you. (Side conversations)

13

COURT ATTENDANT: All rise. The court is in recess.

14

AUDIO 16:31:38 - END OF HEARING

15
16
17
18
19
20
21

RACHEL L. BROWN TRANSCRIPTION
App.190

PO Box 1268, Leiand, NC 28451

607-793-6589

■J
V

PROF-2013-S3 LEGAL TITLE TRUST v. KATHLEEN C. HAMPTON
CONDUCTED ON 10/4/19
1

11

I, RACHEL L. BROWN do hereby certify that these proceedings were

2

recorded by the Loudoun County Circuit Court at the time and place herein set out, and

3

the proceedings were transcribed by me from an audio file and this transcript is a true

4

record of the proceedings.

5

6

I further certify that I am not of counsel to any of the parties, nor an

7

employee of counsel nor related to any of the parties, nor in any way interested in the

8

outcome of this action.

9
10

RACHEL L. BROWN

11
12

North Carolina - Brunswick County

13

I

14

hereby certify that

15

and acknowledged the due execution of the foregoing instrument.

r> Mn

a Notary Public for said County and State do

RACHEL L. BROWN

personally appeared before me this day

16
17

Witness my hand and official seal this 'Tjj?

day of

,2020.

18

A

19

Notary Public^^Viyn^^'

20

%
~

%
2

21

<4

RACHEL L. BROWN TRANSCRIPTION

PO Box 1268, Leland, NC 28451

607-793-6589
App.191

\

10-4-19 Exhibits/Documents given to Court
A copy of Hampton’s Notes, as read, to the General District Court November 14,
First:
2018, in the Unlawful Detainer suit & Counterclaim, which resulted in the Appeal to the Circuit
Court.
Hampton’s Reply Brief to SCOTUS dated September 25, 2019 (recited portions
Second:
in Hampton’s Notes), together with the following Exhibits:
From Hampton’s Amended List of Exhibits: A copy of the first page of the Deed
Exhibit 5:
of Trust from the Countrywide refinance, filed in the County Register June 14, 2006, as
instrument no. 20060614-0052490, showing the strick-out copy re re-finance (ie, alteration after
Hampton’s signing of the DOT). This exhibit 5 previously identified as Exhibit 6-A (CL98163)
and identified in Hampton’s Request for Admissions as Exhibit A;
From Hampton’s Amended List of Exhibits: A copy of Hampton’s first page of
Exhibit 6:
the Deed of Trust, as signed, showing open spaces to be filled in later with the re-finance
information of the two prior predatory loans. This exhibit 6 previously identified as Exhibit 6-B
(CL98163) and identified in Hampton’s Request for Admissions as Exhibit A;
From Hampton’s Amended List of Exhibits: A copy of the Substitution of
Exhibit 22:
Trustee from PROF to White filed electronically November 10, 2015, and identified as
instrument no. 20151110-0074973. This exhibit 22 previously identified as Exhibit 54
(CL98163) and identified in Hampton’s Request for Admissions as Exhibit E;
From Hampton’s Amended List of Exhibits: A copy of the Limited Power of
Exhibit 34:
Attorney from BANA to Avenue 365 Lender Services, LLC, relating to BANA’s sale of
Hampton’s Mortgage Loan Purchase as sold June 19, 2015, to PRMF Acquisitions LLC,
recorded in the Maricopa County Recorder on August 26, 2015, as instruction no. 20150617207.
This exhibit 34 previously identified as #4 Request for Judicial Notice (CL98163) and identified
in Hampton’s Request for Admissions as Exhibit J;
From Hampton’s Amended List of Exhibits: A copy of the Notice of Assignment
Exhibit 12:
of the Deed of Trust from MERS to BofA, filed in the County Register March 30, 2012, as
instrument no. 20120330-0023523. This exhibit 12 previously identified as Exhibit 27
(CL98163) and identified in Hampton’s Request for Admissions as Exhibit B.

App. 192

1-'
NOTES FOR GEN. DISTR. CT. 11-14-18

JT

s? //

/& y%mOJ

Your honoi/this is tire 12th time that I have appeared in this court over what I consider to be a
f
“Wrongful” Unlawful Detainer, where I have called into question not only the validity of the
foreclosure, but the validity of the Deed of Foreclosure and all Assignments leading up to it.
including tire Deed of Trust, and PROF:s claim to my property by Wrongful Foreclosure
conducted Dec. 7,2015, where I had already challenged that foreclosure via filing suit Dec. 4.
2015, prior to that foreclosure, where SIW on behalf of PROF should have been barred from
proceeding.
As pled before the Supreme Court 10-16-18, the Circuit Court should have found predatory
lending, a void ab initio Deed ofTrust and the “Cloud on Title” evident requiring a “Corrective
Affidavit” and clearly with the violation of the Consent Orders with the OCC/US Treasury', a
“wrongful foreclosure” had occurred and, more particularly, I had exercised my rights to file suit
•-S.

before the same challenging the foreclosure, which SIW on behalf of Fay/PROF ignored. $ did
. just yesterday receive the initial refusal from the Supreme Court of Va. to which I shall file my

)

\ Petition for RehearingTFrom a conversation with Doug Roubelin, Deputy Clerk of that Court. I
have been advised that these initial refusals are common and thus a Petition for Rehearing is
permitted to spell out to the court with more specificity the reversible errors. (OFFER ATX)
In addition to the continuance of my Petition for Rehearing, should the Supreme Ct of Va. still
refuse that further Petition, I shall continue to fight for my due process rights to defend my
property from its unlawful talcing by PROF.
Meanwhile, it is my request herein that this court refuse to entertain this unlawful detainer case
any further and dismiss this case based on that fact that I have raised bona fide dispute of title
i

App.193

/

ifpsgz?.

/
/

?J

/

/

Ai

s’

/ / *

'-{ih

A / J Ls'

6°

7

from the foreclosure sale. And., specifically, in Parrish v. Federal National Mortgage

’ - hUi' i

!

/'

7

- cf

. ai

V*

y1

-n., 0

i

-T

Association, the Supreme Ct of Va held that, where a borrower raises a bona fide question as to

Vu

the validity of title in a case originally filed in the General District Court (or subsequently

\o

appealed to the Circuit Court from the General District Court), the case must be dismissed

U
\
l

without prejudice because the General District Court lacks original subject matter jurisdiction to

X
( ■O'
(

adjudicate the validity of title. This Court had admitted on 8-3-18 that it could not invalidate the

/y

Deed of Foreclosure or any other deeds on record and further there was no recordation of trial. In

t0’

these circumstances. I have alleged facts sufficient to place the validity of the trustee’s deed in

W'
i

doubt. In such cases, the General District Ct’s lack of subject matter jurisdiction to try title
r

o

supersedes its subject matter jurisdiction to try unlawful detainer and the court must dismiss the
/

case without prejudice.

1 C.

rpJ‘

•v^
A Jr■ 9 '/ -cff

n^ O

y’vf'iO''

.

•%

/

Additionally, in two cases, Ramos v. Wells Fargo Bank (2015) and Mathews v. PHHMortgage
Corp. (2012), the Supreme Court of Virginia confirmed that any challenge to a foreclosure based
on the pre-foreclosure conduct of the lender must be filed before the foreclosure sale has taken
place, if the borrower wants to avoid a foreclosure sale. Clearly, I had filed my first suit Dec. 4,
2015, prior to the foreclosure of Dec. 7,2015, which foreclosure should be found “wrongful”
and/or “void” by the fact that I have filed before the foreclosure action took place. —

N

X

Continuing this Unlawful Detainer suit is a waste of this court’s time and resources. Should this

•.

5

court continue entertaining this suit, which would ultimately be appealed back to the Circuit

.<

s

/

Court, I should wish to move on my Motion for Reconsideration of any future Pending Order
granting possession and/or a monthly bond, as clearly this was a “wrongful foreclosure” wherein
I filed suit to prevent the same from going thru.

/•

/

2^
ssa
2\

App. 194

/

■m

-

acrz^ '

y4

No. 18-9127

IN THE
SUPREME COURT OF THE UNITED STATES

KATHLEEN C. HAMPTON,
Petitioner,;
v.
PROF-2013-S3 LEGAL TITLE TRUST, BY U.S. BANK NATIONAL
ASSOCIATION, AS LEGAL TITLE TRUSTEE; ET AL.
Respondents.

On Petition for Writ of Certiorari to the
The Supreme Court of Virginia
PETITIONER’S REPLY TO WAIVER OF BANK OF AMERICA NA,
FANNIE MAE, AND COUNTRYWIDE HOME LOANS, INC., AND
TO BRIEF IN OPPOSITION OF FAY SERVICING, LLC,
PROF-2013-S3 LEGAL TITLE TRUST, BY
U.S. BANK, N.A., AS LEGAL TITLE TRUSTEE,
MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC., AND SAMUEL I. WHITE, P.C.,
AS SUBSTITUTE TRUSTEE

Kathleen C. Hampton
Petitioner, pro se
P.O. Box 154
Bluemont, Virginia 20135
(540) 554-2042
khampton47@yahoo.com

App.195

Petitioner, Kathleen C. Hampton (“Petitioner” or “Hampton”), pro se,
respectfully submits her Reply to Waiver of Bank of America, et al. and Reply to
Brief in Opposition of PROF-2013-S3 Legal Title Trust, et al. to her Petition for a
Writ of Certiorari to review the judgment of the Supreme Court of Virginia.
AS TO WAIVER OF BANK OF AMERICA, ET AL.
Petitioner believes this Superior Court should request a response of Bank of
America, N.A., Fannie Mae, and Countrywide Home Loans, Inc. (“CW”) (“Bank
Defendants”), particularly since the loan origination began with predatory loans
dating back to 2005, and resulting in the subject predatory re-finance loan of 2006,
and the Deed of Trust, which accompanied it, which should be found void ab initio.
Further, in investigations pending in the Virginia Office of Attorney General,
Predatory Lending Unit, Hampton has learned more violations to the Deed of Trust:
As to Countrywide (“CW”) and the origination of Hampton’s loans:
Under Code of Virginia Section 6.2-1629. Prohibited practices; authority of
the Attorney General: A. ... no person that is engaged in the business of
originating residential mortgage loans in the Commonwealth shall use any
deception, fraud, false pretense, false promise, or misrepresentation in
connection with a mortgage loan transaction, (emphasis added)
Hampton was deceived, fraud is evident in the transaction staged with HSBC, and
she was sold a re-finance loan they clearly knew was subprime and/or unaffordable.
CWs wrongdoing, once again, is further evidenced in the Deed of Trust,
where:
“Under Code of Virginia Section 6.2-1614. Prohibitions applicable to
mortgage lenders and mortgage brokers. No mortgage lender ... shall
.
1. Obtain any agreement or instrument in which blanks are left to be filled in
after execution; ... 5. ... submitting false information in connection with an
application for the mortgage loan, breaching any representation or covenant
made in the agreement or instrument, or failing to perform any other
l

App.196

^

obligations undertaken in the agreement or instrument; ... 7. Knowingly or
intentionally engage in the act or practice of refinancing a mortgage loan
within 12 months following the date the refinanced mortgage loan was
originated, unless the refinancing is in the borrower’s best interest ...”
(emphasis added)
Clearly, the blanks in the DOT at time of signing the same were a violation of the
above. The blanks referred to page nos. of the re-financed [subprime] loans, and
were never filled in thereafter and. in fact, they were struck through as if it were
not a re-finance, concealing the fact that CW was not entitled to a prepayment
penalty for an in-house refinance, in addition to the fraud and deceit in recorded
documentation with the Clerk’s Office, in support of Hampton’s claim to a void ab
initio DOT. Notable also is this refinance was done within 11 months and was not in
Hampton’s best interest, since it was set to fail, as clearly it was “unaffordable.
Further, at no time have any of the Respondents, particularly Bank
Defendants addressed their mandated compliance with Fannie Mae Guidelines
“Announcement 09-05R” dated April 21, 2009 (the last two pages of Exhibit 15), or
any mandates to their “Consent Orders” under the Independent Foreclosure Review
(IFR) thi’ough the OCC/U.S. Treasury, which Hampton qualified for. Clearly, these
are Federal programs which this court should have jurisdiction over.
AS TO REPLY TO BRIEF IN OPPOSITION OF
PROF-2013-S3 LEGAL TITLE TRUST, ET AL.
In reply to the Biief in Opposition by PROF-2013-S3 Legal Title Trust, et al.
(“Trust Defendants”), and particularly to their arguments on this Superior Court’s
Jurisdiction, Hampton stated that this Court’s jurisdiction is invoked under 28

2

App. 197

U.S.C. §1257(a) and perhaps misplaced §2101(c), as it applied to the petition being
timely filed within ninety days after the judgment on the Petition for Rehearing.
Pertinent constitutional and statutory provisions were set forth in the
Appendix to Hampton’s Petition (App. N), which Hampton draws this Court’s
attention to the last paragraph on the last page thereof-'

i

“The party secured by the deed of trust, or the holders of greater than fifty
percent of the monetary obligations secured thereby, shall have the right and
power to appoint a substitute trustee or trustees. The instrument of
appointment shall be recorded in the office of the clerk wherein the original
^
deed of trust is recorded prior to or at the time of recordation of any 01 A u
instrument in which a power, right, authority or duty conferred by the ^7 jP ,
original deed of trust is exercised.” (emphasis added)
^(j
Here, Trust Defendants appointed a substitute trustee, while they no longer owned

^ ^ y~

the loan as it had been sold to PEMF Acquisitions on June 19, 2015, and exercised a
duty conferred by the original deed of trust” withouj^
“power, right, authority or
being assigned the same or recording the same “in the office of the clerk wherein the
original deed of trust was recorded.” This is but one merit to Hampton s case that
was pled and Judicially Noticed. Thus, wrong party appointed a substitute trustee
and could not make claim to being secured by the Deed of Trust, nor had an
Assignment of the Deed of Trust been made to them prior to exercising foreclosure.
Where further shown in the Bloomberg Audit Reports Highlights pages 24*31
of the Second Amended Complaint:
‘"Bloomberg Loan Securitization Audit Report HIGHLIGHTS
1. There is no evidence on Record to indicate that the Mortgage was ever
transferred concurrently with the purported legal transfer of the Note, such
that the Mortgage and Note has been irrevocably separated, thus making a
nullity out of the purported security in a property, as claimed.” ...
3

App.198

i

•

Although MERS records an assignment in the real property records., the
promissory note which creates the legal obligation to repay the debt has not
been transferred nor negotiated by MERS.”...

.

MERS is not a party to the alleged mortgage indebtedness underlying the
security instrument for which it serves as “nominee”....

The loan was originally made to Countrywide Home Loans, Inc. and may
have been sold and transferred to Fannie Mae Remic Trust 2006-67. There is no
record of Assignments to either the Sponsor or Depositor as required by the
Pooling and Servicing Agreement.
In Carpenter v. Longan 16 Wall. 271,83 U.S. 271, 274, 21 L.Ed. 313 (18/2), the
U.S. Supreme Court stated (‘The note and mortgage are inseparable; the former
as essential, the latter as an incident An assignment of the note carries the
mortgage with it, while assignment of the latter alone is a nullity.

■4L

An obligation can exist with or without security. With no security, the obligation
is unsecured but still valid. A security interest, however, cannot exist without an
underlying existing obligation. It is impossible to define security apart from its
relationship to the promise or obligation it secures. The obligation and the
security are commonly drafted as separate documents - typically a promissory
note and a Mortgage. If the creditor transfers the note but not the Mortgage, the
transferee receives a secured note! the security follows the note, legally if not
physically. If the transferee is given the Mortgage without the note
accompanying it, the transferee has no meaningful rights except the possibility
of legal action to compel the transferor to transfer the note as well, if such was
the agreement. (Kelley v. Upshaw 91952) 39 C.2d 179, 246 P.2d 23! Polhemus v.
Trainer (1866) 30C 685).
“Where the mortgagee has “transferred” only the mortgage, the transaction is a
nullity and his “assignee” having received no interest in the underlying debt or
obligation, has a worthless piece of paper (4 Richard R. Powell), Powell on Real
Property, § 37.27 [2] (2000).

*

By statute, assignment of the mortgage carries with it the assignment of the
debt. .. Indeed, in the event that a mortgage loan somehow separates interests of
the note and the Mortgage, with the Mortgage lying with some independent
entity, the mortgage may become unenforceable. The practical effect of splitting
the Mortgage from the promissory note is to make it impossible for the holder of
the note to foreclose, unless the holder of the Mortgage is the agent of the holder
of the note. Without the agency relationship, the person holding only the trust
win never experience default because only the holder of the note is entitled to
payment of the underlying obligation. The mortgage loan becomes ineffectual
when the note holder did not also hold the Mortgage.

App. 199

Thus. Hampton’s claim to no one having a right to foreclose.
Furthermore, the Supreme Court of Virginia refused the petition for appeal
on their “opinion there is no' reversible error in the judgment complained of.” The
Court did not address any errors assigned other than the judgment complained of.
Still further, upon the Petition for Rehearing, the prayer of the petition was denied,
and the only court of Appeal beyond that State Supreme Court is rightfully in the
hands of this Superior Court.
Further, beginning on pages 23*33, of Hampton’s Petition, she had pled with
“factual” evidence (exhibits) that drew a reasonable inference that the defendants
were liable for the misconduct alleged, and for Hampton’s case not to be heard on
the merits thereto is a clear violation of her rights to procedural due process.
Hampton’s Constitutional Rights are supported by the Jurisdictional State­
ment bridging pages 33 through 36. Clearly, this Superior Court has jurisdiction
over Hampton’s Appeal.
Petitioner in her "questions presented” and throughout her Petition is
seeking “clarity and uniformity” and believes that this case, upon being heard, may
aid in establishing the same.
Continuing here from page 40 of Hampton’s Petition:
It would seem that in light of the bad practices of these servicers,
including Fay on behalf of PROF/US Bank, uniform non-foreclosure rules
should be developed to protect citizens nationwide from the unlawful taking
of their homes in violation of their Constitutional rights and without due
process. ... It is time for the courts to stand up to these TBTF banks and/or
their servicers. The solution is always uniformity and clarity must he
achieved. Perhaps the better solution would be to bar non-judicial
foreclosures altogether until our faith in home ownership can be restored.
5

App. 200

>

CONCLUSION
Once again, Petitioner respectfully request certiorari be granted for this
Petition, in order that this Court may restore and protect citizens’ Constitutional
rights as they were created to be. I trust in God and this Superior Court.
The petition for a writ of certiorari should be granted.
Dated: September 25, 2019

Respectfully submitted,

Kathleen C. Hampton, Petitioner, pro se
P.O. Box 154
Bluemont, Virginia 20135
540-554*2042
Email: khampton47@yahoo.com

6

App. 201

